<html>
<title> - COMPILATION OF HEARINGS AND MARKUPS</title>
<body><pre>[Senate Hearing 111-1126]
[From the U.S. Government Publishing Office]



 
                  COMPILATION OF HEARINGS AND MARKUPS

=======================================================================


                          HEARINGS AND MARKUPS

                               before the

                           COMMITTEE ON RULES

                           AND ADMINISTRATION

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION



                               ----------                              

    February 11, 2009; March 11, 2009; May 13, 2009; June 10, 2009;

                June 10 and 11, 2009; and July 15, 2009

                               ----------                              

                  COMPILATION OF HEARINGS AND MARKUPS




                  U.S. GOVERNMENT PRINTING OFFICE
66-336                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                 COMMITTEE ON RULES AND ADMINISTRATION

                 CHARLES E. SCHUMER, New York, Chairman

ROBERT C. BYRD, West Virginia        ROBERT F. BENNETT, Utah
DANIEL K. INOUYE, Hawaii             MITCH McCONNELL, Kentucky
CHRISTOPHER J. DODD, Connecticut     THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         KAY BAILEY HUTCHISON, Texas
RICHARD J. DURBIN, Illinois          SAXBY CHAMBLISS, Georgia
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             JOHN ENSIGN, Nevada
MARK L. PRYOR, Arkansas              PAT ROBERTS, Kansas
TOM UDALL, New Mexico
MARK R. WARNER, Virginia

                 Jean Parvin Bordewich, Staff Director
               Mary Suit Jones, Republican Staff Director

                Jennifer Griffith, Deputy Staff Director
                      Jason A. Abel, Chief Counsel
        Adam D. Ambrogi, Administrative and Legislative Counsel
                 Veronica Gillespie, Elections Counsel
   Carole Blessington, Administrative Assistant to the Staff Director
                          Sonia Gill, Counsel
                       Julia Richardson, Counsel
                  Josh Brekenfeld, Professional Staff
                    Lauryn Bruck, Professional Staff

             Shaun Parkin, Republican Deputy Staff Director
                Paul Vinovich, Republican Chief Counsel
             Michael Merrell, Republican Elections Counsel
               Abbie Platt, Republican Professional Staff
               Trish Kent, Republican Professional Staff
            Rachel Creviston, Republican Professional Staff

                     Lynden Armstrong, Chief Clerk
                  Matthew McGowan, Professional Staff

Note: Archived webcasts of all hearings and an electronic version of 
    this report are available at http://rules.senate.gov.


                            C O N T E N T S

                              ----------                              

                           February 11, 2009
                         ORGANIZATIONAL MEETING
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................     1
Hon. Robert Bennett, Ranking Member, a U.S. Senator from the 
  State of Utah..................................................     2
Hon. Pat Roberts, a U.S. Senator from the State of Kansas........     3
                              ----------                              

                             March 11, 2009
        HEARING--VOTER REGISTRATION: ASSESSING CURRENT PROBLEMS
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................     8
Hon. Robert Bennett, Ranking Member, a U.S. Senator from the 
  State of Utah..................................................    10
Hon. Mark Warner, a U.S. Senator from the State of Virginia......    12
Hon. Tom Udall, a U.S. Senator from the State of New Mexico......    13

                             Testimony of:

Mr. Stephen Ansolabehere, Professor, Department of Government, 
  Harvard University, Cambridge, MA..............................    14
Mr. Curtis Gans, Director, Center for the Study of the American 
  Electorate, Washington, DC.....................................    15
Mr. Nathaniel Persily, Charles Keller Beekman Professor of Law 
  and Political Science, Columbia Law School, New York, NY.......    16
Hon. Chris Nelson, Secretary of State, State of South Dakota, 
  Pierre, SD.....................................................    18
Ms. Kristen Clarke, Co-Director, Political Participation Group, 
  NAACP Legal Defense and Educational Fund, Inc., Washington, DC.    20
Mr. Jonah H. Goldman, Director, National Campaign for Fair 
  Elections, Lawyers' Committee for Civil Rights Under Law, 
  Washington, DC.................................................    22

                         Prepared Statement of:

Mr. Stephen Ansolabehere, Professor, Department of Government, 
  Harvard University, Cambridge, MA..............................    40
Mr. Curtis Gans, Director, Center for the Study of the American 
  Electorate, Washington, DC.....................................    62
Mr. Nathaniel Persily, Charles Keller Beekman Professor of Law 
  and Political Science, Columbia Law School, New York, NY.......    76
Hon. Chris Nelson, Secretary of State, State of South Dakota, 
  Pierre, SD.....................................................    82
Ms. Kristen Clarke, Co-Director, Political Participation Group, 
  NAACP Legal Defense and Educational Fund, Inc., Washington, DC.    97
Mr. Jonah H. Goldman, Director, National Campaign for Fair 
  Elections, Lawyers' Committee for Civil Rights Under Law, 
  Washington, DC.................................................   107

                  Materials Submitted for the Record:

Roll Call, ``Voter Registration System Needs to Be Modernized,'' 
  Robin Carnahan and Trey Greyson, Submitted by Chairman Charles 
  E. Schumer.....................................................   160
Testimony of Dr. Larry J. Sabato, Director, University of 
  Virginia Center for Governmental Studies, before the U.S. 
  Senate Committee on Governmental Affairs, Submitted by Senator 
  Robert Bennett.................................................   162
Statement Submitted by American Association of People with 
  Disabilities (AAPD)............................................   166
Statement Submitted by American Civil Liberties Union (ACLU).....   186
Statement Submitted by Association of Community Organizations for 
  Reform Now (ACORN).............................................   191
Statement Submitted by Advancement Project.......................   197
Statement Submitted by Demos.....................................   206
Statement Submitted by Fair Vote.................................   215
Statement Submitted by League of Women Voters (LWV)..............   225
Statement Submitted by National Defense Committee................   227
Statement Submitted by National Disability Rights Network........   243
Statement Submitted by United States Public Interest Research 
  Group (U.S. PIRG)..............................................   318
Statement Submitted by Project Vote..............................   323
Statement Submitted by Scott J. Rafferty.........................   328
Statement Submitted by Student Association for Voter Empowerment 
  (SAVE).........................................................   331
Statement Submitted by The Reform Institute......................   333
Statement Submitted by Women's Voices, Women Vote................   336
                              ----------                              

                              May 13, 2009
 HEARING--PROBLEMS FOR MILITARY AND OVERSEAS VOTERS: WHY MANY SOLDIERS 
                     AND THEIR FAMILIES CAN'T VOTE
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   343
Hon. Saxby Chambliss, a U.S. Senator from the State of Georgia...   346
Hon. Ben Nelson, a U.S. Senator from the State of Nebraska.......   348

                             Testimony of:

Ms. Gail McGinn, Acting Undersecretary for Personnel and 
  Readiness, Department of Defense, Washington, DC...............   349

                         Opening Statement of:

Hon. Pat Roberts, a U.S. Senator from the State of Kansas........   357

                             Testimony of:

Ms. Pat Hollarn, Retired Elections Director, Okaloosa County, 
  Shalimar, FL...................................................   359
Mr. Don Palmer, Director, Division of Elections, Florida 
  Department of State, Tallahassee, FL...........................   361
Lt. Col. Joseph DeCaro, USAF, Eglin Air Force Base, FL...........   363
Mr. M. Eric Eversole, Attorney, Washington, DC...................   365
Mr. Robert Carey, Executive Director, National Defense Committee, 
  Alexandria, VA.................................................   367

                         Prepared Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   380
Hon. Robert Bennett, Ranking Member, a U.S. Senator from the 
  State of Utah..................................................   383
Hon. Saxby Chambliss, a U.S. Senator from the State of Georgia...   384
Hon. E. Benjamin Nelson, a U.S. Senator from the State of 
  Nebraska.......................................................   387
Hon. Pat Roberts, a U.S. Senator from the State of Kansas........   389
Hon. Dianne Feinstein, a U.S. Senator from the State of 
  California.....................................................   390
Hon. Kay Bailey Hutchison, a U.S. Senator from the State of Texas   392
Ms. Gail McGinn, Acting Undersecretary for Personnel and 
  Readiness, Department of Defense, Washington, DC...............   395
Ms. Pat Hollarn, Retired Elections Director, Okaloosa County, 
  Shalimar, FL...................................................   408
Mr. Don Palmer, Director, Division of Elections, Florida 
  Department of State, Tallahassee, FL...........................   412
Lt. Col. Joseph DeCaro, USAF, Eglin Air Force Base, FL...........   421
Mr. M. Eric Eversole, Attorney, Washington, DC...................   426
Mr. Bob Carey, Executive Director, National Defense Committee, 
  Alexandria, VA.................................................   435

                  Materials Submitted for the Record:

Statement Submitted by Democrats Abroad..........................   451
Statement Submitted by Everyone Counts...........................   455
Statement Submitted by Federation of American Women's Clubs 
  Overseas (FAWCO)...............................................   467
Statement Submitted by Iraq and Afghanistan Veterans of America 
  (IAVA).........................................................   470
Statement Submitted by Overseas Vote Foundation (OVF)............   472
Statement Submitted by Pew Center on the States..................   536
Statement Submitted by Mr. Alec Yasinsac, Dean, School of 
  Computer and Information Sciences, U. of South Alabama, Mobile, 
  AL.............................................................   584

                       Questions for the Record:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York to Committee witnesses.............................   608
Hon. Ben Nelson, a U.S. Senator from the State of Nebraska to 
  Committee witnesses............................................   613
                              ----------                              

                             June 10, 2009
 HEARING--NOMINATION OF JOHN J. SULLIVAN TO BE A MEMBER OF THE FEDERAL 
                          ELECTION COMMISSION
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   621
Hon. Robert Bennett, a U.S. Senator from the State of Utah.......   622
Hon. Saxby Chambliss, a U.S. Senator from the State of Georgia...   622

                             Testimony of:

Mr. John J. Sullivan, Nominee to be a Member of the Federal 
  Election Commission............................................   622

                         Prepared Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   630
Mr. John J. Sullivan, FEC Nominee................................   632
                              ----------                              

                       June 10 and June 11, 2009

EXECUTIVE BUSINESS MEETING TO CONSIDER THE NOMINATION OF JOHN J. 
  SULLIVAN TO BE A MEMBER OF THE FEDERAL ELECTION COMMISSION.....   637
                              ----------                              

                             July 15, 2009
 LEGISLATIVE BUSINESS MEETING TO CONSIDER S. 1415, THE ``MILITARY AND 
                    OVERSEAS VOTER EMPOWERMENT ACT''
                         Opening Statement of:

Hon. Charles E. Schumer, Chairman, a U.S. Senator from the State 
  of New York....................................................   639
Hon. Robert F. Bennett, a U.S. Senator from the State of Utah....   641
Hon. Ben Nelson, a U.S. Senator from the State of Nebraska.......   641
Hon. Mark Pryor, a U.S. Senator from the State of Arkansas.......   642
Hon. Saxby Chambliss, a U.S. Senator from the State of Georgia...   642
Hon. Tom Udall, a U.S. Senator from the State of New Mexico......   643

                         Prepared Statement of:

Hon. Robert F. Bennett, Ranking Member, a U.S. Senator from the 
  State of Utah..................................................   648

                  Materials Submitted for the Record:

Summary of Amendments Submitted by Senator Bennett...............   649
Statement Submitted by Alliance for Military and Overseas Voting 
  Rights.........................................................   651
Statement Submitted by M. Eric Eversole..........................   654
Statement Submitted by Federation of American Women's Clubs 
  Overseas, Inc. (FAWCO).........................................   655
Statement Submitted by Fleet Reserve Association (FRA)...........   657
Statement Submitted by Operation Bravo Foundation................   658
Statement Submitted by Overseas Vote Foundation (OVF)............   660
Statement Submitted by Pew Center on the States..................   661


                            BUSINESS MEETING

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2009

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:37 a.m., in 
Room 301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the committee, presiding.
    Present: Senators Schumer, Durbin, Nelson, Pryor, Udall, 
Warner, Bennett, and Roberts.
    Staff present: Jean Bordewich, Staff Director; Jason Abel, 
Chief Counsel; Veronica Gillespie, Elections Counsel; Adam 
Ambrogi, Counsel; Carole Blessington, Assistant to the Staff 
Director; Brenna Allen, Professional Staff; Lynden Armstrong, 
Chief Clerk; Justin Perkins, Staff Assistant; Mary Jones, 
Republican Staff Director; Shaun Parkin, Republican Deputy 
Staff Director; Paul Vinovich, Republican Chief Counsel; 
Michael Merrell, Republican Elections Counsel; Abbie Platt, 
Republican Professional Staff; Trish Kent, Republican 
Professional Staff; Rachel Creviston, Republican Professional 
Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The Rules Committee will come to order 
and I want to wish everyone good morning to our first Rules 
Committee meeting of the 111th Congress.
    The first thing I want to do is express appreciation to 
Senator Feinstein for the fabulous job she did and hard work. 
She is moving on to the Intelligence Committee. They are lucky 
to have her.
    I also want to thank the outgoing staff director, Howard 
Gantman, for all his hard work and the staff is, I have learned 
at the early stages, is just truly a professional group and so 
professional that they handle most things without bothering the 
chairman, the ranking member or the other members, and that is 
great. So I thank all of you for the great work that you have 
done, and since we are keeping almost all of the staff, that 
you will do.
    I would also like to say how much I am going to look 
forward to working with Senator Bennett during this Congress. 
He is just one of the finest people around here, and Senator 
Roberts, you are lucky to be mistaken for him from time to time 
and maybe you will grow a few inches.
    The Committee, this year we have a number of important 
issues to consider, election administration, campaign finance, 
oversight of the Senate, legislative branch functions, 
executive agencies and a host of other important issues, so it 
is going to be a busy year. The ranking member and I look 
forward to dealing with these issues as well as working with 
all of you.
    Good morning. Thank you for coming, Senator Udall. The 
freshmen members of the Committee, I believe the new members of 
the committee have 100 percent attendance.
    Senator Bennett. Yes.
    Chairman Schuman. Which is very good. Wish we could say 
that for the rest. Anyway, so it is going to be a good--it is 
going to be a good year and I want to welcome both Senator 
Roberts of Kansas, our new Republican member, and our two new 
members from the Democratic side, Tom Udall and Mark Warner. 
Thank you both for being here. It is three great new members 
who have lots of experience in many different ways and I know 
they will contribute well to the Committee.
    Now I am going to turn it over to Senator Bennett to make a 
few remarks.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman, and I 
certainly echo and associate myself with your comments with 
respect to Senator Feinstein and her staff. This was as 
pleasurable a committee assignment as I have had in the Senate 
and as congenial a relationship as I have had with a chairman. 
I want to look forward to the same relationship with you. I 
think our personal friendship suggests that that will be the 
case.
    Chairman Schumer. Agreed.
    Senator Bennett. Even when we may disagree on policy 
issues. I say welcome to the new members and as I have 
commented, service on this Committee will do you no good 
whatsoever in terms of your relationship with your 
constituents, who do not care at all about the issues of 
administration of the United States Senate, but when people 
want rooms or other accommodations, it makes you very, very 
popular with your colleagues.
    Chairman Schumer. Until the decision is made.
    Senator Bennett. Until the decision is made. But it is an 
interesting committee. It has an interesting jurisdiction and I 
think particularly with respect to some of the election issues, 
it might turn out to be one of the more stimulating experiences 
you have in this Congress.
    So we welcome you and appreciate your participation. With 
that, Mr. Chairman, I am prepared to proceed with the agenda 
where we adopt our rules for the year.
    Chairman Schumer. Great, that will be terrific. I wonder if 
any of our colleagues would like to make any statements? 
Senator Udall? Senator Warner?
    Senator Udall. My staff sent me over with an one-hour 
speech and I am going to forego that.
    Chairman Schumer. By unanimous consent the entire speech 
will be placed in the record.
    Senator Udall. Okay, thank you.
    Chairman Schumer. However long it may end up being.
    Senator Warner?
    Senator Warner. Mr. Chairman, I am happy to be on the 
Committee. I do not know if this shows that I drew the long 
straw or the short straw, but I am happy to be here.
    Chairman Schumer. Senator, you always seem to draw both. 
Senator Roberts?

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. I have the dubious privilege of being the 
longest serving member on the Ethics Committee in the history 
of the United States Senate. I was wondering if I could switch 
with somebody?
    Thank you, Chuck, and it is good to be on the Committee. I 
did not expect this privilege, but I will try to do my very 
best and I have already received the donut and a cup of coffee, 
just like that, so things could not be any better. I look 
forward to working with you.
    Chairman Schumer. Thank you, Senator, and Senator and I 
know each other from our House days when we played in the gym 
everyday and he set the best picks. He is the most solid and 
subtle pick, picker--I do not know what the word is--maker of 
picks on the basketball court. I think many a Democrat was 
injured crashing into him.
    Senator Roberts. I think you called it a foul at the time.
    Chairman Schumer. Yes, indeed. I was trying to be polite. 
Okay, well why don't we get started? I want to thank you.
    Our agenda this morning is the adoption of the Committee 
Rules of Procedure and then the approval of an original 
resolution which with fund the Rules Committee during the 111th 
Congress.
    As for the rules of procedure, they are virtually the same 
as last Congress and I do not think there is any dispute. 
Senator Bennett and I have agreed that they worked well last 
year and we ought to just keep them.
    The second item is the approval of the budget. As many 
members are aware, the Rules Committee recently sent a letter 
to the Committee chairman, ranking members regarding their 
budgets for the 111th Congress and the letter included guidance 
from the leadership on the amount of funds that would be 
available for expenditures and I am pleased to report that the 
Rules Committee resolution is within the guidelines set by 
Senators Reid and McConnell.
    Most of the committees got very nice allocations. I am also 
pleased to inform the Committee that the other committees will 
be reporting resolutions that were within the leadership 
guidelines, so everyone is pretty happy. We do not have anybody 
protesting and that is all to the good.
    According to the Committee's rule procedures, we need seven 
members to begin discussing Committee business and we need ten 
members to conduct the Committee business for today. We want to 
welcome Senator Pryor, who is the sixth member, so one more, 
and Senator Feinstein is on her way. Good.
    We need 10 members to report legislation, but when seven 
members are present, we can begin to discuss the agenda items 
and at that time, I am going to entertain a motion to adopt the 
rules of procedure and approve the original resolution 
authorizing expenditures for the Rules Committee for the 111th.
    So we do not have a quorum, but if the members would 
indulge and wait a few minutes and see if Senator Feinstein 
comes by, we can then just at least move the resolutions. Here 
is Senator Nelson, and we are truly privileged to have Senator 
Nelson here because I was in Senator Reid's office just about a 
half hour ago and he was on the phone with Senator Nelson 
talking about the important work Senator Nelson is doing on the 
economic recovery package.
    So we appreciate your taking the time to being here Ben, 
and we have been joined also by Mark Pryor, great member. Would 
either of you like to say anything? Senator Nelson?
    Senator Nelson. I would say, Mr, Chairman, thank you. Ever 
since you took over my public relations effort and taken over 
officially, my coverage has been increased dramatically and I 
just want to thank you.
    Chairman Schumer. You have done a great job and you deserve 
it. Senator Pryor, how is your coverage?
    Senator Pryor. I'll always [inaudible] improved.
    Chairman Schumer. Great. Okay, just for Mark and Ben, we 
need seven.
    Senator Roberts. We have seven.
    Chairman Schumer. We have seven. Thank you, Senator 
Roberts. You are already contributing in a very material----
    Senator Roberts. Mr. Chairman, I move that we adopt the 
rules and resolution.
    Chairman Schumer. We can move them, but we cannot vote on 
them until we have 10 members. But we will----
    Senator Nelson. Second.
    Chairman Schumer. Second. Thank you, Senator Nelson. We 
will try to just convene a vote right off the floor to get the 
10 members to adopt the rules. So we have the motion. It is 
seconded and we will let you know when we will meet on that.
    We are expecting both Senators Durbin and Feinstein, which 
will bring us to nine, so if members wouldn't mind waiting a 
couple of minutes. Let's say if we don't have nine by 10 of 11, 
we will just adjourn; how is that? Because if we have nine, we 
will just somehow dragoon the 10?
    Senator Bennett. Mr. Chairman, it is my understanding that 
with seven we can adopt the resolution, the rules, but we 
cannot adopt the funding resolution.
    Chairman Schumer. Is that correct? That is correct. Good. 
Okay, well then let me ask, does anyone wish to have a roll 
call vote on the rules of the Committee? If not, let me just 
ask all in favor, say aye.
    [A chorus of ayes.]
    Chairman Schumer. Opposed, nay. And the motion is agreed 
to, so the rules of procedure adopted. The original resolution 
is approved and reported.
    Now we will just wait for the funding resolution.
    Senator Bennett. That is correct.
    Chairman Schumer. Let me, while I am doing that, introduce 
our new chief of staff, Jean Bordewich. Please say hello to 
everybody.
    Ms. Bordewich. Hello. It's nice working with everyone.
    Chairman Schumer. Jean is one of the most capable people I 
have met and we know each other since we were 19 years old and 
we were interns here in Washington. You will be happy to know 
on this side of the aisles, I was an intern for a Republican 
senator, Senator Charles Goodell, of Jamestown, New York.
    Senator Bennett. I remember him.
    Chairman Schumer. He was a fine person. His son is now the 
commissioner of the NFL and still remembers the Buffalo Bills 
and how important they are. And Jean Bordewich worked for 
Congressman Richardson Pryor, who was a Democrat from 
Greensboro?
    Ms. Bordewich. Greensboro, North Carolina.
    Chairman Schumer. Greensboro, North Carolina, and we became 
friends then and have stayed in touch. I am really privileged 
that she decided to take this job and I think we will all be 
lucky.
    Our counsel is Jason Abel, another very, very capable 
person. Those are the two new people and the rest of the staff 
are all from Senator Feinstein and Senator Bennett's tenure 
because they did such a great job there was no need to change 
staff.
    Senator Warner?
    Senator Warner. As a new member of the committee and of the 
Senate, and if you have two minutes to kill, can you give us a 
little quickie overview of--I think I understand the 
jurisdiction of the Committee, but if you could explain it 
again and what you think we might be taking on.
    Chairman Schumer. The Committee, of course, has 
jurisdiction, I guess you divide it into two parts, one is the 
legislation jurisdiction, one is the administrative 
jurisdiction.
    The administrative I think everyone is familiar with in the 
sense that it deals with budgets, it deals with rooms, it deals 
with parking spaces. But the amazing thing is, it deals with 
many, many other issues that we never have to really worry 
about because the staff does such a great job.
    I mean, for instance, they are in charge of all of the 
Capitol grounds, the Visitor's Center, the restaurants, things 
like that. Some meet with the police chief every few days just 
to make sure everything is going correctly there.
    One of the issues that we might face, some have wanted to--
Senator Durbin, thanks for coming, Dick. Somebody has said we 
have an old coal burning heating facility and some have moved 
that we upgrade it. Of course, it is a large expense.
    So there are those kinds of issues that come before us, the 
Smithsonian, so many others. The Library of Congress is in our 
jurisdiction. They are very interesting issues; I did not 
realize them until the other night. We had a briefing and the 
number of different issues that say Jean has to deal with 
everyday that we do not have to bother. These are not partisan 
issues. These are just sort of picking up the garbage, as they 
say.
    The other is the legislative issues which are very, very 
interesting. It is in a few areas. Anything to do with 
elections. There is obviously all kinds of issues of election 
law reform. President Obama has been interested in these issues 
and I expect we are going to be pretty active in that area this 
year in terms of elections, in terms of voting and things like 
that.
    Second obviously is campaign finance reform, another issue 
that always seems to bubble up. That is an issue again that we 
have jurisdiction over and probably there are things that have 
to change in terms of campaign finance reform, places where it 
is broken.
    And the third, which is sort of legislative, is an issue I 
think we are going to be talking about more and more, is the 
rules of the Senate and how the Senate works and how it is 
governed. And again, cannot do anything if you cannot come to 
bipartisan agreement on rules of the Senate because the rules 
need two-thirds change. But there may be a need to change some 
of those rules.
    Those, I would say, would be the three major areas of 
jurisdiction and I think each of them will sort of be bubbling 
this year, election law reform clearly, campaign finance reform 
and even rules of the Senate in terms of how we function.
    So that is basically the jurisdiction of the Committee, and 
if you can come up with any new jurisdictions that will not get 
our fellow Committee members angry on other committees, feel 
free.
    Dick, do you want to say anything?
    Senator Durbin. It is an interesting committee and does 
have some important considerations, issues to consider, I 
should say. I had a public financing proposal with Senator 
Specter in the last Congress that we would like to return to. I 
hope that that will be part of the conversation.
    Senator Feinstein was kind enough to give us a hearing. I 
would like to see in light of the intervening Supreme Court 
decision if we can go back to this and see if it needs to be 
modified.
    Chairman Schumer. Right, the whole area of public finance 
with the law that was passed, McCain-Feingold, a couple of 
years ago, does need a review because there were certain things 
they thought would happen did not, certain other unexpected 
consequences that occurred, and then some like Senator Durbin 
and Senator Specter think the whole thing should be changed 
around and we ought to move to public financing. These are very 
important issues and certainly it is something we are going to 
look at.
    We have now three, six, eight.
    Senator Bennett. We have nine.
    Chairman Schumer. We have nine?
    Senator Bennett. We have nine.
    Chairman Schumer. No, we don't. One, two.
    Senator Bennett. We have eight.
    Chairman Schumer. Eight?
    Senator Bennett. Eight.
    Chairman Schumer. You know, even if Senator Feinstein--is 
anyone else expected? I am not going to keep us here.
    Well, I think I am not going to make people wait. We will 
try to have the vote on the funding off the floor. It was nice 
of all of you to come. We did adopt the rules. We only needed 
seven for those before Dick and Ben came in, but thank you for 
coming and we will just try to convene a quick little meeting 
on the floor to adopt the funding resolution, if that is okay. 
I think it is unfair to make people wait any further.
    So thanks very much for coming and we will continue to have 
muffins, because it brought a pretty good turnout. Thank you.
    [Whereupon, at 10:53 a.m., the committee was adjourned and 
reconvened at 5:27 p.m. in the Capitol on this same day. 
Present: Senators Schumer, Dodd, Feinstein, Durbin, Murray, 
Pryor, Udall, Bennett, Hutchison, Chambliss, Alexander and 
Roberts.]
    Chairman Schumer. The Rules Committee will come to order. 
Earlier today, we approved our Rules of Procedure, and now that 
we have at least 10 members, I will entertain a motion to adopt 
the original resolution authorizing biennial expenditures for 
the Rules Committee. Is there a motion?
    Senator Bennett. I move, Mr. Chairman.
    Chairman Schumer. Is there a second?
    [A chorus of speakers.] I second.
    Chairman Schumer. Since there has been no request for a 
roll call vote, this will be a voice vote. All in favor, say 
aye:
    [A chorus of ayes.]
    Chairman Schumer. Opposed, nay.
    [No response.]
    Chairman Schumer. The motion is agreed to--the original 
resolution is approved and ordered reported. Since there is no 
further business, the Committee is adjourned subject to the 
call of the chair.
    [Whereupon, at 5:35 p.m., the Committee was adjourned.]0



             VOTER REGISTRATION: ASSESSING CURRENT PROBLEMS

                              ----------                              


                       WEDNESDAY, MARCH 11, 2009

                      United States Senate,
             Committee on Rules and Administration,
                                                   Washington, D.C.
    The Committees met, pursuant to notice, at 10:08 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Committee, presiding.
    Present: Senators Schumer, Pryor, Udall, Warner, and 
Bennett.
    Staff present: Jean Bordewich, Staff Director; Jason Abel, 
Chief Counsel; Veronica Gillespie, Elections Counsel; Adam 
Ambrogi, Counsel; Carole Blessington, Assistant to the Staff 
Director; Brenna Allen, Professional Staff; Lynden Armstrong, 
Chief Clerk; Matthew McGowan, Professional Staff; Mary Jones, 
Republican Staff Director; Shaun Parkin, Republican Deputy 
Staff Director; Paul Vinovich, Republican Chief Counsel; 
Michael Merrell, Republican Elections Counsel; Trish Kent, 
Republican Professional Staff; and Rachel Creviston, Republican 
Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The Rules Committee shall come to order, 
and good morning to one and all. And I would like to thank my 
colleague, Senator Bennett, I look forward to a close and 
amiable working relationship, whether we agree or disagree on 
issues, as is his way, in the future.
    Anyway, this morning our topic is voter registration. If 
voting is the heart of democracy, registering Americans is the 
lifeblood of our Republic. But it seems as if we have had some 
serious circulation problems. What the butterfly ballots and 
hanging chads were in 2000 is what voter registration problems 
are today.
    Today we will hear new groundbreaking reports of astounding 
problems with our voter registration system. Hidden from the 
excitement of the past election was the fact that millions of 
voters, through no fault of their own, were shut out of this 
process due to deeply-rooted problems that need to be fixed.
    We will hear from our witnesses and more details, but the 
numbers are staggering. Professor Ansolabehere's research 
reveals that as many as 7 million eligible and registered 
voters were denied the right to vote, whether it was a photo ID 
requirement, list purges, no match, no vote comparisons, or 
simply because they moved from one home to the other and their 
registration did not follow. His astonishing report also 
estimates that as many as 9 million additional people were 
prevented from registering due to deadlines and change of 
residency requirements.
    Now, each one of these alone does not seem like an 
egregious violation, although to the person it might be, but 
put together, you get massive disenfranchisement, and this is 
undemocratic, unacceptable. And, of course, as we know, 7 
million is often enough to swing a federal election.
    Since World War II, the popular vote in 8 of 16 
presidential elections could have swung the other way, and 
hundreds of times over, states could have swung as well if 7 
million people who were supposed to vote did not.
    Voter registration errors know no party or ideology, so 
listen to a few stories.
    There is the serviceman and his wife who move from base to 
base and are not allowed to vote because they did not arrive at 
their new residence to meet the deadline to register. In other 
words, the Army tells them October 15th you have to be 
somewhere else November 1st. And yet, the voter registration 
deadline was October 15th in the new place where they are 
going. They cannot even vote for their commander and chief, who 
will determine whether or not the soldier is sent off to war.
    Then there is the hardworking father holding down two jobs 
to put food on the table for his kids, who skips dinnertime to 
go and vote, only to be turned away simply because his name was 
confused with that of an ineligible convicted felon.
    There is the tradesman who finds his name is not on the 
list because his handwriting was not clear on his voter 
registration form. So an A becomes a U, and there is no match 
for his drivers license, and no vote.
    In fact, Joe the Plumber of the 2008 election fame was 
nearly denied the right to vote last November because his name 
was misspelled on the voter list. Now, it was a hard name to 
spell, so I am not blaming anybody, but it is just a fact.
    There is a student who attends a university in Virginia 
only to be told he cannot register to vote at his new domicile, 
and if he does, he could lose financial aid.
    There is a woman who shows up to vote only to find out she 
was not even registered due to an error made by a third party 
registration organization who misplaced the form or sent it in 
too late.
    I cannot tell you how many times in New York I have heard 
the refrain, I registered to vote, and when I showed up, I was 
told my name was not on the list. So we seem to be stuck in the 
mud on certain issues.
    As I said, each of these stories, they are a little bit 
poignant, but, you would think, okay, that happens. But when 
you add them up to 7 million, or 9 million names, it is a lot 
more troubling than that.
    In the 21st century, people should not be denied their 
constitutional right to vote because of problems caused by an 
antiquated voter registration system that was set up in the 
19th century by the Whig Party. That is who set up our voter 
registration system, which we still use today. And, of course, 
the Whigs are not even around anymore.
    It is truly remarkable that with the technology we have 
today that someone could be turned away at the polls simply 
because he or she has moved to a different county or has bad 
handwriting. If they move to a different country, they should 
not vote. But if they move to a different county, they should, 
or if there is bad handwriting.
    It is not to blame our local election officials who work 
hard to make sure the trains run on time on Election Day. In 
fact, just yesterday, two secretaries of state, Carnahan, 
Democrat from Missouri, and Greyson, a Republican from 
Kentucky, very clearly described the problem state election 
officials face with voter registration.
    I ask unanimous consent their column and roll call be 
entered into the record. So without objection, it is.
    [The information follows:]
    Chairman Schumer. The question of last minute registration, 
the massive amount of data entries involved, are a lot to place 
on local county officials with limited resources. And 
additionally, the amount of money spent on maintaining current 
voter registration lists places a strain on state governments 
already struggling with the current economic crisis. Part of 
the problem may be that the states and counties need more 
resources to ensure that all eligible voters can be registered 
and all those registered can vote.
    So today we examine these problems. I cannot imagine what 
it was like for millions of voters, some of whom attempting to 
vote for the first time last year, were told they were not 
registered correctly and could not cast a ballot, particularly 
after waiting in line for an hour or two, maybe on a cold or 
rainy evening. I cannot imagine what it was like for these 
folks to be denied the right to vote in this historic election. 
So this should not happen, not in the United States of America.
    We are not going to talk about solutions today; we are just 
going to talk about anyone can talk about what they want, but 
the focus of the hearing is just on the problem. And there are 
other problems as well. I know my colleagues on the other side 
of the aisle talk about schemes to defraud and register people 
who should not be registered. And that is something we are 
going to want to look at as well because I think we have to 
address both sides of the problem.
    But today we are going to look at this particular problem. 
And I thank all our witnesses and want to turn things over to, 
first, my colleague, Senator Bennett for a statement, then 
Senator Warner after him.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman, and I 
appreciate your calling a hearing. I think it is appropriate 
that we hear these issues. And I would take slight issue with 
one comment you made in your opening statement. I think there 
are still Whigs around.
    [Laughter.]
    Senator Bennett. I will go no further as to identify where 
or who, but my study of history and the attitude of the Whig 
Party leaves me to believe that there are those who still hold 
that ideology.
    Now, we have two compelling and sometimes competing 
interests with respect to this whole question. We want everyone 
who is legally qualified to vote to be able to vote. And we 
want him or her to be able to vote as easily and smoothly as we 
possibly can. At the same time, the whole purpose for having 
people register in advance is to create some kind of mechanism 
that will allow election officials to prevent those who are not 
legally qualified to vote from voting, and sometimes this 
becomes a trade off.
    In an effort to get everyone to vote, we relax registration 
requirements and, thereby, open the door to vote fraud; or, 
conversely, in an effort to prevent vote fraud, we tighten 
registration requirements, and thereby run the risk of keeping 
people away who belong there.
    This is not a new issue. When I was a member of the 
Governmental Affairs Committee, we held a hearing on this issue 
and one of the witnesses on that occasion was Dr. Larry Sabato, 
the director of the University of Virginia Center for 
Governmental Studies, and one of the more well recognized names 
when it comes to these issues.
    I would like in my opening statement to quote a few things 
from Dr. Sabato, and then would ask unanimous consent that his 
entire opening statement be included in the record.
    Chairman Schumer. Without objection.
    [The statement of Dr. Sabato follows:]
    Senator Bennett. He makes the same point I just made. He 
said when we look at the registration system and voting 
process, we have to balance two conflicting values. One, the 
goal of full and informed participation in the electorate, and, 
two, the integrity of the system. And he goes on to say, to the 
extent we keep expanding the participation right and make it 
easier and easier for people to register to vote, we almost 
certainly increase the chances for voter fraud. So, in a sense, 
it is a trade off. To move completely in the direction of one 
value as opposed to the other is foolhardy.
    Then he goes on to list a number of examples of people in 
the 2000 election who cast illegal votes. If I might, there are 
the corresponding, one-on-one personal observations of the kind 
you have just cited of people who ran into difficulty with 
registration. And he says, it does not stop with Florida and 
Wisconsin. As I suggested, fraud did not just appear during the 
2000 presidential election. Just a glance at the past decade 
shows many examples of electoral fraud.
    Then he goes on to list some. Extensive absentee ballot 
fraud in Alabama; hundreds of phony registrations in 
California; nearly a thousand illegal votes in New Jersey, 
including some people who are unregistered and others who are 
dead; significant absentee ballot fraud in Philadelphia; votes 
stolen from the elderly and infirm in Texas, and the list goes 
on and on.
    Then he says in separate quotes, whether fraud is 
Democratic or Republican, or located in the north or the south 
or the west, the effect on American democracy is similar. While 
electoral hanky-panky affects the outcome in only a small 
proportion of elections, mainly in very tight races, one 
fraudulent ballot is one too many for the integrity of the 
system and the confidence that people have in the system.
    So this is the balance that we have to address. We want, as 
I said, registration to be as open and as easy as it can 
possibly be for those who are entitled to vote, but at the same 
time, we want registration to be effective enough that those 
who are interested in controlling fraud have the tools that 
they need to deal with that.
    That is the balance that I hope we will strive to strike as 
our legislative activity goes forward following this hearing 
and other hearings that you may have scheduled. And I 
appreciate your diligence in addressing the problem and will do 
whatever I can to see that we have as productive and probing a 
hearing as possible.
    Chairman Schumer. I want to thank Senator Bennett, and I 
agree with the thrust of his statement. Both are problems, and 
I think we have to address both. And there is sort of a yin and 
yang here that you have to find the happy balance to.
    Senator Warner?

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Mr. Chairman. I want to add my 
voice as well and say thank you for calling this hearing and 
echoing both what you and Senator Bennett have said, this yin 
and yang between registration and fraud.
    I am not going to be able to stay for the whole hearing, 
but I do want to point out two issues that I hope the panel 
will address and would love to pursue. One, and the chairman 
mentioned this in his opening comments, Virginia has become a 
little bit of ground zero for the battle between local 
registrars trying to determine what is appropriate for college 
students, sometimes out-of-state college students, who choose 
to registrar in their college hometown rather than their 
parents' hometown. We have, perhaps, in the Commonwealth given 
a little bit of disjointed guidance.
    So I would love to hear from the panel, what appears to be 
both trends in the law and best practices, on how you get that 
balance. We clearly want students to participate; if they are 
living 9 or 10 months a year in a certain locale, what kind of 
residency requirements are looked at. On the other hand, if 
they are simply passing through and often time there are 
concerns at the local government level that you may end up 
having, in fact, undue influence because of the student 
population in the community. So I would love to hear comments 
on that issue.
    The second and this is Virginia also. Like other states, 
but I think Virginia because we are proud to have some of the 
highest concentration of military of any state in the country, 
we have lots and lots military families who continue to be 
challenged with not only registration but unclear rules about 
when and how they have to get their ballots posted, when and 
how registrars would receive those ballots.
    As recently as the 2008 election cycle, again, this proved 
to be quite a bone of contention. And I would love to hear any 
comments from the panel on how we can better grapple with the 
very unique challenges that our military families, particularly 
those who are posted overseas, can make sure that, one, they 
get registered in the first place, and two, that there is no 
undue burdens on them participating in the electoral process.
    So, again, while I am not going to be able to stay for the 
hearing, I do appreciate the chairman calling this and anxious 
to hear comments on those two questions.
    Thank you, Mr. Chairman.
    Chairman Schumer. Thank you. And I think those are two very 
important issues that we hope to explore.
    Senator Udall?

               OPENING STATEMENT OF SENATOR UDALL

    Senator Udall. Thank you, Chairman Schumer and Ranking 
Member Bennett. Thank you both for your statements. And let me 
just say that I think you have reached the right balance here 
in terms of talking about the direction we should go. I think 
we all want everybody to fully participate and we want to get 
people registered and give them that opportunity. But we want 
to make sure that we have fair elections without fraud, and 
that is really the way to go.
    Two of the issues in New Mexico that I think are of some 
concern have to do with provisional ballots and absentee 
ballots. And I notice across the country, we are seeing the 
same thing. When you get into the area of how you make sure 
that absentees are handled in such a way that it is uniform 
and, as the Supreme Court would say, you had equal protection 
in these kinds of situations, that is a concern. And then the 
provisional ballots are also growing to a significant degree. I 
hope that you have an opportunity to comment on both of those 
and give us some guidance as to where you think we should head.
    Once again, I think the chairman is right-on in holding 
this hearing and proceeding on this, and I anxiously await the 
testimony of our very distinguished panel.
    Thank you, Chairman Schumer.
    Chairman Schumer. Thank you for your excellent statement, 
Senator Udall.
    Now we are ready for the witnesses. I am going to briefly 
introduce each one, ask them to each put their entire statement 
in the record, speak for five minutes, and then we will have 
time for questions. So if you could try to tailor your remarks 
to meet the five-minute goal, we would appreciate it.
    First, Stephen Ansolabehere--I know that is a hard one to 
say--is a professor of government at Harvard University and 
political science at MIT. Formerly, he served as co-director of 
the Caltech/MIT Voting Technology Project. He is an expert on 
American elections, public opinion and voting behavior.
    Curtis Gans is the director of the Center for the Study of 
the American Electorate within the Center for Democracy and 
Election Management at American University. In addition to 
being a professor at American University, he often appears as a 
recognized expert on talk shows to discuss a variety of voting 
issues.
    Nathaniel Persily is a professor at Columbia Law School. He 
is a nationally recognized expert on election law and is the 
founder and director of the Center for Law and Politics at 
Columbia Law School.
    The Honorable Chris Nelson. Mr. Nelson has been serving as 
South Dakota's Secretary of State since his election in 2002. 
Before being elected to this position, Secretary Nelson served 
as South Dakota's state election supervisor.
    Kristen Clarke is co-director of the Political 
Participation Group at the NAACP Legal Defense and Education 
Fund. Before joining the NAACP, Ms. Clarke worked for the Civil 
Rights Division at the U.S. Department of Justice.
    Last but not least, Mr. Jonah Goldman. Mr. Goldman is 
director of the National Campaign for Fair Elections at the 
Lawyers' Committee for Civil Rights. His responsibilities 
include leadership in the Election Protection Coalition, the 
National Network for State Election Reform, and the Lawyers' 
Committee election reform advocacy and litigation docket.
    Mr. Ansolabehere, Professor, thank you. And, again, your 
entire statements are introduced into the record, so you may 
begin.

  STATEMENT OF STEPHEN ANSOLABEHERE, PROFESSOR, DEPARTMENT OF 
                 GOVERNMENT, HARVARD UNIVERSITY

    Mr. Ansolabehere. Thank you, Mr. Chairman and members of 
the Committee, for holding this hearing and paying attention to 
this issue.
    In 2001, the Caltech/MIT Voting Technology Project found 
that 4 to 6 million Americans tried to vote but could not, or 
did not have their votes recorded, owing to problems with 
voting equipment, registration, absentee balloting and polling 
place operations. The largest of these problems was 
registration followed closely by voting technology.
    The Help America Vote Act facilitated the upgrading of 
voting technology throughout the United States, punch card and 
lever machines were phased out, and the Federal Government 
assisted states and counties with their purchase of optical 
scan and electronic voting equipment.
    Voting technology accounted for about 1.5 to 2 million lost 
votes in 2000, and today that figure appears to be around 
500,000. That is a substantial improvement thanks to the 
intervention of the Help America Vote Act. That is the good 
news.
    Registration, unfortunately, remains as large a problem as 
ever. In 2008, to put the matter in perspective, there were 230 
million people of voting age in the United States, an estimated 
212 million eligible voters, that is citizens, non-felons who 
are also voting age, an estimated 168 million registered 
voters, and 133 million people who actually voted. To put 
matters another way, 44 million Americans were not registered 
to vote, though they could have been, and another 35 million 
Americans were registered to vote but did not vote.
    The registration and authentication system in the United 
States remains a significant source of difficulty for many 
voters. Of the 79 million Americans who are eligible but did 
not vote, most certainly did not vote because they chose not to 
vote for lack of interest. Even still, administrative problems 
prevented or discouraged millions of Americans from voting.
    Based on the results of the Cooperative Congressional 
Election Study, which Senator Schumer discussed, I project that 
9 million Americans did not vote because they had recently 
moved or because the date for registering to vote had already 
passed and they were not registered. Two to 4 million Americans 
were discouraged from attempting to vote because of various 
administrative problems relating to the authentication of 
voters and registration, and another 2 to 3 million Americans 
were registered to vote, attempted to vote, but could not vote 
because of problems with registration, acquiring absentee 
ballots, or voter identification. All totaled, it appears that 
4 to 7 million Americans could not vote, even though they 
attempted to vote or wished to vote in the 2008 election.
    There are other chronic problems as well related to the 
system, especially accessibility of the system for the disabled 
and for military personnel, and there are emerging problems, 
especially the growing number of people who have trouble 
getting absentee ballots. This is of particular note because 
absentee balloting is on the rise, especially in the American 
west. In 1972, roughly 5 percent of Americans voted with 
absentee ballots. In 2008, roughly 30 percent voted with 
absentee ballots.
    My written testimony focuses on the problems associated 
with the system for voter registration and authentication. The 
conclusion is a discouraging one, as many of us in this 
community, both as scholars and policymakers, just a short 
while ago took major steps to improve these systems. Even 
still, many people encounter problems with voter registration 
and voter authentication today, and those problems appear to be 
as large as eight years ago.
    Currently, the states are in the middle of a major 
upgrading of voter registration systems in the United States 
begun under the Help America Vote Act. Some have completed this 
process but many have not. Most communities have yet to see the 
benefits of those systems, but there is certainly the 
possibility, as statewide registration systems are implemented 
properly, we may eventually observe the gains in registration 
systems similar to what occurred with voting technology.
    Based on my experience over the past eight years, I fully 
believe that a cooperative effort of local election officers, 
secretaries of state and the federal government can reduce, 
substantially, the difficulties that millions of Americans 
encounter when trying to register and vote. Thank you.
    [The prepared statement of Mr. Ansolabehere follows:]
    Chairman Schumer. Thank you, Professor, and thank you for 
your excellent report as well. We are honored that you released 
it at the committee.
    Mr. Gans?

STATEMENT OF CURTIS GANS, DIRECTOR, CENTER FOR THE STUDY OF THE 
                      AMERICAN ELECTORATE

    Mr. Gans. I want to thank the Chairman and the Ranking 
Minority Member for, a) holding this hearing and, b) inviting 
me to participate in your deliberations. Anything I say here 
will not reflect on the men and women who run our elections, 
the secretaries of states and chief election officers, down to 
the people who man the polls on election night. They are all 
decent, they all want to help, both with the integrity and the 
voting process.
    I agree strongly with both the Chairman and Ranking 
Minority Member as to what the purpose of our election law 
ought to be. It ought to maximize voter participation, it ought 
to maximize the integrity of the process, and it ought to 
maximize citizen faith in that process.
    I am going to give you three sets of numbers that say we 
are a long way from that. One is 74 and 50. A ballpark estimate 
of the percentage of eligible Americans is 74 percent, and that 
in turn means that there are 50 million Americans who are not 
registered and cannot vote.
    The second I am going to have to read. It is 115, 104.2, 
103.6, 100.3, which is the number of names--the percentage of 
names on the registration list of the eligible voters in the 
District of Columbia, Alaska, Illinois and South Dakota. Ten 
other states have registration lists of 95 to 100 percent. And 
if anybody believes those numbers, there is a bridge across the 
East River in the state of our chairman that I would like to 
sell you. There are at least 20 million names on the 
registration list who should not be there, who have died or 
moved or are not legitimate voters.
    The last set of figures is 139 and 172. The United States 
ranks 139th out of 172 democracies in the world. That is not a 
great picture of a voting system that works.
    We also have each year a series of problems, voter lists 
that do not contain names that should, do contain names that 
should not be on them, zealous registration people on the 
liberal side putting people on lists that should not be, 
zealous people on the other side discarding registrations of 
people that do not agree with them.
    We have millions of dollars spent for people like Jonah to 
monitor elections for poll watches and for lawyers willing to 
move at the drop of a hat to challenge any deviation. We call 
it fraud and we call it intimidation and suppression, and all 
of them have a grain of truth.
    We will not, so long as we have a list based system, remedy 
any of these problems fully. We should consider what has worked 
in Mexico. And what has worked in Mexico is a government 
provided and paid for national, mandatory, biometric 
identification card and system. That would enfranchise 
everybody who is eligible, and it would get rid of every one of 
the problems people have raised with the electoral system, 
except vote buying and election administration malfeasance.
    The objections to those are money and privacy. This will 
cost $14 billion. We do not do $14 billion for our voting 
system, but we do it for national defense, and it could be 
justified on national defense because we should know who is 
coming into the country and who is in the country. And if we 
establish it, it would eliminate or reduce identity theft. It 
would provide for accurate census without enumeration. It could 
help with criminal prosecution and wrongful conviction 
exoneration. It could do a variety of things except get rid of 
the common cold and halitosis. It also would rationalize the 
various identity systems that are already being mandated or in 
place.
    This is a far-out idea, but I think people ought to 
consider it because I think it is the way that we can actually 
deal with all of these problems.
    [The prepared statement of Mr. Gans follows:]
    Chairman Schumer. I thank our witnesses for both 
interesting, informative testimony within the time limit, two 
out of two.
    Professor Persily?

 STATEMENT OF NATHANIEL PERSILY, PROFESSOR, COLUMBIA LAW SCHOOL

    Mr. Persily. Let me echo the thanks of my fellow witnesses 
to this committee. It is always a pleasure to be an election 
law professor who is giving testimony not in the middle of a 
meltdown, and it gives us a chance to think in a sober way 
about some of these problems that we have already been 
discussing.
    I just want to make three brief points, and I have given 
you longer testimony for the record. First I want to look at 
the effect of registration laws on turnout, and then, secondly, 
to look at registration problems that we saw on Election Day. 
And then, finally, to talk a little bit about the litigation as 
a description of the magnitude of the registration problem.
    First, the effect of registration on turnout. The effect of 
registration on turnout is not simply by the registration 
system itself. The United States continues to make it more 
difficult than any other industrialized democracy to vote. And 
the reason is not because we simply have registration; other 
countries have registration. It is the combination of that 
registration system with the high mobility of our population 
and the fact that the government does not take an affirmative 
role in registering people to vote. Those are the factors that 
make the United States unique. The incredible mobility of the 
U.S. population is one of the chief reasons that we see 
relatively low voter turnout.
    To give you some sense of the relationship between the 
variables: 90 million eligible voters move every five years. 
All of those voters, if they want to vote at their new address, 
assuming they are not in an EDR state, have to take an 
affirmative step in order to register to vote. It is not a 
surprise, then, that people who have lived in their residence 
for five years or more turn out at rates of about 75 percent. 
Those who are recent movers to a new state or new county: only 
about half of those people tend to turn out to vote.
    But the effect of mobility, or the combination of mobility 
and registration laws, is not seen just in the aggregate 
numbers. You can see it on discrete populations, and several 
members of this committee have already mentioned military 
voters. Congress has spent a lot of time looking at uniformed 
and overseas voters in this context because of the problems 
that those voters face.
    You can also get a sense of this--and this is also from 
Steven Ansolabehere's Cooperative Congressional Election 
Survey, which is the effect on military voters even inside the 
United States, who face registration problems and voting 
problems at a higher rate than the general population. And that 
is because they are more likely to be moving before Election 
Day than the average population.
    Most political scientists have spent a lot of time looking 
at the discrete effects on low-income groups, or particularly 
the relationship of registration laws on education. But when we 
look, for example, at these military voters who experience 
about 1.7 times the rate of registration problems when they go 
and attempt to vote and that also turn out at a rate 10 percent 
lower than the general population, we get a sense of the nature 
of this problem.
    Secondly, let me talk a little bit about the registration 
problems at the polls in this past election. Unfortunately, we 
do not have the kind of concrete data that we would really like 
in order to assess the magnitude of the problems in this past 
election. We know, for example, that between 20 and 31 percent 
of the election related incidents that happened at the polls 
this year were registration related. You can get a sense of 
that from, say, the CNN incident reports or some of the other 
incident reports that different election protection 
organizations were running.
    We know, for example, that in the 2004 election, that 1.9 
million provisional ballots were cast and that the secretaries 
of state say that the chief reason behind the non-counting of a 
third of those provisional ballots was because of a 
registration problem.
    We only really have data now from about 14 states on the 
rate of provisional ballot usage in the 2008 election, but we 
even know from just those 14 states that 800,000 provisional 
ballots were cast. And that gives you some glimpse as to the 
possibility of the relationship of the registration problem to 
the number of provisional ballots.
    Then, finally, let me talk a little bit about the 
litigation in this past election. This is sort of a statement 
against interest because this is how we election law professors 
make our living. Let me talk about three categories of 
litigation that happened in this election, all related to this 
problem that you are investigating here today.
    The first is what I think was the most common form of 
litigation, at least during this election cycle, and that was 
lawsuits dealing with purges and mismatch lists when you 
compare the voter registration lists to some other lists, 
whether it is drivers licenses, social security lists, et 
cetera, where you found a dramatic number of mismatches.
    The second is the very famous now set of cases dealing with 
third-party registration drives, the kind that Senator Bennett 
was talking about, dealing with ACORN and some of these other 
groups that allegedly had registered voters who did not exist.
    Then the final type of litigation that we saw were sort of 
the garden variety registration lawsuits, those cases where 
there is a technical defect in registrations or that there are 
problems such that people do not get to vote.
    Between the litigation and the voter turnout and these 
registration problems at the polls, I think we get a sense at 
least the magnitude of the problem in the 2008 election.
    [The prepared statement of Mr. Persily follows:]
    Chairman Schumer. Thank you again. Excellent testimony.
    Mr. Nelson?

 STATEMENT OF THE HONORABLE CHRIS NELSON, SECRETARY OF STATE, 
                     STATE OF SOUTH DAKOTA

    Mr. Nelson. Mr. Chairman, members of the Committee, it is 
truly a privilege to be before this committee and I appreciate 
the opportunity. I think it is vital that you hear from the 
perspective of a state election official.
    November 4, 2008 was a historic day in America; nearly 133 
million cast their vote. That is 9 million more than voted in 
2004 and 25 million more than voted in the Year 2000. Voter 
registration systems across this country, managed by state and 
local election officials, handled that increase in registration 
and turnout, and they stand ready to handle future increases in 
registration and turnout.
    I want to spend just a few moments talking about what I 
believe is right about our current voter registration system. 
The purpose of that system, obviously, is to provide a list of 
those eligible to vote in each precinct. Voter registration 
provides order to our election system. I believe there are nine 
elements in our system that are crucial, and I would like to 
visit briefly about each one of those. They contribute to the 
reliability of the system.
    Number 1. Voter registration is easy and accessible. Voter 
registration is available at election offices, driver license 
agencies, public assistance agencies, other public agencies, 
military recruitment offices, and on the Internet.
    Number 2. The system relies on a paper card or form that is 
signed by the voters. Questions about the accuracy of the 
system can be taken back to that original registration card. 
Much has been talked about having a paper trail of the ballot 
on Election Day. It is equally important that we have a paper 
trail of the voter registration process with each person that 
registers.
    Number 3. The registration card contains an oath which must 
be signed by the citizen, swearing to their eligibility and 
their citizenship. State and local officials have very little 
access to citizenship information. We rely heavily on the oath 
signed by the voter.
    Number 4. The voter registration system is local. Voter 
registration cards are maintained as official records at the 
local agency. Those local officials know that each of those 
registrations represent somebody's right to vote, and if there 
is information that is missing on those cards, local officials 
do everything they can to get that resolved.
    Number 5. Voter registration data is verified. The Help 
America Vote Act requires verification against drivers license 
lists or social security data. Incorrect information or simple 
typos can be caught and easily corrected.
    Number 6. Voter registration is aggregated into a statewide 
voter registration file that assists us in eliminating 
duplicate voter registrations. It also allows states, such as 
South Dakota, to use that data to allow citizens to, through 
the Internet, verify their registration status, find their 
polling place, and view their sample ballot.
    Number 7. The current registration system establishes a 
chain of responsibility for that data. Local officials know 
where to find the original registration information, they know 
how the data is incorporated into the registration file, they 
know how that file is used to create the precinct registration 
lists, and with that knowledge, they can track down and answer 
questions about why someone is on the list or is not on the 
list.
    Number 8. The voter registration system is transparent. The 
public, the candidates, the media, the political parties 
understand how names are added to the list and how names are 
removed from the list. And I would suggest that any attempt to 
remove that transparency from the current system will create 
and lead to deep suspicion about the integrity of the system.
    Number 9. Voter registration is part of the fabric of our 
American political system. The requirement for voters to be 
registered causes political parties and other groups to do 
voter registration drives. Those drives heighten the awareness 
about the upcoming election, and I believe that is good.
    The voter registration system in America today is the best 
and cleanest that it has ever been, despite some of the issues 
that we have heard about. The nine elements that I have talked 
about play an important part in our successful registration 
system. The removal of any one of these elements risks the 
integrity of the system.
    With rights come responsibilities. In the area of voter 
registration, state and local election officials have the 
responsibility of maintaining an accurate and clean election 
registration list. Individual citizens have the simple but 
powerful responsibility of filling out a voter registration 
card to avail themselves of their right to vote. It is a system 
that works and works well.
    Mr. Chairman, members of the Committee, thank you again for 
this opportunity and your consideration.
    [The prepared statement of Mr. Nelson follows:]
    Chairman Schumer. Thank you very, very much, Mr. Nelson. 
Again, I think excellent outline.
    Ms. Clarke?

      STATEMENT OF KRISTEN CLARKE, CO-DIRECTOR, POLITICAL 
 PARTICIPATION GROUP, NAACP LEGAL DEFENSE FUND AND EDUCATIONAL 
                              FUND

    Ms. Clarke. Chairman and distinguished members of the 
Committee, thank you for the opportunity to come and speak with 
you today about some of the problems that continues to plague 
our nation's voter registration system.
    The final data that emerged in the 2008 election cycle 
reveals that only 61 percent of Americans eligible to vote cast 
ballots in this historic election. That is 1 percent more than 
in 2004. LDF believes that many more people would have liked to 
participate and we should undertake to see that in future 
elections they have the opportunity to do so.
    Almost 13 percent of all eligible voters in our country are 
not registered at present. If we are to be regarded as the 
world's leading democracy, we must work to fix the breaks in 
the system and ensure that we reach the millions of eligible 
but not yet registered voters who are locked out of the system. 
I want to take my time to highlight some of the key problems by 
focusing on some of the issues and problems happening on the 
ground.
    First, purge programs and unreliable database matching 
systems have created enormous obstacles for voters. As states 
have moved to implement the requirements of the Help America 
Vote Act, we are witnessing the technological advancements 
themselves being used and abused to match and remove voters 
from registration lists.
    Let me point to an example. A recent purge program carried 
out in Louisiana resulted in a purge program that matched 
voters by using interstate databases to compare the first name, 
last name and date of birth of Louisiana voters with 
individuals from other states. Predictably, the system proved 
unreliable, yielding a number of false matches. And at the end 
of the day, more than 12,000 voters were purged from the 
state's rolls. A significant number of them were African 
American voters, many of them impacted by Hurricanes Katrina 
and Rita.
    The study confirmed that these kinds of matching programs 
are extremely error prone and not based on sufficiently unique 
criteria that would prevent voter disenfranchisement. Most 
purge programs like Louisiana's disregard the fail-safe 
provisions that are built into the National Voter Registration 
Act that generally require election officials to give proper 
notice and wait two federal election cycles before striking 
voters from the rolls.
    In addition, poorly designed state voter registration 
applications and arbitrary rules by local election officials 
also pose a substantial threat. During our advocacy efforts 
this election cycle, we identified a number of jurisdictions in 
which officials rejected registration applications for reasons 
that have no bearing whatsoever on eligibility. Immaterial 
omissions often resulted in a number of the rejections.
    In Indiana, for example, election officials were directed 
to reject registration applications if an applicant failed to 
mark a check box confirming their citizenship or their voting 
age. This was done despite the fact that voters sign an 
affirmation under penalty of perjury at the bottom of the form 
confirming that they are citizens and confirming that they are 
of voting age. These actions prompted successful litigation to 
stop officials from acting on these grounds, but the problem 
continues.
    Another example emerges out of Alabama where the Secretary 
of State instructed local election officials to reject 
applications from persons who possess drivers licenses but 
chose instead to list the social security number of the voter 
registration form. Thus, voters who provided a social security 
number were rejected for not listing their drivers license 
number when registering.
    The take away here is that voters should not penalized for 
poorly designed voter registration applications that capture 
duplicative information from applicants. We need to streamline 
the design of registration applications and eliminate the game 
of gotcha that leads to the rejection of so many would-be 
voters.
    Another example emerges out of Louisiana where officials 
reported rejecting as much as 20 percent of new registration 
applications because a database match revealed inconsistencies 
with the spelling of a name or in the full drivers license or 
social security number. Potential voters should not be 
penalized for administrative errors like these that have no 
bearing on voter eligibility.
    The challenge we now face is determining how to reform and 
repair the system in a way that will be more inclusive and 
provide opportunities for broad and meaningful participation 
for the millions of eligible but not yet registered citizens 
among us. While we turn now to corrective action, we must 
remain mindful of the particular challenges faced by those who 
are among the most vulnerable among us, the poor and our 
nation's racial and ethnic minorities. The future of American 
democracy remains tied to our ability to resolve some of the 
barriers that I have discussed today. Thank you.
    [The prepared statement of Ms. Clarke follows:]
    Chairman Schumer. An exquisite sense of timing. You ended 
exactly at five minutes.
    Ms. Clarke. Thank you.
    Chairman Schumer. Mr. Goldman?
    And you gave very good testimony, more importantly.

  STATEMENT OF JONAH GOLDMAN, DIRECTOR, NATIONAL CAMPAIGN FOR 
                         FAIR ELECTIONS

    Mr. Goldman. Thank you, Mr. Chairman. I am a little bit 
intimidated by the example. I will make sure that I am inside 
the five minutes also.
    I want to thank you and Senator Bennett also for not only 
bringing this hearing together, as Professor Persily said, at a 
time when it is not in the middle of an election cycle, but 
when we have the opportunity to deliberate on these really 
important issues, which are policy issues and not political 
issues.
    As you suggested, our voter registration system needs 
modernization. At the dawn of the 19th century, long before 
Alexander Graham Bell made the first phone call, as you 
suggested, Mr. Chairman, the Whig Party was first advocating 
for our current voter registration system. And despite whether 
there are or there are not currently Whigs around, we know one 
thing, that both the registration system and the Whig Party are 
relics of the past.
    Our registration system is inefficient. It sets election 
officials up for failure by diverting resources and energy from 
crucial tasks and it prevents more eligible voters from casting 
a ballot than any other part of the election process.
    As governments at all levels fight to stretch every penny, 
this Congress has recognized that streamlining essential 
process is critical for moving forward in this new economy. 
Counties and states across the country are wasting millions of 
dollars every election cycle administering an outdated and 
expensive paper-based voter registration process that puts our 
election system at risk. Modernizing the registration system 
will improve democracy and allow communities to reinvest 
resources in critical functions like keeping more teachers in 
the classroom and more cops on the street.
    There are two culprits, paper and timing. Each registration 
requires an individual paper form. A third to a half of these 
forms arrive in registrars' offices just before the deadline. 
The inefficiency of the registration system has a domino 
effect, causing confusion at the polls and infecting every 
aspect of the voting process.
    The biggest impact is on voters. We have already heard up 
to 9 million voters are prevented from voting at one stage or 
another because of the registration process. Registration 
problems affect everyone, but also, as we have heard already, 
it is felt more distinctly in some communities. Military and 
overseas voters have terrible access to registration 
facilities. Older voters and those with disabilities cannot get 
absentee ballots unless registration rules are updated. And 
young voters are frequently left off rolls because they move 
often but also because they are unfamiliar with the process.
    The current system of voter registration is a bureaucratic 
nightmare. In an election system with more than 7,000 local 
election offices, just getting the paper application to the 
right place is no small feat.
    Last year, Mr. Chairman, in your state of New York, for 
example, a hundred thousand forms collected by third-party 
registration groups were mistakenly sent to the State Board of 
Elections in Albany. The board had to sort through those forms 
and forward them to the correct local offices. Some 3,500 of 
those forms were found in the New York City Elections Office 
after Election Day. Of course, those voters were not on the 
registration list.
    Registration deadlines have caused significant issues. 
Adam, an active serviceman from Mississippi, submitted his 
registration before the deadline as he was leaving for his 
tour. When he came home, there was no record of his 
registration, the deadline had passed, and he could not vote.
    Purges often have removed long-time voters from 
registration rolls. James, he had been voting at the same poll 
location in Alabama for decades, but when he got to the polls 
on Election Day, he was told that he was not registered. An 
election official told him that his office had received calls 
from about 20 other voters who had similar problems. These 
experiences were shared by countless voters across the country.
    Through Election Protection, I have had the honor to 
interact with hundreds of talented election officials. In 
jurisdictions of all sizes, whether run by Republicans, 
Democrats or nonpartisan professionals, the story remains the 
same. The inefficiencies of the registration system are a 
fundamental concern because they undermine election officials' 
ability to effectively serve their voters.
    All that manual data entry cost money and adds 
opportunities from the states. Often more than half the 
registration budget goes to hiring temporary employees and 
assigning full-time staff to capture information from 
handwritten applications and eliminate duplicate registrations. 
This process costs even small jurisdictions, like Forsyth 
County, Georgia, hundreds of thousands of dollars. The cost 
grows to over a million dollars in medium sized jurisdictions 
like Franklin County, Ohio and is a multimillion dollar 
endeavor in large counties like Los Angeles.
    Even with these extraordinary measures and costs, the 
system is far from foolproof. Voters can show up at the polls 
and find their name has been wrongly entered or dropped, 
forcing them to cast, as we have heard before, provisional 
ballots. Election officials then must reconcile the mistake by 
using other data to identify the voter before counting the 
ballot, which adds further costs and delayed certification.
    These costs have a debilitating effect on the rest of the 
election system. For example, in Columbia, Ohio, the Board of 
Elections stopped notifying registrations with incomplete 
applications of the opportunity to correct them because it just 
cost too much. Even then, as Matt Damschroder who oversees 
elections in Franklin County says, phones that would otherwise 
be picked up are not, leaving voters' questions unanswered. 
Because of the inherent delays in processing paper registration 
forms, Los Angeles has to spend $56,000 in every countywide 
election to send supplemental voter rosters to poll inspectors 
by overnight mail. That delay makes it difficult to order and 
distribute ballots.
    Again, Mr. Chairman, thank you for all you are doing to 
move us towards a more efficient and equitable process to 
exercise our vote. Each election in the voter registration 
system, this relic of our pre-Civil War past, blocks millions 
of Americans from casting a ballot, distracts election 
officials, and needlessly wastes millions of dollars at a time 
when state and local budgets are stretching every penny. 
Congress has the power and the opportunity to modernize this 
antiquated system. Thank you for taking the first step today.
    [The prepared statement of Mr. Goldman follows:]
    Chairman Schumer. Good job, Mr. Goldman; seven seconds off. 
Not bad, not too shabby, given how it usually is around here.
    Okay. I want to thank the six witnesses. I thought the 
testimony was excellent from the witnesses that I asked to come 
and that Senator Bennett asked to come, and very much 
appreciated.
    Now, to me, the astounding fact here was the reports both 
by Professors Ansolabehere and Persily, that large numbers of 
people just could not vote. And this is not relegated to a 
state; it shows the problems are everywhere. And I am certainly 
mindful of what Mr. Nelson said, that there is a lot that works 
with the system. Most people do vote and vote well, but in 
democracy, everybody has to vote.
    So I would like to ask the witnesses whether they agree, 
each of you, just with the statement that we have substantial 
numbers of eligible voters being excluded from the rolls. It is 
a simple statement. I will just ask each of you for a yes or no 
answer, and then I am going to let anybody say whatever they 
wish. Okay?
    Go ahead, Mr. Ansolabehere.
    Mr. Ansolabehere. Yes.
    Chairman Schumer. Mr. Gans?
    Mr. Gans. Yes.
    Chairman Schumer. Mr. Persily?
    Mr. Persily. Yes.
    Chairman Schumer. Mr. Nelson?
    Mr. Nelson. No.
    Chairman Schumer. Ms. Clarke?
    Ms. Clarke. Absolutely.
    Mr. Goldman. Yes.
    Chairman Schumer. Okay. Then we will first ask Mr. Nelson. 
You disagree with the other five witnesses. You think that--do 
you think--I mean, I guess explain. Their studies are pretty 
good. They are not biased or political, so explain to me your 
answer. I am not asking the percentage. I am asking just that 
we have, at least by their reports, in the millions of people 
who are eligible to vote, want to vote and cannot.
    Mr. Nelson. I do not believe that anybody is excluded. 
There are obviously millions that have been testified to that 
are not on the list for various reasons, but I do not believe 
that we have a system that purposely excludes anybody.
    Chairman Schumer. Oh, I agree with that.
    Mr. Nelson. And are there issues within the system that 
need to be looked at and addressed? Absolutely. And there are a 
number of things that have been brought up here that I would 
love to question the witnesses on because they do not make 
sense with what I know about how the system works.
    Chairman Schumer. But the instance of, say, the military 
solider who was assigned, wants to vote, and did not. Now, the 
system is not purposely excluding him. And Ms. Clarke focused 
on Louisiana and Georgia, and there are allegations that some 
of these rules are done to deliberately exclude people.
    But let's leave that aside. Let's assume that we are not 
talking about intent here. We are just talking about the fact 
that the way the system works that there are people who want to 
vote, try to do what they can to vote, but cannot. You do not 
disagree with that.
    Mr. Nelson. There may be some. But let me use your example 
of the military voter----
    Chairman Schumer. Sure.
    Mr. Nelson. --that is transferred on October 15th to a new 
location, gets to their new location too late to register. They 
can certainly vote absentee prior to leaving their current 
location. They are opened to do that in any state.
    Chairman Schumer. Well----
    Mr. Nelson. So they are not excluded from the process.
    Chairman Schumer. You know, I have voted by absentee 
ballot. It is not so easy. You have to call--you have to get 
the form from the election board. It sometimes takes a long 
period of time. It is cumbersome. And in New York, I think we 
have a pretty good absentee ballot system.
    You also have--the example I gave is the soldier is told--
let's just say he is registered to vote, or she is registered 
to vote, at the military base in which they live. On October 
15th, they are told they have to be somewhere else by November 
1st, and the deadline for absentee ballots is over.
    Mr. Nelson. If I might----
    Chairman Schumer. We do not have--every state, am I 
correct, does not allow people to decide to vote absentee 
within a week or two. You sometimes have to apply for that 
absentee ballot in advance.
    Mr. Nelson. I am not aware of any state that would have a 
two-week restriction on absentee balloting. In South Dakota you 
can absentee vote up until 3:00 on election day. I am not aware 
of any state that has a two-week black out.
    Chairman Schumer. I am not sure, but somebody check me. In 
New York, you have to apply for the absentee ballot in advance.
    Is that right?
    Professor Persily, you are from New York.
    Mr. Persily. I cannot remember exactly what it was in New 
York. I should say that I tried to vote and I was actually told 
I was not on the registration list only two years ago in New 
York. And it was the night before the election official--having 
an election law professor be the one being turned away from 
voting.
    But with respect to absentee ballots, there are several 
states where, first of all, you have to have cause, obviously, 
in some states to request an absentee ballot. And there is huge 
variety on different states.
    Chairman Schumer. Yes. I think, in all due respect, Mr. 
Nelson, there are states that would not allow that military 
voter to vote; not through intent, but in others.
    Mr. Goldman, would you sum up--tell us the restrictions on 
that particular situation? I know you have studied this a lot.
    Mr. Goldman. Absolutely, and thank you, Mr. Chairman.
    I think that we all do agree that, generally, a system that 
was created in the 19th century was created in a way that 
should be fair. The problem is that it was created in the 19th 
century when there were horse and buggies dragging folks from 
place to place to try to register voters; now we are on 
learjets. And I think that that is something that we need to 
understand, is that we are really talking about a 21st century 
political process in a 19th century system that, as you say, is 
the lifeblood of the process.
    The voters who call us are voters who want to vote. They 
want to vote desperately. And in 2008, we received 240,000 
calls. Over 300,000 more people were serviced by Election 
Protection through our Web site. And they were telling us 
stories, military voters, telling us about how they----
    Chairman Schumer. So the example that I gave is not an 
unusual--or is not an out of the question one, right?
    Mr. Goldman. No, it is not unusual at all.
    Chairman Schumer. It probably happens hundreds of times.
    Mr. Goldman. Sure. It happens----
    Chairman Schumer. At least hundreds, probably more.
    Mr. Goldman. It happens more than hundreds of times. We get 
those calls from all over the country, from service members who 
have moved, who are transferred right at the end of the 
deadline. But also, as I suggested in the testimony, from 
service members who register before the deadline as they are 
supposed to, and then come home from their tour of duty to get 
to the polling place excited to, as you suggested, vote for 
their boss, their commander and chief, and get to the polling 
place and their names are not on the rolls.
    Chairman Schumer. Right.
    Let me just ask, before I turn it over to my friend and 
colleague, Senator Bennett, to both Mr. Persily and Mr. 
Ansolabehere--because I do think while there is bad intent 
maybe, there are some people on either side, some who want to 
exclude people from voting, some who want to falsely register 
people.
    But would it be right to say that most of the people who 
are excluded are not excluded by intent, by design, but rather 
because of the cumbersomeness of the system, the system is not 
modernized and things like that?
    Do you agree with that, Professor Persily?
    Mr. Persily. I do.
    Chairman Schumer. How about you? Does your study show that?
    Mr. Ansolabehere. Yes, and other studies we have conducted.
    Chairman Schumer. Would you disagree with that, Ms. Clarke?
    Ms. Clarke. No, I agree with that. I think that--part of 
the problem is that election officials have too much 
discretion, and they abuse that discretion, or you have a case 
in South Dakota where it appears that Mr. Nelson enforces rules 
very liberally and other states where similar rules are 
enforced in a very restrictive manner that locks voters out.
    We need to figure out a way to make these rules more 
uniform across the board.
    Chairman Schumer. But you would agree there is not a grand 
conspiracy on either side. There are some people who have bad 
intent, but mostly this occurs because we have not modernized 
or are just negligent. There are new examples that keep coming 
up that we do not realize.
    Is that fair?
    Ms. Clarke. I agree with that.
    Chairman Schumer. Senator Bennett?
    Senator Bennett. Thank you very much, and thank you all for 
your excellent testimony. I do have some quibbles here and 
there that I would like to do my best to deal with.
    Mr. Goldman, stop talking about a 19th century system. We 
have changed it. I had to fill out a provisional ballot in 
Utah, and in the 19th century there were no provisional 
ballots. I had applied for an absentee ballot and forgot it. So 
I showed up at the polls and they said, you cannot vote because 
you have already voted absentee. I said, well, I never mailed 
it in. Okay. You come over here, fill out a provisional ballot 
and we will see.
    That is a system that is not in the 19th century. There 
have been an awful lot of changes in this. So you have valid 
points. Do not diminish their validity by that kind of 
pejorative statement.
    Chairman Schumer. But just to quibble with my good friend, 
in the first half of the 19th century, nobody voted in Utah.
    [Laughter.]
    Senator Bennett. That is true. We were infested with Mormon 
crickets, if I could use another term that has been in the 
news.
    Mr. Ansolabehere, I would like to know more about your 
methodology because we have had a lot of numbers thrown out 
here. You use the number 7 million. In your written testimony, 
you are talking about 4 to 5 million who could not or did not 
vote. Mr. Goldman said 9 million. Mr. Persily said we do not 
have concrete data.
    We are using numbers, and in Washington the tendency is, 
once a number is thrown out, regardless of how tentative it may 
be, it gets locked in. The press picks it up; it ends up in a 
headline. Having been in the headline, it then ends up in a 
bunch of speeches and it becomes gospel.
    Right now, you are the only source that I can find, and I 
would like to understand your methodology a little better. You 
talk about 33,000 respondents. I want to know how that sample 
was drawn and how it was verified. And all of your 
extrapolations come from those 33,000; is that correct?
    Mr. Ansolabehere. I followed two methods. One is--I also 
follow--we have the survey that we did in fall of '08, which is 
the only publicly available survey at this moment. The other 
survey that we are waiting on is the Current Population Survey 
that the Census produces. We follow the Current Population 
census' methodology in terms of question design and also the 
methodology for projecting from the survey out to figures on 
total number----
    Senator Bennett. I am sure you do. I am more interested in 
the sample.
    Mr. Ansolabehere. The sample was part Internet and part 
phone to validate. And we also validated the study by comparing 
the statements of how many people voted for each candidate 
against the total vote shares that those candidates received in 
every state. And all of the states, except one, were within the 
margin of error, and the one was Kansas. So there was something 
about the sample in that state. But that will happen sometimes.
    Senator Bennett. Whom did you go after? How did you know to 
call 33,000 people? Were they self-selected?
    Mr. Ansolabehere. It is a national random sample. In some 
sense, all surveys are self-selected because all surveys are 
voluntary. But, yes, national random sample of the population 
in the United States, the adult population in the United 
States.
    Senator Bennett. You called them? And how many of the 
33,000 you called said I did not have any problem and lived in 
South Dakota?
    Mr. Ansolabehere. How many of the 33,000 said I did not 
have any problem?
    Senator Bennett. Yes.
    Mr. Ansolabehere. Well, let's focus on the 4 to 5 million 
number. So the 4 to 5 million are the number of people 
projected out from the survey who said that they had tried to 
vote but could not, for whatever reason.
    Senator Bennett. I understand that, but you are talking 
33,000 people. What percentage of them lived in Mr. Nelson's 
state and said they had no problem?
    Mr. Ansolabehere. I do not know how many in South Dakota.
    Senator Bennett. No, I am not saying specifically South 
Dakota, but what percent said they had no problem?
    Mr. Ansolabehere. What percent said they had no problem? 
Probably about 96 percent said they had no problem.
    Senator Bennett. So you are extrapolating--let's say 4 
percent of the 33,000, of the 4 percent, you are extrapolating 
the 7 million figure you gave us here.
    Mr. Ansolabehere. Right, and that is about what Census does 
when they do the Current Population Survey projection as well.
    The Current Population Survey, when you look at the 
statistical abstract of the United States or the reports 
produced by CPS through the Census Bureau, give you projections 
for how many million people are registered. That is where the 
number 142 million people registered comes from, from the last 
election cycle and so forth. That is where they get the 
citizens voting age population numbers. There is no official 
record of how many citizens there are in the United States; it 
all comes from those surveys.
    Senator Bennett. Oh, I understand that.
    Can you not get the number registered by contacting all 50 
states?
    Mr. Ansolabehere. Actually, no you cannot. Even the 
National Association of Secretaries of States produce a report, 
and all that was given from some states, like Texas, were 
ballpark numbers.
    Senator Bennett. Mr. Nelson, can you tell him how many are 
registered in your state?
    Mr. Nelson. Five hundred and thirty-three thousand.
    Mr. Ansolabehere. Yes, some states you can, but you cannot 
get it in all----
    Senator Bennett. I will not pursue it any further.
    Mr. Ansolabehere. On top of that, there are problems of 
duplications, which South Dakota, as was testified, had more 
people on the rolls than they had in the citizens voting age 
population. So there is an impossibility there, and it is just 
because people move. There is no requirement that somebody 
update their registration.
    Very quickly, as Nate testified, the registration lists 
become obsolete. Currently I am doing a study in L.A. County 
where we are auditing the rolls there, and it looks like about 
6 to 10 percent of the names on the list, just the names, are 
no longer valid addresses. In addition, there are another 10 
percent where the registration seems to be incorrect, according 
to the----
    Senator Bennett. Your written testimony suggests that there 
are 30 million obsolete and duplicate answers on the list. And 
you agree that these 30 million should be removed?
    Mr. Ansolabehere. Something should be done to reduce them. 
I do not know how to do that. That is I think an issue with how 
to do purges properly. I think there has been huge improvements 
in the states since 2001.
    Senator Bennett. Well, I do not want to drill any further 
on this or take more time.
    Mr. Gans, I am interested in your solution, which is 
basically calling for a national ID card for everything, for 
social security, for immigration, for everything. And that is 
probably a bigger issue than we are going to deal with here.
    Chairman Schumer. My Ranking Member, I also chair the 
Immigration Subcommittee. Who knows?
    Senator Bennett. Okay.
    Mr. Gans. Mr. Chairman, I have run this one by Doris 
Meissner, who sort of likes it for the immigration purposes.
    Senator Bennett. Yes.
    Chairman Schumer. May I interrupt, Lindsey Graham and I put 
in a proposal for a biometric social security card to deal with 
the immigration problem a couple of years ago. So the two 
actually do dovetail. It gets opposition from a variety of 
places, but it also gets some support.
    Senator Bennett. Yes, both of those are true.
    Just one last--you are aware that in Australia, they solve 
this problem by making voting mandatory. If you do not vote, 
you get fined.
    Now, I do not quite know how they handle the lists, but 
this was brought home dramatically when an Australian 
politician came to see me some years ago to talk about 
strategies. And having been one who had run campaigns in Utah, 
I immediately said, well, the first thing you have to do is 
identify who your voters are to get them out. And he said, no, 
that is not a problem. I said, what do you mean that is not a 
problem? He said, we have mandatory voting; everybody gets out.
    I think the fine is 50 Australian dollars or something. I 
cannot remember. Do not take that, if there is anybody noting 
this down, because that was a lot of years ago. But when the 
Australians did some government reform some years ago, one of 
the reforms they put in place was mandatory voting.
    Does anybody have a reaction?
    Mr. Gans. Yes, I do.
    Senator Bennett. Okay.
    Mr. Gans. I have two reactions. One reaction is that I 
think the right to vote implies the right not to vote. And I 
also--three reactions. I also think if we boost the numbers, we 
will hide the problems. And the third thing is, even if you 
have mandatory voting, you would still have a list that you 
have to make accurate. The thrust of my testimony is 
essentially to start conceiving of another paradigm because 
otherwise you will be in Rube Goldberg Number 27.
    Senator Bennett. Okay. Well, I agree with you that the 
right to vote also includes the right not to vote, and I am not 
advocating for the Australian system. And this gets back to the 
question of extrapolating numbers; how many people did not vote 
because they chose not to vote as opposed to an assumption that 
if they did not vote, it was because of some breakdown in the 
system.
    Now, Mr. Persily, you are nodding your head. Do you want to 
comment on that?
    Mr. Persily. Well, let me first--since I have a little 
knowledge of Australia, I have to at least give my two seconds 
on that, which is that although they have mandatory voting 
there and they have fines, almost no one gets prosecuted, and 
yet the have extremely high voter turnout. About 4 percent, I 
think, of the ballots are cast for no candidate. They are 
called donkey ballots, which we would call undervotes here in 
the U.S. I guess here a donkey ballot means something 
completely different.
    Chairman Schumer. They should call them kangaroo ballots.
    Mr. Persily. But one thing I think you are getting a sense 
of from the testimony here is how much we do not know. I mean, 
we do have a good glimpse of, I think, the problem, both 
through litigation, from the number of respondents who are 
saying they faced problems, the number of people who call into 
these help lines, et cetera, and the number of provisional 
ballots, which gives you a sense of the registration and voting 
gap.
    So the first step here is to--we do not actually even know 
how many people voted in this last election. We have 12 states 
that do not even provide certified vote totals. So you hear 
this number 133 million bandied about. There is a significant 
margin of error even in that. And then as previous witnesses 
were saying, with respect to the registration lists, yes, there 
is going to be a gap between, say, 20 million people who are on 
the registration rolls and the number of people who say that 
they are registered.
    What we really need is to have a census of election 
administrators. We need to know at the precinct level how many 
people vote for which candidates by which method, military, 
Internet, provisional, et cetera, and then we can really get a 
handle on the scope of all these problems.
    Senator Bennett. And then we have the problem Mr. Gans 
talked about, where there are more names on the lists than 
there are people living in the jurisdiction.
    Mr. Persily. Yes.
    Mr. Gans. We have that. And the other thing, in response to 
your question of my colleague here, is whether you take my 
colleague's figure on my right or my figures, we either have 44 
million or 50 million people who are not registered who are 
citizens eligible 18 and over. And that is a problem, as is the 
problem of 20 million names that are on registration rolls that 
should not be on. Both of those need to be dealt with.
    Senator Bennett. Thank you all very much.
    Chairman Schumer. Let me go to a second round. And, of 
course, I afford that to my colleague.
    Just one point, Mr. Nelson, just making the point of Mr. 
Ansolabehere here, Professor, you said there were 533,000, did 
you say?
    Mr. Nelson. Correct.
    Chairman Schumer. How many total people are there in South 
Dakota?
    Mr. Nelson. Adults, about 750.
    Chairman Schumer. Adults?
    Mr. Nelson. No, total population about 750.
    Chairman Schumer. Right. So how many adults are there, 18 
and over who are citizens? I will bet it is less than 533.
    Mr. Nelson. If I might address that because it was 
mentioned we have over a hundred percent registration.
    The percentage of registered voters on the active 
registration list is 87 percent. The way they come up with the 
over 100 percent number is by adding in the inactive registered 
voters, that inactive list. And I will tell you, when the 
National Voter Registration Act was passed in 1993, the 
restrictions that it places on voter lists maintenance, I said 
at that time, this is going to guarantee in excess of 100 
percent registration, and that is where we are at----
    Chairman Schumer. This illustrates the point I think that 
both Mr. Ansolabehere and Mr. Gans were making.
    Let me go back because my friend, Senator Bennett, talked 
about 4 million, 5 million. All those numbers are consistent. 
They represent different categories. So would you just--both 
you and Professor Persily, Mr. Ansolabehere, just go over what 
each of those numbers represents. They are not inconsistent 
numbers; they are not just bandied about numbers. They are 
serious numbers based on a study, obviously, on statistical 
methods. But they are not inconsistent given those statistical 
methods.
    Go ahead.
    Mr. Ansolabehere. The 4 to 5 million number is based on the 
number of people in the survey, projected out based on the 
number of citizens voting age population who said that they 
tried to vote but failed, for whatever reason.
    Chairman Schumer. And they were registered.
    Mr. Ansolabehere. And they were registered.
    Chairman Schumer. Right. And give a couple of examples of 
those. Just give a couple of examples of those.
    Mr. Ansolabehere. Actually, I cannot say anything that is a 
specific example from the survey because it violates 
confidentiality----
    Chairman Schumer. Well, you do not have to give the name; 
somebody who showed up, waited on line for two hours, and went 
home because it was pouring rain, right? Would that be----
    Mr. Ansolabehere. Yes. There are people who went home 
because the lines were too long. There were people on that list 
who said they were sick or disabled, they had transportation 
problems, they were out of town and so forth.
    Chairman Schumer. Okay.
    Mr. Ansolabehere. The 4 to 5 million is the percentage--
sorry. The 2 to 3 million of those people, that 4 to 5 million, 
said that they could not vote because of lack of registration, 
because they had requested an absentee ballot but did not 
receive one, or because they were asked for voter 
identification and they did not have it. That is the two to 
three.
    Then there is an additional set of people who did not try 
to vote but said, when they were asked why you did not vote, 
that they encountered a registration--they were not--they had a 
problem with their registration, they had a problem getting an 
absentee ballot and so forth. And that looks like it is in the 
range of 2 to 4 million, so that comes----
    Chairman Schumer. Right. Let's just clarify that. We could 
always say, well, they should have registered. That is probably 
what Mr. Nelson would say, right?
    Mr. Nelson. Correct.
    Chairman Schumer. Let me give you the other side. I mean, 
this was sort of interesting to me, and make what you can of 
it.
    This was back in 1973 and Herman Badillo was running for 
mayor of New York City. He was the first Hispanic mayor 
running. And I was a political junkie. I was not an elected 
official then, but I was at the polling places. And there were 
large numbers of Hispanic people who came to the polling place 
and said, I want to vote for Herman Badillo.
    They were citizens. They had not registered because a month 
before I guess they had not focused on the election or 
whatever, but they truly wanted to register then. Now, we can 
get into a sort of moral argument; well, they should have and 
it is their fault, or they should be able to, it is the 
system's fault. But they would fit into that category of people 
who wanted to vote but were not registered.
    Is that fair to say, Mr. Ansolabehere?
    Mr. Ansolabehere. Yes.
    Chairman Schumer. Okay. I did not even know, by the way, in 
some of these precincts, that there were any Hispanic people 
living there. It was so amazing. It was sort of like a magnet. 
It showed me the power of elections and--it was very 
interesting.
    Yes, Mr. Persily?
    Mr. Persily. Sort of one point on that, which is in the 
2004 election, we had about 1.9 million provisional ballots 
that were cast. About half were cast on what are called Section 
203 covered jurisdictions. These are areas with high language 
minority populations under the Voting Rights Act.
    But what is happening in the registration system is that it 
is falling disproportionately on certain communities who, for 
example, when they get to the polling place are confronted 
either with a registration problem or with someone who does not 
understand their name or it does not match up because it is in 
a different language. And then they end up casting provisional 
ballots, which is one of the reasons why looking at provisional 
ballots gives us a glimpse of the problem.
    Chairman Schumer. Right. I interrupted. Go ahead. Did you 
finish all the numbers that you have thrown out?
    Mr. Ansolabehere. No.
    Chairman Schumer. Keep going.
    Mr. Persily. I am fine.
    Chairman Schumer. Okay. But you had additional numbers that 
do not contradict--nothing in your study and Mr. Ansolabehere's 
study contradict one another, do they, Mr. Persily?
    Mr. Persily. As in most things in life, I take my numbers 
from Harvard, so I will defer to Stephen Ansolabehere on this.
    Chairman Schumer. Okay, right.
    Now, I just wanted to ask you, because my friend, Senator 
Bennett, talked about the statistics, the source of your data 
is the Cooperative Congressional Election Study, right?
    Mr. Ansolabehere. That is correct.
    Chairman Schumer. And is that generally regarded by the 
academics on both sides as a reliable, reputable source of 
data?
    Mr. Ansolabehere. Yes, in fact BYU is one of the major 
participants in this study.
    Chairman Schumer. Oh, now you are talking, Mr. 
Ansolabehere.
    Senator Bennett. I went to the University of Utah.
    [Laughter.]
    Mr. Persily. Can I say one other thing on this?
    Chairman Schumer. Yes.
    Mr. Persily. We will get more data in a month, and I 
suspect the Census data will confirm this, and also that the 
Election Day Survey from the Election Assistance Commission 
will also give us some confirmation of those numbers, so we do 
not need simply to rely on those.
    Mr. Ansolabehere. And there was a separate study that the 
Pew Foundation sponsored.
    Chairman Schumer. So we do not have a dispute, even among 
those on either side of the aisle here, so to speak--Mr. Gans, 
as one of the witnesses, you do not dispute those statistics at 
all.
    Mr. Gans. No.
    Chairman Schumer. And do you, Mr. Nelson?
    Mr. Nelson. I do not have enough insight into the 
methodology.
    Chairman Schumer. Okay. But Mr. Gans, just for the record, 
is a witness chosen by Senator Bennett.
    Mr. Gans. Yes, but not because I am a Republican.
    Chairman Schumer. No, I know. But you know I understand 
that completely. I met you--you do not remember, but I met you 
in the Eugene McCarthy campaign in 1968, when I was a freshman.
    Mr. Gans. You exhibited great wisdom.
    Chairman Schumer. Yes. Well, no. In retrospect, I did not.
    [Laughter.]
    Chairman Schumer. But in any case, I wanted to ask you, 
Professor Ansolabehere, on page 17 of your written testimony, 
you indicate that 3.8 percent of all respondents showed up to 
the polls and found they had problems with voter registration. 
In other words, they showed up, they wanted to vote, and had 
problems.
    If those numbers remain consistent nationally, how many 
voters would that be?
    Mr. Ansolabehere. I would have to--it is like teaching----
    Chairman Schumer. Okay, you can provide that----
    Mr. Ansolabehere. 3.8--if you just take 3.8 of the number 
of----
    Chairman Schumer. People who showed up.
    Mr. Ansolabehere. --people who showed up, the 133 million.
    Chairman Schumer. Yes. So it would be 3.8 of 133 million--
--
    Mr. Ansolabehere. Right.
    Chairman Schumer. --which is 1, 3 times--a little less than 
4, about 5 million.
    Mr. Ansolabehere. Four or 5 percent--5 million.
    Chairman Schumer. Right, okay.
    Another question. Are you measuring the substance and 
extent of voter registration problems for the 44 million 
eligible voters who were not registered in 2008? How do we 
begin to determine who these people are and why they are not 
registered to vote?
    Mr. Ansolabehere. We are going to look closely at the CPS 
Study because they do have a pretty extensive battery of 
questions having to do with the reasons for non-registration. 
From past studies that they conducted in 2000 and 2004, those 
data look like they are quite similar to the extent to which 
people are not registering because they are not interested. 
That is the major source of the problem. But, you know, about 
20 percent are not registering because of these other issues, 
such as registration dates and mobility.
    Chairman Schumer. Okay.
    Professor Gans, you had mentioned before that the U.S. 
ranks 139 out of 172 countries in voter participation. I think 
that is counterintuitive to most of us here in this country.
    Can you elaborate a little on that? What is the country 
above us, what is the country below us, why are we so low? Is 
it, Third World countries are better than us; those who have 
democracies?
    Mr. Gans. Several Third World countries are better than us. 
Back in 1976, we did a survey of nonvoters. Peter Hart did the 
survey and his line was that we have a higher percentage only 
than Botswana. And then Botswana had an election, which had a 
higher turnout than we did.
    Chairman Schumer. Why do you think that is?
    Mr. Gans. Well, it is a lot of reasons.
    Chairman Schumer. Is it just the registration?
    Mr. Gans. Oh, no, not at all. But it is true that we are--
as far as advanced democracies are concerned, one of the very 
few that put the burden on the citizen to qualify him or 
herself via registration and requalify when they move. Most of 
the other countries--the government does in one way or 
another--create the list of eligible voters.
    Chairman Schumer. What is your view? Does the system we saw 
in Iraq, where people put their finger--they put some kind of 
indelible ink on their finger. Does that work better or worse 
than our system?
    Mr. Gans. Iraq comes closer to my biometric than our 
system. But do I want to emulate Iraq? I do not think so.
    Chairman Schumer. But seriously----
    Mr. Gans. We have lots of different problems. I mean, part 
of the reason our voting is lower than most other democracies 
is we do not have a parliamentary democracy and, therefore, we, 
a) do not have a very class oriented society as other 
democracies do; we do not have class oriented parties; we have 
a complex system of government; we have a multiplicity of 
officers that we elect, all of which makes people's vote feel 
less instrumental than voting for one person who represents 
your point of view.
    Chairman Schumer. Let me ask you this question.
    Mr. Gans. Yes, sir?
    Chairman Schumer. Let's just assume for the moment we could 
develop a system where people would not have to register, could 
show up that day and yet it would have no fraud, just 
hypothetically.
    Mr. Gans. Okay. That is what I am proposing.
    Chairman Schumer. You are trying--I know.
    Do you think turnout would go up a great deal?
    Mr. Gans. I think turnout would go up. I mean, in our 
recent history, you can look less at registration and more at 
motivation as to the reasons why we have higher or lower 
turnout. What this would do, would enhance the possibility and 
high turnout--in high motivation election; that we would have 
substantially more people than we already have, and it may or 
may not make much difference in low motivation elections.
    Chairman Schumer. Right.
    What do you say, Ms. Clarke and Mr. Goldman, on that?
    Ms. Clarke. One thing I would note is that there are some 
things that are compulsory in our society. Jury service, for 
example, no choice, you have to do it. So this idea about 
mandatory voting, I kind of like the notion of really 
encouraging as many citizens as possible to participate.
    Chairman Schumer. Support a fine?
    Ms. Clarke. I am sorry?
    Chairman Schumer. Would you support a fine like in the 
Australian system?
    Ms. Clarke. Sure, particularly if it were accompanied by 
low prosecution.
    [Laughter.]
    Ms. Clarke. But I think we want to figure out how we can 
tear down barriers.
    I am concerned--and I just want to note this concern for 
the record about proposals, about national ID requirements, 
which I think only erect additional barriers, unnecessary 
barriers, that would lock out even greater numbers of people 
from the process.
    A final point I want to underscore is that we really should 
focus on the design of voter registration forms, which varies 
tremendously across the board. I have a copy here of 
Louisiana's voter registration form, probably designed with a 
6-point font.
    Chairman Schumer. Hold it up. Hold it up.
    Ms. Clarke. You need a magnifying glass to get through it. 
And it is terribly unfortunate that it requires voters to list 
information over and over and over again. And election 
officials can reject the forms if somebody fails to check the 
box that they are a citizen, but, nevertheless, signs the 
affirmation at the bottom, under penalty of perjury, where they 
swear that they are citizens. We have really got to streamline 
these forms and make it easier for all who want to participate 
to register.
    Chairman Schumer. Do you want to say something, Mr. 
Goldman, in reference to Mr. Gans, the comment I asked Mr. 
Gans?
    Mr. Goldman. Thank you, Mr. Chairman. I think that we 
already saw that this would increase turnout if we had a better 
registration system. I mean, we were just talking about 3.8 
percent of voters who tried to go to the polls and tried to 
vote but were not able to because of registration. Those voters 
are not included in tallies, whether they are exact or inexact 
tallies of how many voters did show up. And I think 3.8 
percentage points in an American election is actually an 
enormous amount.
    Australia actually has an automatic and permanent voter 
registration system, so they do not have the same problems that 
we do. While we can quibble about whether or not it is a 19th 
century system or not, the provisional balloting system and the 
problems with absentee balloting are largely a symptom of a 
problem with the registration system. We would not have--for 
instance, in California, in Los Angeles County, 85 percent of 
provisional ballots that do not count are not counted because 
of the registration system, which is an enormous amount of 
ballots, since each one of those takes time and money to be 
able to distribute them and count them. And they delay 
certification and things like that.
    So we are talking about the correlative costs on the rest 
of the election system and making election officials doing 
basically three or four times the work that they would 
otherwise have to, spending half of their registration budget. 
That adds up to millions and millions of dollars because of a 
system which was conceived in the 19th century has not been 
much updated other than a couple of band-aids that have 
basically just really illustrated how bad the system is to 
begin with.
    Chairman Schumer. Senator Bennett will get the last round 
of questions.
    Senator Bennett. Thank you very much. This has been a very 
interesting morning. I appreciate it. I think kind of a 
potpourri of reactions here.
    You get all of your data from Harvard?
    Mr. Gans. No, I do not.
    Senator Bennett. No. Mr. Persily.
    Mr. Persily. The Cooperative Congressional Election Survey.
    Senator Bennett. Oh, okay.
    Mr. Persily. I mean, without belaboring the point, it is a 
coalition of 30 universities. Steve is instrumental in running 
it. Stanford's Doug Rivers, is instrumental in running it. So I 
might have been a little loose there, but it is a broad-based 
coalition.
    Senator Bennett. We are all being a little bit flip here in 
one way or another.
    There is a book that I remember. I should have brought it 
here because I should quote it exactly. But it comes out of my 
memory bank as we are having this conversation, entitled, The 
Vanishing Voter, and it was written from Harvard. And the two 
primary reasons, according to the book, why voter participation 
has been going down in the United States were, number one, the 
declining power of political parties. Political parties exist, 
whether they are the Whigs or whoever, to get people to the 
polls. And the declining power of political parties is one of 
the reasons why, according to this book, voters are vanishing. 
The second was the attitude of the media, that the media is 
constantly denigrating politics and politicians to the point 
that people feel, why have anything to do with it.
    I remember another piece, random out of my database, of a 
woman who was asked how do you vote, and she said, I never 
vote; it only encourages them. And that, again, is 
manifestation of the attitude that the media has for politics. 
And if you listen to the late night shows, you find that there 
is constant, constant, dripping of acid on all politicians. We 
are all stupid; we are all corrupt. And we are all objects of 
constant downgrading attacks until, of course, we have left 
office. And then we might, in some ways, be brought up at these 
late night shows as an example of how the present politicians 
are all stupid and corrupt because this one who has passed from 
the scene is not. This has nothing to do with registration. So 
let's not view this whole thing in a silo that says that 
registration is the sole cause of our various problems.
    I thank you for the information about your methodology. It 
gives me a greater sense of security in depending on your 
numbers than I had when I came in to this. But I would just say 
to the press that is around here, if you are going to say the 
registration problem has kept people from the polls, we go to 
the 2 to 3 million number that comes out of your study instead 
of the 9 million number that we heard later. And I welcome the 
idea that there are further studies that are going on and we 
will get more statistical information about this.
    I appreciate the work you have all done. The only one last 
comment I would leave----
    Mr. Nelson, you have a registration system in South Dakota.
    Mr. Nelson. Correct.
    Senator Bennett. North Dakota does not.
    Mr. Nelson. Correct.
    Senator Bennett. You have a higher turnout in South Dakota 
than they have in North Dakota.
    Mr. Nelson. Correct.
    Senator Bennett. I do not know what that proves, but it is 
an interesting thing to lay down----
    Chairman Schumer. It is warmer.
    Senator Bennett. I have never been to either one, so I will 
leave you to say that.
    But the registration system has not produced in your state 
a lower vote turnout or a non-registration system in as close a 
control as we can find in a neighboring state. So, again, I say 
that to underscore my point that decisions not to vote or voter 
participation at low levels is not entirely a factor of the 
registration challenge that we face.
    Having said that, I think the panel has demonstrated that 
we have work to do here, and I appreciate the view of the 
academics who have studied it carefully. I appreciate the view 
of the man who is on the firing line who has to deal with it, 
and I hope we pay attention to all of this.
    Mr. Gans, I am very interested in your solution. I will not 
publicly endorse it at this point, but I will say I am very 
interested in it.
    Mr. Gans. Thank you.
    Chairman Schumer. I want to thank both Senator Bennett and 
our panel. I think it was really a great start for this 
committee for the year. So I want to thank all of you for 
coming. We have a number of statements for the hearing record. 
Without objection, I request that a series of statements, which 
I will submit to the record, be added in.
    The record will remain open for five business days for 
additional statements from members and the public. And if the 
witnesses have no objection, I would also request the record 
remain open for five days for additional questions that we on 
the panel might submit to you, and you can answer in writing, 
if that is okay. Good.
    All right. Since there is no further business before the 
Committee, we are adjourned, subject to the call of the chair.
    [The information for the record follows:]
    [Whereupon, at 11:41 a.m., the Committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6336.001

[GRAPHIC] [TIFF OMITTED] T6336.002

[GRAPHIC] [TIFF OMITTED] T6336.003

[GRAPHIC] [TIFF OMITTED] T6336.004

[GRAPHIC] [TIFF OMITTED] T6336.005

[GRAPHIC] [TIFF OMITTED] T6336.006

[GRAPHIC] [TIFF OMITTED] T6336.007

[GRAPHIC] [TIFF OMITTED] T6336.008

[GRAPHIC] [TIFF OMITTED] T6336.009

[GRAPHIC] [TIFF OMITTED] T6336.010

[GRAPHIC] [TIFF OMITTED] T6336.011

[GRAPHIC] [TIFF OMITTED] T6336.012

[GRAPHIC] [TIFF OMITTED] T6336.013

[GRAPHIC] [TIFF OMITTED] T6336.014

[GRAPHIC] [TIFF OMITTED] T6336.015

[GRAPHIC] [TIFF OMITTED] T6336.016

[GRAPHIC] [TIFF OMITTED] T6336.017

[GRAPHIC] [TIFF OMITTED] T6336.018

[GRAPHIC] [TIFF OMITTED] T6336.019

[GRAPHIC] [TIFF OMITTED] T6336.020

[GRAPHIC] [TIFF OMITTED] T6336.021

[GRAPHIC] [TIFF OMITTED] T6336.022

[GRAPHIC] [TIFF OMITTED] T6336.023

[GRAPHIC] [TIFF OMITTED] T6336.024

[GRAPHIC] [TIFF OMITTED] T6336.025

[GRAPHIC] [TIFF OMITTED] T6336.026

[GRAPHIC] [TIFF OMITTED] T6336.027

[GRAPHIC] [TIFF OMITTED] T6336.028

[GRAPHIC] [TIFF OMITTED] T6336.029

[GRAPHIC] [TIFF OMITTED] T6336.030

[GRAPHIC] [TIFF OMITTED] T6336.031

[GRAPHIC] [TIFF OMITTED] T6336.032

[GRAPHIC] [TIFF OMITTED] T6336.033

[GRAPHIC] [TIFF OMITTED] T6336.034

[GRAPHIC] [TIFF OMITTED] T6336.035

[GRAPHIC] [TIFF OMITTED] T6336.036

[GRAPHIC] [TIFF OMITTED] T6336.037

[GRAPHIC] [TIFF OMITTED] T6336.038

[GRAPHIC] [TIFF OMITTED] T6336.039

[GRAPHIC] [TIFF OMITTED] T6336.040

[GRAPHIC] [TIFF OMITTED] T6336.041

[GRAPHIC] [TIFF OMITTED] T6336.042

[GRAPHIC] [TIFF OMITTED] T6336.043

[GRAPHIC] [TIFF OMITTED] T6336.044

[GRAPHIC] [TIFF OMITTED] T6336.045

[GRAPHIC] [TIFF OMITTED] T6336.046

[GRAPHIC] [TIFF OMITTED] T6336.047

[GRAPHIC] [TIFF OMITTED] T6336.048

[GRAPHIC] [TIFF OMITTED] T6336.049

[GRAPHIC] [TIFF OMITTED] T6336.050

[GRAPHIC] [TIFF OMITTED] T6336.051

[GRAPHIC] [TIFF OMITTED] T6336.052

[GRAPHIC] [TIFF OMITTED] T6336.053

[GRAPHIC] [TIFF OMITTED] T6336.054

[GRAPHIC] [TIFF OMITTED] T6336.055

[GRAPHIC] [TIFF OMITTED] T6336.056

[GRAPHIC] [TIFF OMITTED] T6336.057

[GRAPHIC] [TIFF OMITTED] T6336.058

[GRAPHIC] [TIFF OMITTED] T6336.059

[GRAPHIC] [TIFF OMITTED] T6336.060

[GRAPHIC] [TIFF OMITTED] T6336.061

[GRAPHIC] [TIFF OMITTED] T6336.062

[GRAPHIC] [TIFF OMITTED] T6336.063

[GRAPHIC] [TIFF OMITTED] T6336.064

[GRAPHIC] [TIFF OMITTED] T6336.065

[GRAPHIC] [TIFF OMITTED] T6336.066

[GRAPHIC] [TIFF OMITTED] T6336.067

[GRAPHIC] [TIFF OMITTED] T6336.068

[GRAPHIC] [TIFF OMITTED] T6336.069

[GRAPHIC] [TIFF OMITTED] T6336.070

[GRAPHIC] [TIFF OMITTED] T6336.071

[GRAPHIC] [TIFF OMITTED] T6336.072

[GRAPHIC] [TIFF OMITTED] T6336.073

[GRAPHIC] [TIFF OMITTED] T6336.074

[GRAPHIC] [TIFF OMITTED] T6336.075

[GRAPHIC] [TIFF OMITTED] T6336.076

[GRAPHIC] [TIFF OMITTED] T6336.077

[GRAPHIC] [TIFF OMITTED] T6336.078

[GRAPHIC] [TIFF OMITTED] T6336.079

[GRAPHIC] [TIFF OMITTED] T6336.080

[GRAPHIC] [TIFF OMITTED] T6336.081

[GRAPHIC] [TIFF OMITTED] T6336.082

[GRAPHIC] [TIFF OMITTED] T6336.083

[GRAPHIC] [TIFF OMITTED] T6336.084

[GRAPHIC] [TIFF OMITTED] T6336.085

[GRAPHIC] [TIFF OMITTED] T6336.086

[GRAPHIC] [TIFF OMITTED] T6336.087

[GRAPHIC] [TIFF OMITTED] T6336.088

[GRAPHIC] [TIFF OMITTED] T6336.089

[GRAPHIC] [TIFF OMITTED] T6336.090

[GRAPHIC] [TIFF OMITTED] T6336.091

[GRAPHIC] [TIFF OMITTED] T6336.092

[GRAPHIC] [TIFF OMITTED] T6336.093

[GRAPHIC] [TIFF OMITTED] T6336.094

[GRAPHIC] [TIFF OMITTED] T6336.095

[GRAPHIC] [TIFF OMITTED] T6336.096

[GRAPHIC] [TIFF OMITTED] T6336.097

[GRAPHIC] [TIFF OMITTED] T6336.098

[GRAPHIC] [TIFF OMITTED] T6336.099

[GRAPHIC] [TIFF OMITTED] T6336.100

[GRAPHIC] [TIFF OMITTED] T6336.101

[GRAPHIC] [TIFF OMITTED] T6336.102

[GRAPHIC] [TIFF OMITTED] T6336.103

[GRAPHIC] [TIFF OMITTED] T6336.104

[GRAPHIC] [TIFF OMITTED] T6336.105

[GRAPHIC] [TIFF OMITTED] T6336.106

[GRAPHIC] [TIFF OMITTED] T6336.107

[GRAPHIC] [TIFF OMITTED] T6336.108

[GRAPHIC] [TIFF OMITTED] T6336.109

[GRAPHIC] [TIFF OMITTED] T6336.110

[GRAPHIC] [TIFF OMITTED] T6336.111

[GRAPHIC] [TIFF OMITTED] T6336.112

[GRAPHIC] [TIFF OMITTED] T6336.113

[GRAPHIC] [TIFF OMITTED] T6336.114

[GRAPHIC] [TIFF OMITTED] T6336.115

[GRAPHIC] [TIFF OMITTED] T6336.116

[GRAPHIC] [TIFF OMITTED] T6336.117

[GRAPHIC] [TIFF OMITTED] T6336.118

[GRAPHIC] [TIFF OMITTED] T6336.119

[GRAPHIC] [TIFF OMITTED] T6336.120

[GRAPHIC] [TIFF OMITTED] T6336.121

[GRAPHIC] [TIFF OMITTED] T6336.122

[GRAPHIC] [TIFF OMITTED] T6336.123

[GRAPHIC] [TIFF OMITTED] T6336.124

[GRAPHIC] [TIFF OMITTED] T6336.125

[GRAPHIC] [TIFF OMITTED] T6336.126

[GRAPHIC] [TIFF OMITTED] T6336.127

[GRAPHIC] [TIFF OMITTED] T6336.128

[GRAPHIC] [TIFF OMITTED] T6336.129

[GRAPHIC] [TIFF OMITTED] T6336.130

[GRAPHIC] [TIFF OMITTED] T6336.131

[GRAPHIC] [TIFF OMITTED] T6336.132

[GRAPHIC] [TIFF OMITTED] T6336.133

[GRAPHIC] [TIFF OMITTED] T6336.134

[GRAPHIC] [TIFF OMITTED] T6336.135

[GRAPHIC] [TIFF OMITTED] T6336.136

[GRAPHIC] [TIFF OMITTED] T6336.137

[GRAPHIC] [TIFF OMITTED] T6336.138

[GRAPHIC] [TIFF OMITTED] T6336.139

[GRAPHIC] [TIFF OMITTED] T6336.140

[GRAPHIC] [TIFF OMITTED] T6336.141

[GRAPHIC] [TIFF OMITTED] T6336.142

[GRAPHIC] [TIFF OMITTED] T6336.143

[GRAPHIC] [TIFF OMITTED] T6336.144

[GRAPHIC] [TIFF OMITTED] T6336.145

[GRAPHIC] [TIFF OMITTED] T6336.146

[GRAPHIC] [TIFF OMITTED] T6336.147

[GRAPHIC] [TIFF OMITTED] T6336.148

[GRAPHIC] [TIFF OMITTED] T6336.149

[GRAPHIC] [TIFF OMITTED] T6336.150

[GRAPHIC] [TIFF OMITTED] T6336.151

[GRAPHIC] [TIFF OMITTED] T6336.152

[GRAPHIC] [TIFF OMITTED] T6336.153

[GRAPHIC] [TIFF OMITTED] T6336.154

[GRAPHIC] [TIFF OMITTED] T6336.155

[GRAPHIC] [TIFF OMITTED] T6336.156

[GRAPHIC] [TIFF OMITTED] T6336.157

[GRAPHIC] [TIFF OMITTED] T6336.158

[GRAPHIC] [TIFF OMITTED] T6336.159

[GRAPHIC] [TIFF OMITTED] T6336.160

[GRAPHIC] [TIFF OMITTED] T6336.161

[GRAPHIC] [TIFF OMITTED] T6336.162

[GRAPHIC] [TIFF OMITTED] T6336.163

[GRAPHIC] [TIFF OMITTED] T6336.164

[GRAPHIC] [TIFF OMITTED] T6336.165

[GRAPHIC] [TIFF OMITTED] T6336.166

[GRAPHIC] [TIFF OMITTED] T6336.167

[GRAPHIC] [TIFF OMITTED] T6336.168

[GRAPHIC] [TIFF OMITTED] T6336.169

[GRAPHIC] [TIFF OMITTED] T6336.170

[GRAPHIC] [TIFF OMITTED] T6336.171

[GRAPHIC] [TIFF OMITTED] T6336.172

[GRAPHIC] [TIFF OMITTED] T6336.173

[GRAPHIC] [TIFF OMITTED] T6336.174

[GRAPHIC] [TIFF OMITTED] T6336.175

[GRAPHIC] [TIFF OMITTED] T6336.176

[GRAPHIC] [TIFF OMITTED] T6336.177

[GRAPHIC] [TIFF OMITTED] T6336.178

[GRAPHIC] [TIFF OMITTED] T6336.179

[GRAPHIC] [TIFF OMITTED] T6336.180

[GRAPHIC] [TIFF OMITTED] T6336.181

[GRAPHIC] [TIFF OMITTED] T6336.182

[GRAPHIC] [TIFF OMITTED] T6336.183

[GRAPHIC] [TIFF OMITTED] T6336.184

[GRAPHIC] [TIFF OMITTED] T6336.185

[GRAPHIC] [TIFF OMITTED] T6336.186

[GRAPHIC] [TIFF OMITTED] T6336.187

[GRAPHIC] [TIFF OMITTED] T6336.188

[GRAPHIC] [TIFF OMITTED] T6336.189

[GRAPHIC] [TIFF OMITTED] T6336.190

[GRAPHIC] [TIFF OMITTED] T6336.191

[GRAPHIC] [TIFF OMITTED] T6336.192

[GRAPHIC] [TIFF OMITTED] T6336.193

[GRAPHIC] [TIFF OMITTED] T6336.194

[GRAPHIC] [TIFF OMITTED] T6336.195

[GRAPHIC] [TIFF OMITTED] T6336.196

[GRAPHIC] [TIFF OMITTED] T6336.197

[GRAPHIC] [TIFF OMITTED] T6336.198

[GRAPHIC] [TIFF OMITTED] T6336.199

[GRAPHIC] [TIFF OMITTED] T6336.200

[GRAPHIC] [TIFF OMITTED] T6336.201

[GRAPHIC] [TIFF OMITTED] T6336.202

[GRAPHIC] [TIFF OMITTED] T6336.203

[GRAPHIC] [TIFF OMITTED] T6336.206

[GRAPHIC] [TIFF OMITTED] T6336.207

[GRAPHIC] [TIFF OMITTED] T6336.208

[GRAPHIC] [TIFF OMITTED] T6336.209

[GRAPHIC] [TIFF OMITTED] T6336.210

[GRAPHIC] [TIFF OMITTED] T6336.211

[GRAPHIC] [TIFF OMITTED] T6336.212

[GRAPHIC] [TIFF OMITTED] T6336.213

[GRAPHIC] [TIFF OMITTED] T6336.214

[GRAPHIC] [TIFF OMITTED] T6336.215

[GRAPHIC] [TIFF OMITTED] T6336.216

[GRAPHIC] [TIFF OMITTED] T6336.217

[GRAPHIC] [TIFF OMITTED] T6336.218

[GRAPHIC] [TIFF OMITTED] T6336.219

[GRAPHIC] [TIFF OMITTED] T6336.220

[GRAPHIC] [TIFF OMITTED] T6336.221

[GRAPHIC] [TIFF OMITTED] T6336.222

[GRAPHIC] [TIFF OMITTED] T6336.223

[GRAPHIC] [TIFF OMITTED] T6336.224

[GRAPHIC] [TIFF OMITTED] T6336.225

[GRAPHIC] [TIFF OMITTED] T6336.226

[GRAPHIC] [TIFF OMITTED] T6336.227

[GRAPHIC] [TIFF OMITTED] T6336.228

[GRAPHIC] [TIFF OMITTED] T6336.229

[GRAPHIC] [TIFF OMITTED] T6336.230

[GRAPHIC] [TIFF OMITTED] T6336.231

[GRAPHIC] [TIFF OMITTED] T6336.232

[GRAPHIC] [TIFF OMITTED] T6336.233

[GRAPHIC] [TIFF OMITTED] T6336.234

[GRAPHIC] [TIFF OMITTED] T6336.235

[GRAPHIC] [TIFF OMITTED] T6336.236

[GRAPHIC] [TIFF OMITTED] T6336.237

[GRAPHIC] [TIFF OMITTED] T6336.238

[GRAPHIC] [TIFF OMITTED] T6336.239

[GRAPHIC] [TIFF OMITTED] T6336.240

[GRAPHIC] [TIFF OMITTED] T6336.241

[GRAPHIC] [TIFF OMITTED] T6336.242

[GRAPHIC] [TIFF OMITTED] T6336.243

[GRAPHIC] [TIFF OMITTED] T6336.244

[GRAPHIC] [TIFF OMITTED] T6336.245

[GRAPHIC] [TIFF OMITTED] T6336.246

[GRAPHIC] [TIFF OMITTED] T6336.247

[GRAPHIC] [TIFF OMITTED] T6336.248

[GRAPHIC] [TIFF OMITTED] T6336.249

[GRAPHIC] [TIFF OMITTED] T6336.250

[GRAPHIC] [TIFF OMITTED] T6336.251

[GRAPHIC] [TIFF OMITTED] T6336.252

[GRAPHIC] [TIFF OMITTED] T6336.253

[GRAPHIC] [TIFF OMITTED] T6336.254

[GRAPHIC] [TIFF OMITTED] T6336.255

[GRAPHIC] [TIFF OMITTED] T6336.256

[GRAPHIC] [TIFF OMITTED] T6336.257

[GRAPHIC] [TIFF OMITTED] T6336.258

[GRAPHIC] [TIFF OMITTED] T6336.259

[GRAPHIC] [TIFF OMITTED] T6336.260

[GRAPHIC] [TIFF OMITTED] T6336.261

[GRAPHIC] [TIFF OMITTED] T6336.262

[GRAPHIC] [TIFF OMITTED] T6336.263

[GRAPHIC] [TIFF OMITTED] T6336.264

[GRAPHIC] [TIFF OMITTED] T6336.265

[GRAPHIC] [TIFF OMITTED] T6336.266

[GRAPHIC] [TIFF OMITTED] T6336.267

[GRAPHIC] [TIFF OMITTED] T6336.268

[GRAPHIC] [TIFF OMITTED] T6336.269

[GRAPHIC] [TIFF OMITTED] T6336.270

[GRAPHIC] [TIFF OMITTED] T6336.271

[GRAPHIC] [TIFF OMITTED] T6336.272

[GRAPHIC] [TIFF OMITTED] T6336.273

[GRAPHIC] [TIFF OMITTED] T6336.274

[GRAPHIC] [TIFF OMITTED] T6336.275

[GRAPHIC] [TIFF OMITTED] T6336.276

[GRAPHIC] [TIFF OMITTED] T6336.277

[GRAPHIC] [TIFF OMITTED] T6336.278

[GRAPHIC] [TIFF OMITTED] T6336.279

[GRAPHIC] [TIFF OMITTED] T6336.280

[GRAPHIC] [TIFF OMITTED] T6336.281

[GRAPHIC] [TIFF OMITTED] T6336.282

[GRAPHIC] [TIFF OMITTED] T6336.283

[GRAPHIC] [TIFF OMITTED] T6336.284

[GRAPHIC] [TIFF OMITTED] T6336.285

[GRAPHIC] [TIFF OMITTED] T6336.286

[GRAPHIC] [TIFF OMITTED] T6336.287

[GRAPHIC] [TIFF OMITTED] T6336.288

[GRAPHIC] [TIFF OMITTED] T6336.289

[GRAPHIC] [TIFF OMITTED] T6336.290

[GRAPHIC] [TIFF OMITTED] T6336.291

[GRAPHIC] [TIFF OMITTED] T6336.292

[GRAPHIC] [TIFF OMITTED] T6336.293

[GRAPHIC] [TIFF OMITTED] T6336.294

[GRAPHIC] [TIFF OMITTED] T6336.295

[GRAPHIC] [TIFF OMITTED] T6336.296

[GRAPHIC] [TIFF OMITTED] T6336.297

[GRAPHIC] [TIFF OMITTED] T6336.298

[GRAPHIC] [TIFF OMITTED] T6336.299

[GRAPHIC] [TIFF OMITTED] T6336.300

[GRAPHIC] [TIFF OMITTED] T6336.301

[GRAPHIC] [TIFF OMITTED] T6336.302

[GRAPHIC] [TIFF OMITTED] T6336.303

[GRAPHIC] [TIFF OMITTED] T6336.304

[GRAPHIC] [TIFF OMITTED] T6336.305



HEARING ON PROBLEMS FOR MILITARY AND OVERSEAS VOTERS: WHY MANY SOLDIERS 
                     AND THEIR FAMILIES CAN'T VOTE

                              ----------                              


                        WEDNESDAY, MAY 13, 2009

                      United States Senate,
             Committee on Rules and Administration,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Committee, presiding.
    Present: Senators Schumer, Nelson, Chambliss and Roberts.
    Staff present: Jean Bordewich, Staff Director; Jason Abel, 
Chief Counsel; Veronica Gillespie, Elections Counsel; Adam 
Ambrogi, Counsel; Brenna Allen, Professional Staff; Lynden 
Armstrong, Chief Clerk; Justin Perkins, Staff Assistant; Mary 
Jones, Republican Staff Director; Shaun Parkin, Republican 
Deputy Staff Director; Paul Vinovich, Republican Chief Counsel; 
Michael Merrell, Republican Counsel; and Rachel Creviston, 
Republican Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The hearing will come to order and good 
morning to everyone and thank all the witnesses for coming and 
I want to thank my colleagues for being here.
    Saxby Chambliss, has played an active role and I know is 
very interested in this issue, and I want to say we hope to get 
something done in a bipartisan way on this issue because this 
is truly a bipartisan problem.
    And my good friend Ben Nelson, who wears really two hats. I 
am proud he is a member of our Committee, but he is also 
Chairman of the Armed Services Subcommittee on Personnel and 
Readiness and I know he cares a lot about this issue and he is 
a great legislator and gets a lot done so thanks for coming, 
Ben.
    We will have opening statements from my colleagues after I 
finish.
    Every couple of years, especially on those years ending in 
even numbers, right before election time there is a large push 
to improve the process of military voting. However, as soon as 
the election is over, too often we forget to continue to push 
for improve voting rights for military voters.
    Let me say something clearly so everyone can hear it. Not 
this year. We have convened this hearing to uncover some of the 
major problems facing military and overseas voters and we hope 
to do whatever is necessary to clear it up so it does not 
happen in our next federal election in 2010.
    Registration deadlines, notary requirements, lack of 
communication, mail delays, poor address information and state 
laws that put in place untenable mailing dates are all severe 
problems. We need to actively evaluate these problems so we can 
work in a bipartisan way to find solutions to the problems.
    Today we will hear about that several studies that show how 
severe the problem is. It is more severe I think than most 
people realize. One of those is a new study we commissioned 
from the Congressional Research Service.
    While the 2008 Election Assistance Commission post-election 
report will be released a few months from now, we wanted to see 
right now an initial snapshot of how voting went in the states 
with the largest number of military voters during the 2008 
election.
    We asked the Congressional Research Service to contact some 
of the largest military voting states and get initial data on 
the number of overseas ballots requested and the number of 
overseas ballots that were never eventually counted. We were 
able to get preliminary data in advance of the complete survey 
to be released later this year.
    Here is what the data showed. It showed that up to 27 
percent of the ballots requested by military and overseas 
voters were not counted and that is an astounding number that 
it should say to all of us, we can do a lot better.
    Those are just the voters who actually were able to get 
their requests for ballots answered. There are probably many 
more who did not.
    Studies from previous elections show that the military and 
overseas voters have one of the lowest level of recorded votes 
of all groups because it is so hard for them to vote.
    And as you can see from the chart behind me, 63 percent of 
local election officials reported receiving completed ballots 
after the deadline had passed so they do not count.
    The problem is compounded when 39 percent of military and 
overseas voters receive their ballots too late to return them 
in time. They request them in a timely way, but by the time 
they get the ballot, they cannot send it. The deadline has 
passed for last day of absentee voting or whatever.
    This number from this past election is up 14 percent from 
2006 so the problem is not getting better. It is getting worse.
    It is unacceptable that in the age of global communications 
many active military, their families and thousands of other 
Americans living, working and volunteering in foreign countries 
cannot cast ballots at home while they are serving overseas.
    Imagine the frustration the soldier feels when he or she is 
stationed in Iraq or Afghanistan and when their ballot finally 
arrives, it is too late. Here they are risking their lives for 
us. They take that extra step to vote. They are not at home. 
They obviously have many other things on their minds. They 
request a ballot in a timely way and it gets there too late to 
vote. Imagine how that feels. They can fight and put their life 
on the line for their country, but they cannot choose their 
next commander-in-chief.
    To put a human face on these numbers, I want to share a 
letter describing some true stories to the Overseas Vote 
Foundation during the 2008 election.
    One military voter wrote, ``I submitted two registration 
forms via standard mail in January 2008 to Texas and received 
no confirmation that my registration was received or processed. 
I did not receive ballots for the primaries or the general 
election.''
    Another soldier, this one from Alaska, said, ``I hate that 
because of my military service overseas, I was precluded from 
voting.''
    Let me just repeat that because they just hits you at home.
    ``I hate,'' and this is a soldier serving us, ``I hate that 
because of my military service overseas, I was precluded from 
voting.''
    The letters continues.
    ``Of all people, deployed service members should have a 
guaranteed ability to vote in the presidential election. The 
state simply made it impossible for me to vote.''
    One final voter was able to get a ballot but was unsure 
whether it was ever counted.
    ``I called my hometown voting office to get assistance,'' 
he wrote. ``Every time I called they told me something 
different. I ended up doing three different things just to get 
my ballot and then I sent it in a week before the deadline. I 
am hoping that my vote was counted.''
    In each of these stories, you can hear the effort these 
service men and women made to vote, calling several times, 
submitting their ballots early, but to no avail. This is 
unacceptable and something we should not let continue.
    So we are here today to learn more about the source of 
these problems. The report of CRS clearly indicates the problem 
exists and is growing. The hearing is devoted not to outlining 
the CRS report but to figuring out what we do about it.
    First, we are going to hear from the Acting Under Secretary 
of Defense for Personnel and Readiness. I understand that the 
Federal Voting Assistance Program is undergoing a period of 
transition and that it is currently operating under an acting 
director. Senator Ben Nelson and I just have sent a letter to 
Acting Under Secretary McGinn, one of our witnesses today, 
urging that a new director be put in place as soon as possible 
so we can get this moving.
    We sent the letter to make it sure for the record that we 
believe that an effective Federal Voting Assistance Program is 
something very important to members of Congress and we want to 
work closely with the new director to ensure he or she receives 
the report from our respective committees.
    Second, the leadership at the Department of Defense needs 
to use every available resource to increase the number of 
military voters who register, vote, and have that vote counted. 
This needs to be accomplished through a true assessment of the 
problems and an innovative approach to structuring voting 
assistance, improving technology, and informing Congress and 
the states what laws need to be reformed to make it easier for 
these soldiers and their families to vote.
    There are a number of ways that the military can work to 
improve voting rights for members of the armed forces.
    Recently, we requested that President Obama work with the 
Department of Veterans Affairs to provide voter registration 
support to the veterans they serve. But currently, the only 
federal offices that are required by statute to provide an 
opportunity to register and vote are the Armed Services 
Recruitment Centers. I am interested in finding out more about 
how that program works and whether it has been successful.
    I must mention one more of our witnesses as I wind down our 
closing remarks. I would like to thank Lieutenant Colonel 
Joseph DeCaro from Florida, who is taking a very--there he is. 
He is not in uniform. I was looking for the uniform first. But 
he is doing this as a volunteer even though he is on active 
duty and he is talking a very short leave from his duties with 
the Air Force and is willing to speak about the difficulties he 
has faced as a member of the Air Force stationed overseas and 
trying to vote.
    And I think I speak on behalf of all of us when I say, 
Lieutenant Colonel, we appreciate your service and we hope you 
know that you are performing an important service today by 
telling your story here.
    A final personal note. While we hear from members of the 
armed forces who have encountered difficulties trying to vote, 
I do not find that you have to look far to find these problems.
    An intern in my Buffalo, New York office, Lisa Wickman, is 
a veteran. She was on active duty in the Navy from 2001 to 
2006. She was stationed in Guam and was on shore duty during 
the 2004 election. Her problem was that she wanted to vote but 
did not know she had to vote absentee.
    Despite weekly updates on a series of other important 
matters, her officers never gave her or her fellow sailors 
important information about how to vote.
    Now, that should not happen, certainly not in the United 
States where elections are a bedrock of our political system 
and we correctly have great praise and admiration for members 
of the armed services.
    So I look forward to hearing from all of you today.
    We will now call on Senator Chambliss.

             OPENING STATEMENT OF SENATOR CHAMBLISS

    Senator Chambliss. Thank you very much, Mr. Chairman, and I 
appreciate you calling this hearing today on an issue that is 
of critical importance to America, not just to our men and 
women, but those folks that protect us every day need to have 
their rights protected. By your calling this hearing today, we 
are taking an important step in that direction.
    Obviously I am substituting for Senator Bennett, who is was 
managing an issue on the floor, and I would initially asked for 
unanimous consent that Senator Bennett's statement be inserted 
in the record.
    Chairman Schumer. Without objection.
    [The prepared statement of Senator Bennett follows:]
    Senator Chambliss. I was also privileged to serve as 
Chairman of the Personnel Subcommittee on Armed Services with 
my dear friend, Senator Ben Nelson, a couple of Congresses ago 
and still serve as a member of that Personnel Subcommittee and 
we have talked about this in Armed Services and we look forward 
to working with this committee in a bipartisan way, as you say, 
to address this issue.
    The challenge of assisting our military servicemen and 
women's participation in the electoral process is not new. 
Since our Nation's founding, we have called upon the men and 
women of the military time and again to defend the rights and 
freedoms we Americans hold sacred.
    Our soldiers are asked to leave family and home, travel to 
foreign and hostile lands, endure hardships of every kind, and 
place their lives in peril for their country. So, Mr. Chairman, 
it is appropriate that we in Congress do all that we can to 
ensure that these brave men and women are able fully to 
participate in the cause that they devote their lives to 
protecting.
    Beginning with the Soldier Voting Act of 1942, Congress has 
sought legislative remedies to guarantee the voting rights for 
members of the armed services. The current law, the Uniformed 
and Overseas Citizens Absentee Voting Act or UOCAVA, was 
approved by Congress and signed into law by President Ronald 
Reagan in 1986.
    UOCAVA sought to alleviate the difficulty of navigating the 
voting process for uniformed personnel and overseas citizens by 
standardizing the forms required of military voters to register 
to vote and request absentee ballots.
    Additional provisions ensured that the states would accept 
these standardized forms, the Postal Service would carry them 
expeditiously and free of charge, and that a presidential 
designee, the SECDEF, would be responsible for administering 
the program.
    Subsequent amendments included in the Help America Vote Act 
and various defense authorization acts have attempted to remedy 
some of the original Act's shortcomings.
    This hearing provides us with a fresh opportunity to 
examine how we are doing in accomplishing our goal to protect 
the voting rights of our servicemen and women. Unfortunately it 
seems that our soldiers are not participating at anywhere near 
the levels that we would like and this is unacceptable.
    As you have shown there, Mr. Chairman, a 2006 survey, 
conducted by the Defense Manpower Data Center, found that only 
22 percent of the estimated UOCAVA population participated in 
the 2006 election. Commentators have proposed any number of 
explanations for this shocking statistic. Some point to the 
continuing use of traditional postal services or ``snail mail'' 
to deliver voting materials to and from the field. Others call 
attention to the apparent ineffective assistance of the DOD's 
Federal Voting Assistance Program, which the Department's own 
Inspector General found to reach only 40 to 50 percent of 
military voters.
    Again, I look forward to the testimony of our witnesses and 
hope that they can shed some light on why this may be the case.
    Among the witnesses are those who are, or have been, 
military voters themselves and we thank you for your service to 
our country.
    Additionally, we have election officials who serve a vital 
and often thankless job in ensuring that our elections run 
smoothly and securely. Nowhere is their job more challenging, 
or important, than in working with our men and women of the 
armed forces.
    Finally, we have a representative of the Department of 
Defense. Our servicemen and women rely on the Department's 
Federal Voting Assistance Program to help them exercise their 
right to vote. I hope that we will hear an honest assessment of 
the program's execution of this very important responsibility 
and the results they have achieved.
    Before closing, let me add a few comments based on my own 
recent experience in my election last fall. Georgia has a huge 
military presence. We have 13 military installations and I 
believe my State did a good a good job of reaching military and 
absentee voters in the general election in November. Georgia, 
as well as most other states, have an excellent procedure in 
place for general elections and, while I have some ideas about 
how these can be improved, I think in large part it worked very 
well.
    Unfortunately, that was not the case in the run-off 
election in December. Lots of factors combined to make the run-
off election especially difficult for military and absentee 
voters based on the delayed, official announcement that there 
would be a run-off, followed by a short time line to send and 
receive absentee ballots. I think this highlighted some of the 
weaknesses in the system, not necessarily in Georgia but across 
the country, and I believe that we can use that example to make 
improvements and find ways to ensure that our military and 
overseas voters are never disenfranchised.
    Again, Mr. Chairman, thanks for holding this very important 
hearing and I look forward to the testimony of our witnesses.
    Chairman Schumer. Thank you, Senator Chambliss, and now 
Senator Nelson who chairs a similar committee on armed 
services.

              OPENING STATEMENT OF SENATOR NELSON

    Senator Nelson. Thank you, Mr. Chairman, for holding this 
hearing. Obviously it is one of the most important topics that 
we can deal with because of the importance of our military men 
and women being able to vote and making certain that every vote 
counts. I look forward to seeing the testimony.
    Unfortunately I am not going to be able to stay for the 
entire hearing. But one disenfranchised service member is one 
too many but, when two out of three ballots are not counted for 
whatever reason, we have got a serious problem on our hands.
    I know that a lot of the data on overseas voting needs to 
be improved and made more complete and consistent from county 
to county and state to state so we can know more about what is 
truly happening because of the inadequate information and data 
that we currently get.
    But I hope that we will find a way to increase coordination 
between the state, the Federal Government, the military, and 
the overseas voters. If we can improve the relationship and we 
find the way in which to expedite the process but make certain 
that it is complete and is sufficient, then we will be doing 
the kind of job we need to do.
    So I appreciate your interest in this and thank you for 
holding this hearing.
    Chairman Schumer. Thank you, Senator Nelson.
    We look forward to working with your subcommittee as well 
on this important issue.
    Now, I am going to introduce Gail McGinn. We have a vote at 
10:30, but I think we will be able to get through not only her 
testimony but questions before the vote because I know you have 
another appointment.
    Ms. McGinn is the current Acting Under Secretary of Defense 
for Personnel and Readiness. Her department oversees the 
Federal Voting Assistance Program office. Ms. McGinn, 
previously served as Under Secretary for Plans and other 
positions at the Department of Defense.
    Ms. McGinn, your entire statement will be read into the 
record and you may proceed.

STATEMENT OF GAIL MCGINN, ACTING UNDER SECRETARY FOR PERSONNEL 
      AND READINESS, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Ms. McGinn. Thank you very much, Mr. Chairman and 
distinguished members of the committee.
    I thank you for the opportunity to testify about the 
challenges our uniformed service and overseas voters experience 
in exercising their constitutional right to vote and the 
initiatives we have and continue to undertake to eliminate or 
litigate these challenges.
    Our goals are the same. I think the department shares the 
committee's concerns that the absentee voting process is 
sometimes daunting and discouraging to these voters.
    I would note, Mr. Chairman, that I am a military spouse and 
my husband retired from the Army. I did serve some time 
overseas with him and I got to experience overseas absentee 
voting, although I hasten to add, we were at headquarters, so I 
am sure it was much easier for us than for the rest of our 
constituency.
    But the Department is dedicated to making the absentee 
voting process easier and more straightforward for these 
citizens. Time, distance and mobility are the barriers that 
make the absentee voting process difficult for our uniformed 
service members, their voting age family members and our 
citizens who live outside the United States, barriers that are 
not faced by citizens who vote at the polls.
    First, there is time. There are certain actions, voter 
registration, absentee ballot request and the return of the 
citizen's marked ballot that must be accomplished by specific 
dates in order for the citizen's ballot to be counted. The 
amount of time a citizen has to complete the process is driven 
by the schedule established by each state and is subject to 
transit time in the postal system which may be extended when 
the individual is in a remote location.
    Second is distance. Our military and overseas voters 
frequently find themselves at great distances from their voting 
residences. Many citizens are in areas where mail service is 
limited, intermittent or non-existent.
    Peace Corp workers, submariners, forward deployed service 
members and others in remote areas may face periods of no mail 
service during the ballot mail period.
    Third is mobility. Our military and overseas voters are a 
dynamic group. Where they are located today may not be where 
they will be located for the next election. As we are a Nation 
at war, our military members face a high operating tempo which 
includes undergoing individual and collective training, 
participating in exercises and deployments. Overseas citizens 
also frequently move as job opportunities take them around the 
globe.
    The Uniformed and Overseas Citizens Absentee Voting Act, 
UOCAVA, safeguards the right to vote in federal office 
elections for absent uniformed service members and their 
families regardless of location, and U.S. citizens who are 
overseas. In the administration of the law, the director of 
Federal Voting Assistance Program works cooperatively with 
state and local election officials to carry out the provisions 
of UOCAVA to eliminate the barriers faced by UOCAVA citizens.
    The challenges of serving these citizens emanates from 
several principle causes characterized, as I had mentioned, by 
time, distance, and mobility and are exacerbated by the fact 
that, for many, mail remains the primary method for UOCAVA 
citizens to vote.
    Our federal system under which 55 states and territories 
independently administer their election procedures means that 
registration, ballot distribution, and voted ballot return 
regulations and deadlines are determined by a large number of 
independent jurisdictions, each of which have unique 
requirements that must be met in order to register, request a 
ballot, and ultimately have the voted ballot count.
    The Department employs three critical strategies. First, we 
have forged and maintained valuable partnerships with all who 
can assist in the absentee voting process including State and 
local election officials who carry out the elections, the 
United States Postal Service, the Military Postal Service 
Agency, the Department of State, the Department of Justice, 
other federal agencies, and overseas citizens organizations and 
advocacy groups.
    Second, we continue to provide and encourage use of 
electronic transmission options for registering to vote, 
requesting a ballot and returning a ballot.
    Third, we work with states to promote the passage of 
legislation that can positively effect the ability of our 
UOCAVA citizens to successfully participate in the democratic 
process.
    For many years the Voting Assistance Program has proposed 
legislative initiates to state officials that would facilitate 
voting for our citizens. There have been many successes with 
some states enacting some or all of our recommended legislative 
initiatives.
    Our legislative initiates for states and territories to 
improve ballot transit time are, first, provide at least 45 
days between ballot mailing date and the date that ballots are 
due, give state chief election officials the authority to alter 
elections procedures in emergency situations, provide a state 
write-in absentee ballot to be sent out 90 to 180 days before 
all elections and expand the use of electronic transmission 
alternatives for voting material.
    Currently 27 states, three territories and the District of 
Columbia provide at least 45 days between the ballot mailing 
date and the date ballots are due.
    Seventeen states and the District of Columbia give chief 
election officials the authority to alter election procedures 
in emergency situations.
    Twenty-seven states allow election officials to provide the 
state write-in a absentee ballot, and 47 states, three 
territories and the District of Columbia provide for the 
electronic transmission of voting materials for at least one 
part of the UOCAVA absentee voting process.
    For the 2010 elections FVAP is pursuing the next generation 
of electronic tools to assist UOCAVA voters. These coordinated 
efforts have provided effective support for thousands of 
citizens; and while the mail does work for a large number of 
UOCAVA voters, we believe leveraging technology could be 
beneficial in removing some of the challenges voters 
experience.
    Because each voter has a unique set of circumstances, the 
Department wants to provide as many alternative methods as 
possible for registering, requesting a ballot, and returning 
the ballot.
    Clearly, the three areas for emphasis that you have 
identified in the letter that you sent to me, improved 
relationships and election officials, improved use of 
technology, and improved data on military voting are important 
ones that need to be continuously worked and we look forward to 
working with the committee on those issues.
    I would like to thank you for your continued support of our 
service members, their families and our overseas citizens and 
all this committee has done to make it easier for them to vote.
    I am happy to take your questions.
    [The prepared statement of Ms. McGinn follows:]
    Chairman Schumer. Thank you.
    I am going to try to be brief so we can get questions in. 
You will hear a little buzz when the vote starts which gives us 
about 15 minutes before we have to go vote.
    Okay. You mentioned the letter Senator Nelson and I sent 
you expressing the hope that the new Federal Voting Assistance 
Program Director who your office is currently finalizing would 
be able to provide effective leadership in improving access. We 
want to work with this individual.
    And I know you cannot speak for the Secretary, but I want 
to know whether DOD is going to provide the support and 
authority to allow the new director to make the necessary 
changes.
    Ms. McGinn. I believe that DOD will provide what support 
and authority that director needs. I think this is a very very 
important topic for us in the Department.
    By our record of investment in this in terms of military 
manpower for voting assistance officers, the emphasis from the 
top both from the Office of the Secretary of Defense, the 
Secretary of Defense and the military departments, we are 
trying to do everything we can to make sure that our voters are 
not disenfranchised.
    Chairman Schumer. One issue we need to be aware of is that 
the first federal primaries in 2010 are about a year from now. 
So we do not have that much time.
    Second, I would like to talk to you about the voting at 
recruitment centers which I mentioned in my opening statement. 
As you know, one of the elements of the National Voter 
Registration Act is that armed services recruitment offices be 
a voter registration agency. It means that each potential 
recruit should be offered a voter registration form and help in 
filling out the form.
    Could you give us an update as to how the program is faring 
and do you know how many potential recruits were registered to 
vote last year because of the program? If you do not know that 
number, if you could find out that and submit it writing that 
would be great.
    Ms. McGinn. Mr. Chairman, in order to give you a full 
response, I need to submit it in writing. I am aware that our 
recruiting offices are doing the registration that they are 
supposed to be doing, but I do not have the full details of 
what you are asking.
    Chairman Schumer. We need numbers to judge what kind of 
success we are having.
    Ms. McGinn. Absolutely.
    Chairman Schumer. The Inspector General reports. Two weeks 
ago, the Inspector General's Office released the 2008 
evaluation of the Voting Assistance Program and I understand 
that with the 2008 study, the Inspector General stated, quote, 
``We are not making any recommendations in this report for 
improvement.''
    Now, I have read a number of Inspector General reports. It 
is sort of a rare day when they do not make any suggestions. 
The question is: does that strike you as odd? I saw by your 
face you sort of answered it.
    Ms. McGinn. It is true they usually make recommendations 
and I have not spoken with him personally so I do not know what 
that is a reflection of. I think what they were doing was 
looking at the field to see the degree to which they were 
implementing the instructions and directives that we have out 
there. Obviously there are improvements to be made in many 
areas.
    Chairman Schumer. Yes. The 2004 report concluded the Voting 
Assistance Program was not effective and that because, quote, 
and this is the 2004 report, ``Voting assistance will always be 
a secondary duty. Senior leadership can expect significant 
improvement only if a radically different approach is 
applied.''
    Has there been such a radically different approach, since 
that report which was four years ago, applied?
    Ms. McGinn. I think since 2004, Mr. Chairman, of course, I 
have not been in this position since then.
    Chairman Schumer. Right.
    Ms. McGinn. But I have observed my colleagues and my 
leadership at work. At least in the last four years, the 
command emphasis on this even to the extent of our previous 
Deputy Secretary, whenever he want to an installation, would 
ask to see the voting assistance officer, the number of 
training workshops that we have done, the web outreach, the 
publicity outreach.
    I would say in the last four years it has been quite 
substantial and that could be the difference.
    Chairman Schumer. Okay. Well, let us hope. It does not 
sound radical to me, but maybe the Inspector General was 
exaggerating or using too strong language, but that is 
something again we will want to look at.
    Let us see. There was a recommendation, an effort that 
through the Federal Assistance Voting Program to notify 
election officials when members of the military have officially 
moved. That was the EAC survey, based on the EAC survey in 
2006.
    Do you know what the status of that recommendation is?
    Ms. McGinn. No, I am afraid I do not.
    Chairman Schumer. Could you get that to us in writing?
    Ms. McGinn. Yes.
    Chairman Schumer. And do you believe that kind of 
communication would encourage the improved delivery of military 
ballots?
    Ms. McGinn. I believe for local election officials to know 
where the military member is very important. I have, in 
preparing for this hearing, read some studies that said a 
percentage of ballots were returned because the address of the 
person was not known. And I noted in my opening remarks that is 
one of our problems is the mobility of our population. Whether 
that transmission of information would be the appropriate way 
to do it or not, I do not know. I will have to get back to you 
on that.
    Chairman Schumer. And this is your own personal assessment 
and this will be my last question because my time is running 
out.
    If we had one change to make this better, what would it be?
    Ms. McGinn. I would say it would be to encourage states to 
have more uniformity in their procedures so that there is not 
such a difficult explanation for each voter as to the processes 
they need to follow.
    Can I have two?
    Chairman Schumer. You can have three.
    Ms. McGinn. Okay. Good.
    I also think that if we can improve technology which also 
goes to states accepting the use of technology so that we can 
start to do this in a 21st-century way, that that would be very 
helpful as well.
    Chairman Schumer. Any third one? Those are the two most 
important.
    Ms. McGinn. I have a third one.
    Chairman Schumer. I knew you would come up with it.
    Ms. McGinn. The third one would be that all of us agree on 
a data collection.
    Chairman Schumer. Yes.
    Ms. McGinn. So that we really have statistics about what is 
happening out there because right now they come from many 
different sources.
    Chairman Schumer. Good point.
    Ms. McGinn. In our 2008 report we are going to ask our 
Defense Manpower Data Center to provide the data through a 
survey of our service. Of course they are a world class 
operation.
    Chairman Schumer. You bet.
    Ms. McGinn. So I think hopefully we can coalesce around 
those numbers and then help us go forward.
    Chairman Schumer. Thank you.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Ms. McGinn, thank you very much for your work in this area.
    I have got some questions that I wanted to address to you 
to let you discuss generally the Help American Vote Act's 
requirements in connection with the UOCAVA as well as the 
Federal Voting Assistance Program. I think what I am going to 
do is submit that for the record because I would like for you 
to go into some detail particularly with reference to ways that 
you think that legislatively we can improve it, do you have the 
resources for what you need, and that sort of thing.
    But let me drill down a little bit on the Federal Voting 
Assistance Program and the voting assistance officers. The 2005 
DOD IG report found that only 40 to 50 percent of military 
families received voting information either from the Voting 
Assistance Program and voting assistance officers.
    What accounts for this poor performance? What do you think 
we can do to improve it? And as part of that, would you talk a 
little bit about how VAOs are selected, are they volunteers, 
and do we have a way of grading them. You talked a little bit 
in your statement about your personal experience. Was that a 
mandatory requirement that you train folks the way that you did 
that?
    Ms. McGinn. The voting assistance officers, the way we want 
to get information to people, my experience in all my years 
working for the Department of Defense is that it is very 
difficult to get information to people even if they are 
situated in a headquarters element.
    So I think what the Federal Voting Assistance Program has 
tried to do is use all available mechanisms to do that with the 
establishment of a website, with the provision of monthly 
updates and all relevant information to the Federal Voting 
Assistance Officers, to posters and publications for federal 
voting and access to your federal voting assistance officer, 
through all the training. I think we have got 193 training 
workshops leading up to this last election, and through working 
with overseas foundations and groups to get the word out to 
American citizens.
    So I think they have tried very hard in order to reach out 
to everyone and make sure that they have the information that 
they require. But again, you have got populations that are 
dispersed. You have got populations that may not have access to 
information sources for a while.
    So that number is high. It would not surprise me that there 
are some who do not get the information they need. That number, 
40 percent is an unacceptable number and I do believe that in 
the last few years the Department has really taken an 
aggressive stance at getting the word out to people.
    The voting assistance officers, I do not know exactly the 
process by which they are chosen. I would assume that they are 
with the requirement to have, one, that you choose a young 
officer who is competent and has interest in this area for 
getting the job done for the unit or the installation or the 
organization where they are assigned.
    We provide training. We provide workshops. We provide 
regular information, newsletters, voting assistance guides, as 
I said, website operations. So it appears to me to be a robust 
effort to get the word out and to use the voting assistance 
officers for that.
    Senator Chambliss. One of our witnesses on the next panel 
suggests having DOD provide registration materials at locations 
where service members receive other support services like pay 
offices, ID offices, check-in at bases, and whatnot.
    Has the Federal Voting Assistance Program considered that 
and what sort of implementation measures are you taking if that 
is the case?
    Ms. McGinn. I honestly, sir, do not know if that has been 
considered by our Federal Voting Assistance Office. It is 
something that we can look at certainly.
    Senator Chambliss. Well, it seems like that might be, 
again, one of those education measures that we can take 
advantage of because everybody that comes to a new base goes 
through that support service office.
    Ms. McGinn. Yes, they do.
    Senator Chambliss. Well, thank you for your good work and 
we look forward to continuing to work with you.
    Thank you, Mr. Chairman,
    Ms. McGinn. Thank you, Senator Chambliss.
    Chairman Schumer. Thank you, Senator Chambliss.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Obviously, technology is going to be extremely important in 
resolving, taking away the challenges that exist because of 
time differences and the length of time for the ballots to be 
transported back and forth. Preserving anonymity is going to be 
a major focus of that I am sure. But it probably does not solve 
mobility, of identifying where people are.
    So I am hopeful that in light of the experience that has 
been gained in the last three elections that perhaps there are 
some updates or revisions to DOD policy and procedures as set 
forth in the DOD Directive Number 1000.04, dated April 14, 
2004, that might help us facilitate getting more success in 
voting by men and women in the military.
    Could you comment on that?
    Ms. McGinn. Well, we are constantly trying to upgrade our 
own ability to do electronic work in order to facilitate the 
process. We have the ability right now for citizens to get a 
copy of the postcard application electronically, to fill out 
the postcard application electronically, to get a copy of the 
absentee voter ballot electronically, the federal absentee 
voter ballot electronically. So we are trying to continue to 
improve that.
    I think that one of the lessons we have learned in going 
into elections is that, as we start to improve technology and 
put technology solutions out there, we need to start sooner 
than we started in the past. I think that is one of the 
challenges that we will have, to continually upgrade those 
solutions and to make sure that they are in a timely way so 
that the states know that they are there and know the 
capability that they bring.
    Senator Nelson. Is there a difference in how you might deal 
with local elections that do not involve a federal election or 
every two or four years when you have a federal election, is 
that handled differently?
    Ms. McGinn. It is handled the same. I believe the 
difference is local elections uniformed members and their 
families vote in and so we push the same kind of information 
out to them. But I have noticed in, as I said, watching this 
program unfold for the last four years, that every two years 
there is this concerted effort. And of course, with the 
national election for the President, it is a little more 
heated, if you will, but there is still a level of effort that 
is very significant for elections every two years.
    Senator Nelson. Of course you have the off-year elections 
in some states that do it in the odd years, not necessarily in 
the even years. I know it is a monumental, Herculean task to 
try to achieve it all.
    But I would hope that the use of technology both at the 
election commissioner's office as well as within DOD would help 
facilitate it because obviously those statistics would 
demonstrate that timing is a factor getting materials to the 
voter and materials from the voter back to the point of the 
election.
    Have you thought about any kind of federal requirement that 
might make counting ballots that come from overseas, extend the 
time frame for counting those ballots in local elections or 
state elections or federal elections?
    Ms. McGinn. I think that is what we are trying to 
accomplish with the legislative issues that we have laid before 
the state as state issues. One is to extend 45 days for the 
receipt of the ballot and also to allow variations from 
procedures in special cases.
    So I think we are trying to work with the states to do 
that. I do not know if that can be done nationally.
    Senator Nelson. It probably could for a federal election. 
But I am not suggesting that we necessarily want to start 
dictating from Washington back to the states. But what kind of 
response are you getting from the states in connection with 
your suggestions?
    Ms. McGinn. We have gotten responses from them. I detail it 
in my statement. I guess what I would note from my reading is 
that we have had a lot of success in the acceptance of fax 
technology, that a lot of states are accepting faxes along the 
various ways, steps in the process, the voting and registering 
to vote. And we are starting to see some success in the 
electronic area too but not as much and robust as in the fax. 
So maybe that portends of the future that that will start to 
improve as we go forward.
    Senator Nelson. Now, would the fax be for registration as 
opposed to a ballot?
    Ms. McGinn. For registration, for receipt of the ballot, 
even some states will even accept it for the ballot.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman Schumer. Thank you again, Ms. McGinn, for your 
excellent testimony.
    Now, we have the second panel, but the vote has been called 
so I think it would be wise to take a brief recess now. We will 
go vote and come back and hear from the second panel.
    Is that okay with everyone? Do you have any more questions, 
Saxby? Okay.
    The committee will stand in brief recess.
    [Recess.]
    Chairman Schumer. Okay. Thank you, everybody, for your 
indulgence. The hearing will resume.
    First, I would ask unanimous consent that a statement from 
Senator Feinstein, our former chair, previous chair, who has 
done a great job, be added to the record and without objection 
it will be.
    [The prepared of Senator Feinstein follows:]
    Chairman Schumer. And second, Senator Roberts had asked to 
make a brief statement. He has had a busy morning with Finance 
Committee and other things, and so before our panel begins, I 
am going to call on Senator Roberts.

              OPENING STATEMENT OF SENATOR ROBERTS

    Senator Roberts. Thank you, Mr. Chairman. I will take your 
advice to heart. The chairman indicated that I could make this 
short statement prior to the panel testifying and I apologize 
to the panel but only if I would shave. I plead extenuating 
circumstances, Mr. Chairman.
    I had knee surgery and I was laid up for about three weeks 
and the only thing I did really was to watch Law and Order 
reruns. There are some things that you have to do but other 
things you do not, and one is shaving. Since coming back, I 
have heard a lot of commentary especially from folks like 
yourself and so I just decided to be stubborn, but I will shave 
because of your taking my request and so we will just make that 
promise to you.
    Chairman Schumer. Just to interrupt. There is a 
constituency of one when it comes to beards as I have learned, 
and that is Frankie, your wife.
    Senator Roberts. She says it is not that bad.
    [Laughter.]
    Chairman Schumer. Okay. You are way ahead of where I was 
when I grew a beard.
    Senator Chambliss. You have to look at what she is used to 
in that context.
    [Laughter.]
    Senator Roberts. I knew that was coming. Anyway, I am now 
the fourth stand in for Sean Connery. The fourth stand in is 
the body that they roll over.
    Chairman Schumer. Having played basketball with you, I know 
you have a Connery-like figure.
    Senator Roberts. That is because of all those blind-side 
moves that you used to complain about.
    Chairman Schumer. That is right.
    Senator Roberts. Alright. At any rate, thank you, Mr. 
Chairman, for holding this hearing and thanks to the panel and 
we will be reading that very carefully. As a Marine, I take 
this issue personally and it helps that we have 37,000 military 
men and women stationed in Kansas. So this is an issue that is 
of real concern to me.
    I find it very disappointing that with all the incredible 
technology we have today, Mr. Chairman, that we ask for the 
military to vote the same way we have since World War II, and I 
do not think that is right. They can check their e-mail, video 
conference with their families, even upload the YouTube clips 
while deployed.
    But despite all of these advances, we simply ask them to 
rely on a disparate system of state rules and requirements and 
the mail system to track them down if they want to have a say 
in our elections.
    I think our service men and women certainly deserve more. 
In fact I do not think anybody in the room would ever disagree 
with the idea that the men and women defending our freedom 
deserve the right to have their votes counted. So let us give 
the tools to vote once they have performed their civic duty. 
Let us make sure their votes are counted.
    I have signed a lot of letters on this topic and I have 
sponsored and co-sponsored a lot of legislation. There was one 
by John Cornyn that passed the Senate by unanimous consent, but 
it was somehow dropped over in the other body, in the House.
    And the media has certainly exposed some of the problems 
involved and we thank them for that. So I hope we can get back. 
I think everybody has talked about the bipartisan effort that 
we need here and I certainly support that. Maybe we can take 
the Cornyn bill or Cornyn II if improved, and it is time we 
worked in that kind of a fashion to make sure the votes of our 
service men and women are counted.
    And I thank you, Mr. Chairman for allowing me to make this 
statement.
    Chairman Schumer. Thank you for coming in and 
participating.
    I now would like to introduce our five witnesses and ask 
them then to make their statements. And we are honored to have 
everyone of you here.
    First, Patricia Hollarn recently retired after 20 years as 
supervisor at elections at Okaloosa County, Florida. She is a 
board member of the Overseas Vote Foundation. I have to say she 
is regarded as one of the experts nationally in this area.
    We thank you for coming and she has some New York roots as 
well, which I am proud to acknowledge.
    Mr. Donald Palmer is Director of the Division of Elections 
at the Florida Department of State. He worked earlier as an 
attorney for the voting section of the Civil Rights Division of 
the Department of Justice and as a legislative assistant in the 
House of Representatives.
    To whom was that?
    Mr. Palmer. Mr. Feeney.
    Chairman Schumer. Very nice.
    And as a Navy intelligence officer. From 1998 to 2005 he 
served in the Navy's Judge Advocate General Corp.
    Lieutenant Colonel Joseph DeCaro, who both Senator 
Chambliss and I have mentioned, is on active duty in the United 
States Air Force. He lives in Florida. His remarks today are 
his own and do not reflect the views of the Air Force, the 
Department of Defense, or the current Administration.
    Lieutenant Colonel Decaro joined the Air Force in 1986, 
served at Hunter Army Air Field in Georgia, Prince Sultan Air 
Base in Saudi Arabia, and the Al Udeid Air Base in Qatar.
    We thank you for your service, Colonel.
    And Mr. Eric Eversole worked as a litigation attorney in 
the voting section of the Civil Rights Division at the 
Department of Justice from 2005 through 2007, then served as an 
advisor to the 2008 McCain-Palin campaign.
    Mr. Eversole was an officer in the Navy's Judge Advocate 
General Corp in 1999 to 2001.
    And last, but not least, Mr. Robert Carey is a consultant 
to business and government whose experiences trying to vote 
while in the armed forces led him to join the National Defense 
Committee to help other soldiers exercise their voting rights. 
He has been called back to active duty three times since 2000. 
He has been awarded a number of military honors. Thank you for 
your service.
    We will begin with Ms. Hollarn. We will ask each witness to 
take no more than five minutes and submit without objection 
their entire statements into the record.
    Ms. Hollarn.

  STATEMENT OF PATRICIA HOLLARN, RETIRED ELECTIONS DIRECTOR, 
                    OKALOOSA COUNTY, FLORIDA

    Ms. Hollarn. Thank you. This is the first time in my memory 
that anyone has maintained interest and purpose beyond election 
day in improving opportunities for military voters anywhere and 
other American citizens overseas to register and vote.
    So I am grateful to you, Senator Schumer, the Rules 
Committee members and staff for allowing me to participate in 
this much needed effort for legislative action.
    I not only have been working with UOCAVA voters and the 
problems they confront for 20 years as the Supervisor of 
Elections in Okaloosa County, Florida, which has an 
extraordinarily large military constituency, but I was also an 
overseas military spouse who had these very same difficulties 
in the '60s and '70s during my husband's Air Force career.
    The problems actually began with voter registration 
particularly when a person is not actually registered prior to 
leaving his or her legal voting residence. It is accepted that 
each state is entitled by the Constitution to have its own 
election laws and requirements, but it should also be accepted 
that the federal Uniformed And Overseas Citizens Absentee 
Voting Act, or UOCAVA, must be applied in every state to 
persons who fall under UOCAVA.
    Unfortunately most of these affected persons are not at all 
familiar with the entitlements of UOCAVA to take advantage of 
them in a timely manner in accordance with the law and even 
more unfortunately many election officials are not sufficiently 
familiar both with UOCAVA and its correct implementation.
    This leads to confusion about legal voting residency for 
military personnel stationed within the United States and even 
worst for those already overseas.
    The law absolutely provides several options in these cases 
but often neither the voter nor the election official is well 
enough versed to resolve the situation as the law permits. And 
this in turn either delays or denies a prospective voter his 
ballot.
    Once registered, the UOCAVA voter's only responsibility is 
to provide his or her correct mailing address or other contact 
information to the election official. That voter is absent from 
his voting jurisdiction and must be kept informed by the 
election official; but in the case of the highly mobile 
military member, that is still a problem just as much for the 
voter as for the election official.
    Returned undeliverable mail not only can deprive the voter 
from receiving a ballot but jeopardizes active voter status for 
the future as well and that starts the cycle of re-registration 
problems all over again.
    Obviously the issue of receiving and casting a ballot with 
the issuance of it being counted is the ultimate problem. I 
believe it is fair to say that almost all election officials 
want this process to be successful as much as the voter does 
and yet issues that are beyond their control often prevent that 
from happening.
    First, I would talk about elections schedules in some 
jurisdictions or states that do not allow enough time after the 
ballot, candidates and issues are certified and the printing of 
ballots can begin. Work to prepare the lists of eligible voters 
can be done ahead of this period, but updating is continual and 
maintaining accuracy add complexity. If there is not a minimum 
of 45 days that is the deadline for mailing UOCAVA ballots, the 
chances lessen every day for solving any delivery problems.
    The law provides at least by FVAP request for the 45-day 
deadline for overseas voters' ballots only. However, with more 
and more TDY and deployment, temporary duty, TDY is temporary 
duty, and deployment overseas assignments given at the last 
minute to military members many whose records show that they 
are located in the United States are actually overseas 
temporarily during election time.
    Either they run out of time to request a ballot, to notify 
the election's office where to send the ballot or there is 
great difficulty in receiving ballots by mail or even fax in 
remote or combat locations taking too much time to have the 
ballot received, cast and counted.
    Some states have laws that require specific forms and 
procedures for requesting absentee ballots that are clearly 
cumbersome and create time and frustration problems for UOCAVA 
voters.
    HAVA eased some of the problem by making the request for 
ballots through two general elections, but the unintended 
consequence of that was to result in an excessive number of 
ballots that were return as undeliverable. Those jurisdictions 
which added additional procedures to verify addresses no later 
than 90 days before an election improved ballot delivery 
considerably but the practice was not wide spread enough to 
reduce the failures.
    Many voters now eligible under UOCAVA are the Reserve and 
National Guard members who are serving much longer on active 
duty than their former two-week active duty service in the past 
in jurisdictions with few or no standard military installations 
and few military or expatriate citizens on the voter rolls.
    Election officials who have had no real experience with 
implementing UOCAVA rights do not realize how they must now do 
so.
    Combined with the lack of information about registration 
and voting provided to these activated personnel, the amount of 
voting problems among this group in all likelihood exceeded 
regular active duty members.
    All UOCAVA voters are subject to the problems traced to 
mailing ballots. While the U.S. Postal Service created a 
separate department, new and worthy procedures, and good 
outreach to election officials to help expedite ballots in 
2008, their efforts ended at the three ports, Miami, New York 
and San Francisco where the military postal system took over.
    It would not be totally fair to criticize the military 
postal system which must operate with insufficient resources 
under very difficult circumstances in many instances but delays 
in it are inherent to the timely delivery problem.
    It is sufficient to say that mailing ballots as well as 
other election related pieces is still the biggest problem for 
receiving, casting and counting the ballots.
    I can speak at much greater length about problems and even 
more so about solutions and look forward to such an 
opportunity. I would like to, in the question and answer 
period, respond to some of the questions that were asked to the 
Defense Department and as well as to mention the electronic 
solutions that I think are possible.
    [The prepared statement of Ms. Hollarn follows:]
    Chairman Schumer. Thank you, Ms. Hollarn, for excellent 
testimony and excellent service.
    Mr. Palmer.

 STATEMENT OF DONALD PALMER, DIRECTOR, DIVISION OF ELECTIONS, 
                  FLORIDA DEPARTMENT OF STATE

    Mr. Palmer. Thank you, Mr. Chairman and ranking member. 
Thank you for this invitation to discuss with you the 
challenges of military and overseas voters during the voting 
process and the great strides that Florida has made to increase 
the access to that voting franchise.
    Florida makes every effort to meet the needs of our diverse 
population of 11.2 million registered voters and we are keenly 
aware of the particular needs of the military and overseas 
voter and overcoming the logistical challenges that they face 
in fully participating in our electoral system. As election 
administrators our job is to utilize the tools that you provide 
us with legislation to maximize participation.
    With the leadership of state and local election officials 
in Florida using alternative means of transmission of ballot 
materials and the wisdom of the Florida legislature to repeal 
the second primary, Florida has become one of the national 
leaders of facilitating military and overseas voting 
participation.
    In this testimony I hope to provide some reasons for that 
increase of access to the voting franchise.
    First, the State of Florida requires the mailing of ballots 
to overseas voters 45 days prior to a general election. In 
Florida we have removed the second primary, and jurisdictions 
are able to provide 45 days for the transmission of ballots and 
to accept ballots up to the 10 days after the election as long 
the ballot is signed and dated by election day.
    In this era of ``snail mail,'' despite the improved 
efficiency of the Postal Express Service, allowing for 45 days 
for transmission is prudent and the additional window of time 
after the election in which to accept ballots provides a safety 
valve to receive any ballots that were delayed in the mail.
    To allow a sailor on the ship or a soldier in the field the 
extra time to receive and return the ballot on time is 
absolutely necessary when relying solely on the mail service.
    Second, State and local election officials in Florida have 
taken extra steps such as seeking updated addresses from FVAP 
and fully utilizing e-mail, fax, and the internet where 
appropriate, in the transmission of ballot materials to and 
from overseas voters.
    In late September 2008, Secretary of State, Kurt Browning, 
traveled to the Middle East with other Secretaries of State to 
see firsthand how soldiers in the battle field receive and cast 
their absentee ballots. This was the first time the DOD has 
invited Secretaries of State to travel to the areas of 
operation in Iraq, Afghanistan and Kuwait to personally observe 
the absentee balloting process.
    This trip provided Secretary Browning an opportunity to ask 
the men and women in the field directly what they really need 
to successfully vote when faced with the challenges of the mail 
system and other events swirling around them in the battle 
zone.
    He heard that they would like to use their computers and 
electronic mail to return voted ballots. While many states 
including Florida allow the use of a fax to return voted 
ballots, he heard that many of these service members simply no 
longer have fax technology readily available to them. Instead, 
most, if not all, have access to a computer, a scanner, e-mail 
and to the internet. When possible, they often use electronic 
mail as a primary method of communication with their local 
election official and expressed a similar desire to use an e-
mail to vote because of its simplicity.
    We also heard from service members that they are often 
anxious and frustrated with the rapidly approaching election 
day because they are often left in the dark as to the status of 
their ballot. They are concerned whether or not the ballot will 
get to them and, if they did, whether the ballot will make it 
back in time.
    At present there is no systematic way of finding out the 
status of their request or when the ballot had been sent or 
whether the ballot has a realistic chance of being received 
back in time.
    Because many soldiers and sailors are relying on their e-
mail and the internet to communicate with the outside world and 
to our election officials, they believe it would be helpful to 
receive regular updates on when their ballot request had been 
received, when the ballot had been set and when local election 
officials received their voted ballot.
    Third, Florida has maintained a spirit of ingenuity and 
transparency to use the latest technology and encryption 
measures available to reach our remote voters. Florida is open 
and flexible to incorporate the newest technology in our voting 
systems by testing, certifying and employing the latest voting 
systems for its use by its citizens.
    In this past cycle the Florida division of elections was 
able to successfully review and certify the project application 
offered by the Okaloosa distance balloting pilot primarily 
because of the foresight of legislators in giving local 
election officials the ability to utilize the secure use of the 
Internet for voting purposes.
    I am very proud of the pioneering spirit of our bureau in 
its first of a kind review of the source code and security plan 
submitted by Okaloosa County and its vendor, Scytl.
    Fourth, Florida recognizes the huge role that the Voting 
Assistance Officers and the role they play for the men and 
women in uniform to register and vote. States also have an 
unique opportunity to work with their National Guard units.
    The Florida National Guard developed a small but effective 
program to include voting information with their deployment 
briefing and to send updates on voting information to deployed 
unit e-mail addresses. Prior to deployment, the National Guard 
provided units the necessary voting information unique to 
Florida while stressing the importance of maintaining e-mail or 
phone communication with their local election officials 
ensuring accurate address information and confirming ballot 
delivery.
    The simple goal was to make each airmen, sailor and 
guardsmen election ready before they deployed and left U.S. 
soil, not after. This type of program could be easily 
implemented for deploying National Guard units across the 
country.
    Fifth, Florida has developed a very close relationship with 
the United States Postal Service. In the run up to the 2008 
election, Florida election officials met repeatedly with U.S. 
Postal Service representatives at the State and local level.
    Together we explored different ways to use technology and 
properly prepare ballot envelopes to further streamline the 
postal mailing of the ballots. Together the Postal Service 
provided counties individual opportunities to design the 
ballot, to reduce error or confusion in the delivery and return 
process and use technology such as intelligent code to track 
absentee ballots while in the continental United States.
    As a former military citizen stationed overseas and 
deployed on a ship where mail was delivered by the occasional 
COD leading on deck, I can assure you that these men and women 
want to participate and vote despite the swirl of daily 
activity around them. I remember being deployed on a carrier in 
the Mediterranean during the 1992 presidential election 
wondering if my ballot would ever make it to me and back in 
time.
    Often the men and women serving overseas are frustrated and 
concerned that their vote will not be returned in time to be 
counted. However they are committed to the mission and they 
will not complain. Therefore it is our responsibility to review 
the facts presented on overseas military participation and 
point to potential deficiencies and use the tools necessary to 
facilitate that vote.
    Thank you.
    [The prepared statement of Mr. Palmer follows:]
    Chairman Schumer. Thank you Mr. Palmer.
    Lt. Colonel DeCaro.

 STATEMENT OF LIEUTENANT COLONEL JOSEPH DECARO, UNITED STATES 
                           AIR FORCE

    Lt. Colonel DeCaro. Chairman Schumer, members of the 
committee, thank you for allowing me the opportunity to speak 
here today.
    My name is Joseph DeCaro. I am a Lieutenant Colonel on 
active duty in the United States Air Force. I was born and 
raised in Chicago, Illinois, and entered military service in 
July of 1986 when I started basic training at the United States 
Air Force Academy.
    I am testifying in my personal capacity and my views do not 
represent those of the United States Air Force, the Department 
of Defense, or the current Administration.
    Even before I was old enough to vote, I believed that it is 
important for every American to be aware of who their elected 
officials are, for the electorate to stay informed on local, 
state and national issues, and to know the positions of their 
elected officials on these issues. I have always done this 
myself and I have done my best to cast my ballots during 
primary and general elections. However as a member of the armed 
forces, I have not always been home on or shortly before 
election day.
    During the 2000 general election, I was on a temporary duty 
assignment to Hunter Army Air Field in Georgia. This was a 
forecast temporary duty and I requested an absentee ballot and 
that was how I voted that year.
    On election night while conducting post-mission paperwork, 
members of my unit and I sat on the old B-47 alert ramp at the 
air field and listened to election results via FM radio. Most 
of us had cast our votes via absentee ballot; and as the 
process of determining the election dragged on and concerns 
over military absentee ballots were raised, we became concerned 
our votes might not be counted.
    While I do believe our votes did count, it was frustrating 
to think that consideration and/or attempts were made to 
disenfranchise military members whose efforts protect and 
ensure that that very thing does not happen to other United 
States citizens.
    From August to December of 2002, I was deployed to Prince 
Sultan Air Base, Saudi Arabia, as a task force liaison officer 
to the United States Central Command Combined Air Operations 
Center. This was a well established location and actually had 
an additional duty Voting Assistance Officer. It was through 
the Voting Assistance Officer that I received and cast an 
absentee ballot for the general election that year.
    In December of 2003, I was deployed to Al Udeid Air Base in 
Qatar as the United States Central Command Joint Search and 
Rescue Director. This was a one-year deployment and I knew I 
would not be home to cast my ballot in person.
    During my R & R leave during the spring of 2004, I went to 
the branch office of the county Supervisor of Elections and 
requested an absentee ballot.
    During the months of August and September, in September the 
tempo of operations was very busy and I had to take a trip 
forward to Djibouti in the horn of Africa and a trip forward to 
Baghdad, Iraq. Both trips were several days in length and upon 
return from each, I expected my absentee ballot to have 
arrived, but that was not the case.
    It was not uncommon for mail one way to or from home to 
take three weeks to arrive; and as the end of September 
approached, I was getting concerned that I might not have 
enough time to for my ballot to make it in before election day. 
Fortunately the telephone and internet connectivity at my 
deployed location was excellent.
    In the beginning of October, I contacted the office of the 
Supervisor of Elections via the link on their website and 
requested the status of my absentee ballot. The office e-mailed 
back that my ballot had been mailed out and that I should have 
received it a month earlier. At that point I called my home 
base phone operator via the defense switching network and had 
them forward me to the branch office of the country Supervisor 
of Elections. I explained who I was and gave a synopsis of the 
e-mail traffic. The office was extremely helpful but even in 
this era of modern communication my only avenue for voting was 
via hard copy absentee ballot that would go through the 
military and United States postal systems. With that as the 
constraint, the office immediately mailed out another ballot 
via priority mail and e-mailed electronic copies for me to 
review and shorten the turnaround time once the ballot arrived.
    The Supervisor of Elections, Ms. Hollarn at the time, also 
personally e-mailed me about what was happening. Luckily the 
absentee ballot arrived about a week after the phone call and I 
sent it back the same duty day. Ms. Hollarn e-mailed me a week 
later to let me know that my ballot arrived. That was 
approximately two weeks before election day.
    I am grateful for all the help the office of the Supervisor 
of Elections provided and for efforts and personal interest of 
Ms. Hollarn.
    Following this deployment, I was fortunate enough to have 
continuous and reliable communication and that was key in being 
able to vote that year, but this was most certainly an added 
stressor to the environment in which I was working.
    Every moment I spent researching and coordinating with 
state-side resources to be able to cast my ballot was against 
any personal time off. The mission is and always must be the 
main focus.
    Being deployed to support and conduct combat operations is 
difficult as it is. I still had a family back home to worry 
back; and in addition to the normal trials and tribulations 
that are associated with military life, my wife and daughter 
were dealing with the aftermath of Hurricane Ivan during this 
period, a storm which caused damage to our home that I still 
had to repair when I returned from this deployment.
    I cannot comment on the Soldier, Sailor, Airman or Marine 
who at a forward operating base without dedicated phone lines, 
no web connectivity and gets mail once a week. I think every 
American should do what they can to cast their ballot and make 
their voice heard.
    As with many other citizens, I will continue to do this, 
but there should be a better way in which to cast their ballot 
while deployed.
    This concludes my prepared remarks and I am happy to answer 
any questions.
    [The prepared statement of Lt. Colonel DeCaro follows:]
    Chairman Schumer. Thank you and thanks to Ms. Hollarn for 
helping you.
    Mr. Eversole.

              STATEMENT OF ERIC EVERSOLE, ATTORNEY

    Mr. Eversole. Thank you, Chairman Schumer, Senator 
Chambliss. Thank you for allowing me to testify today.
    We ask our military members and their families to make 
great sacrifices on a daily basis. We send them around the 
world to defend America's interests, our freedom and our 
liberty. We send them to places like Iraq so that the Iraqis 
may enjoy the same rights that we enjoy, like the right to 
vote.
    But when it comes to their rights, when it comes to the 
military members' right to vote, we seem to forget their 
sacrifices and we deny them the very voting rights that we ask 
them to defend. The 2008 election is a case in point.
    In Florida, for example 26 percent of 340,000 military 
members were able to request an absentee ballot. That is 26 
percent of 340,000. That means that 74 percent never requested 
an absentee ballot and did not even get in the ballpark. That 
is 240,000 service members that never got a chance to receive 
an absentee ballot and most likely did not get a chance to 
participate in the election.
    Figures in other states are very similar both at the 
rejection rate and the participation rate. And these figures 
are truly, truly a national embarrassment. The world's greatest 
democracy and we cannot ensure that our military members have 
an opportunity to vote in our federal elections. It is a 
national or a federal issue.
    Sure, states could do a better job with the administration 
of the elections. All states should be required to mail out 
absentee ballots at least 45 before the election. I made that 
recommendation in my written testimony. I stand by it here 
today. But the real failure here, the area where we can make 
the most significant improvements, are all controlled by the 
federal government. The Department of Defense controls access 
to military installations and access to its service members. 
The Department of Defense knows where these service members are 
located. They know where these families are.
    It is the Federal Voting Assistance Program's 
responsibility to provide these service members with voting 
assistance. In the same way it is the Department of Defense or 
the Military Postal Service Agency that is responsible for 
delivering these absentee ballots. They have the ability to 
expedite both the delivery there and the return back. And it is 
the Department of Justice that enforces our Nation's voting 
laws.
    In all three areas the federal government has failed. This 
has to be the starting point of any legislative solution.
    First and foremost, the Federal Voting Assistance Program 
has to change its method for providing voting assistance. The 
current system which relies upon a voting assistance officer as 
a collateral duty does not work. The Inspector General reached 
that conclusion in 2004. He showed in 2006 that the number of 
service members that received information was still about 40 
percent, less for family members, but little has changed.
    If you want to increase military voter participation, FVAP 
has to provide voting assistance, as the Inspector General 
said, on a timely and consistent basis. They need the 
information when they move or deploy to a new installation or 
new post. Service members already have an obligation, as 
Senator Chambliss pointed out, to visit their pay and personnel 
office when they report to a new installation. They get a 
variety of federal forms when they are there. They most likely 
get a servicemen's group like insurance form to fill out. They 
may have to fill out a new W-2. They have to update their 
family's information.
    They already fill out a variety of forms. One more form is 
not going to materially increase their burden, but it will 
ensure that that service member, when he is moved, will get a 
chance to update their registration in a timely and consistent 
manner. It is a small legislative change but a significant step 
forward.
    Second, states have to mail absentee ballots at least 45 
days before the election. I think every expert that has looked 
at the issue has agreed that 30 or 35 days is not sufficient. 
Again that is an area where the Uniformed and Citizens Absentee 
Voting Act will be modified with a fairly simple amendment, but 
it would make a significant difference in the approximate 20 
states that do not provide 45 days.
    And third, Senator Cornyn and Senator Wyden reintroduced 
the Military Voter Protection Act yesterday as a bipartisan 
bill. I believe that this bill is a very important component to 
any legislative solution and has a very simple mandate. It 
tells the Federal Voting Assistance Program and the Military 
Postal Service Agency that if a service member gets that ballot 
in the mail at a collection point four days before the 
election, that ballot will make it home. It is a guarantee of 
sorts. You can track it. You can rest assured that it is going 
to get home and I think that is a very important guarantee for 
many of the reasons that the lieutenant colonel was pointing 
out, and I think it should be implemented in a very timely 
manner so it can be implemented by 2010.
    With that said, thanks again for the opportunity to testify 
and look forward to your questions.
    [The prepared statement of Mr. Eversole follows:]
    Chairman Schumer. Thank you, Mr. Eversole.
    Mr. Carey.

STATEMENT OF ROBERT CAREY, EXECUTIVE DIRECTOR, NATIONAL DEFENSE 
                           COMMITTEE

    Mr. Carey. Mr. Chairman, Senator Chambliss, thank you for 
inviting National Defense Committee to speak here today.
    The National Defense Committee is a grassroots military 
service organization focusing on individual rights of service 
members and strengthening the civil military relationship.
    Since 2003 the committee has made military absentee voting 
a flagship issue and, for the 2008 election, started the 
military ballot protection program to provide election day 
protection of military ballots threatened with unjustifiable 
challenge or rejection.
    I also have the honor of serving as a board member on the 
Overseas Vote Foundation.
    Additionally the National Defense Committee is a founding 
member of the Alliance On Overseas Voting Rights, an umbrella 
organization of more than 25 military veterans and overseas 
citizen or voting reform advocacy organizations committed to 
substantial voting reform in military and overseas voting 
processes. Many of their representatives are here today and I 
believe they join me in applauding the committee for holding 
this hearing.
    I personally became involved in the National Defense 
Committee in 2006 after my mobilization to the U.S. Navy 
Reserves just prior to the 2004 general election. Being 
mobilized two weeks prior to the election, I was unable to 
apply for an absentee ballot at my new delivery address and it 
was only by my taking leave at my mobilization preparation 
site, flying back at my own expense to New York City and voting 
in person, was I able to guarantee my right to vote.
    My circumstances are by no means unique. Analysis of the 
2006 election shows a significant systematic inability of 
military personnel to successfully cast their absentee ballots.
    For example, while more than 85 percent of all absentee 
ballots were cast by the general voting population in 2006, 
only 26 percent of the absentee ballots requested by military 
personnel were successfully cast that year. That translates 
into 484,000 military voters who requested absentee ballots but 
did not successfully cast them.
    Let me restate that. Military voters representing more than 
a third of the military asked for a ballot in 2006 and did not 
successfully cast them.
    A close analysis of that data is clear and unequivocal as 
to the most significant cause for this voting failure. States 
send out their ballots too late for military voters and postal 
mail delivery is not and cannot ever be quick enough to deliver 
and return those ballots in time to meet the absentee ballot 
return deadlines.
    The predominant absentee balloting system used for decades 
in this country, sending ballots 30 to 45 days prior to an 
election by postal mail, was designed for sending ballots 
across town to local voters not across continents and oceans to 
far flung, deployed military personnel.
    Even after seven years operating in Afghanistan and five 
years operating in Iraq, the Military Postal System Agency 
tells military voters that their ballots needed to be back in 
the mail from these two countries at least 28 days prior to the 
2008 election date, implying a 56-day turnaround for military 
mail.
    For other overseas military voters, the Military Postal 
System Agency recommended no less than 21 days to return to the 
states, implying a 42-day turnaround.
    In January of this year the PEW Center on the States 
released a ground breaking study entitled ``no time to vote'' 
which found postal mail delivery delays and tight ballot return 
deadlines to be the key elements in whether or not overseas 
military votes could successfully complete the absentee 
balloting process.
    In all, PEW found 23 states do not provide enough time for 
overseas military voters to successfully cast a private ballot.
    For example, because no stage in the New York military 
voting process can be conducted by electronic means, New York's 
overseas military voters require 82 days to navigate the 
absentee process, but they are only given 69 days to do so. For 
Utah, 88 days are required, but only 70 days are provided.
    Because of this, PEW concludes if voters from these ``no 
time to vote'' jurisdictions actually succeeded in voting, they 
managed to do despite their state's policies and practices, not 
because of them.
    Now, the Overseas Vote Foundation 2008 survey also found 
that 52 percent of those surveyed either received their ballot 
too late to return them on time or never received them at all.
    The National Defense Committee applauds the committee for 
holding this hearing. We note, however, that this is the sixth 
congressional hearing in which National Defense Committee 
members have either testified or submitted statements on 
military voting since 2004 and we know of at least three others 
in that same period. At each hearing witnesses like us tells 
senators and representatives the same thing I have today.
    And it is scary that these comments closely mirrored those 
of President Truman in a letter he wrote in 1952 to the House 
of Representatives on exactly that these same problems, late 
ballot delivery, slow mail delivery.
    Frankly, little has been done to address these issues 
despite the consistent, repeated, and passionate description of 
the problem. We implore you to go beyond the problem 
exploration stage and pass federal legislation this year to 
overcome these tight ballot deadlines and slow mail delivery.
    We do applaud you holding this hearing today. It is 
important that we hold this especially in an odd number year, 
but we really need to start addressing this issue at the 
federal and state level in order to be able to make these 
changes permanent.
    Thank you. I stand by for your questions.
    [The prepared statement of Mr. Carey follows:]
    Chairman Schumer. I want to thank all five witnesses for 
excellent testimony.
    My first question is to the whole panel, particularly Ms. 
Hollarn and then Mr. Carey both of whom explicitly pointed out, 
you all did really, the problem, much of the problem does 
reside with the states, the differing systems each one has, the 
fact that they are not too quick to get out the ballots, et 
cetera.
    And of course, our power over the states on local electoral 
matters is rather limited.
    If you could make two or three suggestions as to how we 
importune the states to do a better job here, what would they 
be?
    I am first going to ask Ms. Hollarn, then Mr. Carey and 
then the other witnesses.
    Ms. Hollarn. I think that if you are looking at the actual 
casting of a ballot, the absentee ballot process, there are 
some states that still have cumbersome means where someone has 
to go through forms in the mail to request the ballot. If some 
just sends an e-mail or telephones or even sends something 
written, then they are sent the form to make the request, but 
that kind of excess paper and time wasting has a great deal to 
do with it. Without mentioning names, I know of three states 
that have procedures like that.
    So where we have the federal postcard application and that 
in itself needs serious revision because nobody reads the four 
point typed instruction to start with and it is also not 
written in a voter friendly manner. There is no explanation for 
some of the questions or anything like that. though. that I 
think are sufficient.
    So the paperwork can be reduced where I think there can be 
a uniform procedure for ballots being requested which 
eliminates some of it, but UOCAVA already addresses that to a 
degree.
    Chairman Schumer. Yes, with some success but not great 
success.
    Ms. Hollarn. I think a lot of it has to do with the 
enforcement. There are issues with the National Voter 
Registration Act that have to do with taking people off the 
rolls that are what I consider a total violation of NVRA and I 
have been exposed to them recently. So there is not very much 
follow-up by enforcement procedures and there is not consistent 
follow-up.
    Chairman Schumer. Ms. Hollarn, if a state has just an 
inherently cumbersome process form, new form, et cetera, is 
there any way we can force them to change that process at least 
for federal elections or at least for military voters or 
overseas voters or both?
    Ms. Hollarn. I think there can be some specific action 
taken in the revision of UOCAVA that would implement that. For 
instance, the federal post card application essentially is 
good. At least having it electronically available, that is one 
thing; and they have simplified some of the form and the 
instruction in that process.
    The fact of the matter is this opens up a black hole of 
problems with voting assistance officers and the things that 
perhaps the bureaucracy thinks are being done that are not 
being done; and so I think the simplification of requesting a 
ballot--you know, one of the things that is very poorly 
understood, very little understood is the ballot.
    There seems to be often too often acceptance of the fact of 
``give me a ballot.'' Well, there are ballot styles that are 
dependent on the jurisdictions in which you are eligible to 
vote so we end up with a huge complexity of what ballot to 
offer the person, and the federal write-in ballot goes a long 
way to solving that problem and then there are states that have 
write-in ballots as well. Florida does, has a state write-in 
ballot.
    Chairman Schumer. Do you think if we forced the states to 
change the way they set up absentee ballot procedures for 
federal elections, they would then match it for their local 
elections?
    Ms. Hollarn. That has been the way, it starts out that way. 
I have to say, Florida is exceptional not just because I live 
there but it is because of the cooperative effort we have had 
in working, local election officials working with the state as 
well to not only pass conforming legislation but to reach out 
even beyond that and provide for even more than the federal 
legislation.
    Perhaps we are not talking about enforcement where you are 
going to put your hands around the states' throats. Education 
is the key and this is where the Federal Voting Assistance 
Program--I think it starts with some specific measures in 
revising UOCAVA but then it goes to the education process with 
both the Federal Voting Assistance Program and the states.
    One of the reason though I continue to work past this so-
called retirement that I entered is the education of election 
officials across the country in understanding the federal law 
and implementing it, and that is where I think the problem 
basically lies which is preferable to actual enforcement.
    Chairman Schumer. Mr. Carey. The same question.
    Mr. Carey. Mr. Chairman, actually I would say that 
Congress's constitutional authority to impose upon the states 
is pretty much unlimited. The Constitution gives the states the 
first right to determine the method of election but allows 
Congress to impose that. UOCAVA itself is a limited imposition 
by the Federal Government on the states of procedures for 
military and overseas voting.
    Chairman Schumer. So you think we could pass a law on, let 
us say, how to treat military voters say, require separately, 
or overseas voters, I guess we do it for everybody, separate 
from other absentee ballot procedures.
    Mr. Carey. Yes, sir.
    Chairman Schumer. And would that apply to local elections 
and to state elections?
    Mr. Carey. It would not be able to be federally mandated to 
apply at this stage. You could, but at this stage it does not.
    Chairman Schumer. We could not do that and so the question 
is: Do we create more confusion by having two separate 
procedures?
    Mr. Carey. I think the state and local elections will 
always follow on the same dates as the federal election so 
anything you do on the federal elections will necessarily 
capture the state and local election.
    Chairman Schumer. Do most of you agree with that, Mr. 
Palmer, DeCaro, Eversole, that if we did it, first, should we 
do it, and if we did it, would the states follow with their 
local? I mean, it is a big question. I would like to do it. You 
know me.
    Mr. Palmer. Mr. Chairman, I think that my impression with 
other state election officials is that they feel that these 
voters are their voters and they want to provide their ballot 
to their voters. I think that there needs to be some leadership 
at FVAP and the Congress to develop a system of that ballot 
style, to provide that ballot to the men and women overseas and 
that is increased technology, it has increased resources, and 
it is leadership at the Federal Voting Assistance Program.
    It will need more resources to make it happen, but I can 
tell you that the ground swells of support among state election 
officials is that they want these voters. They feel that they 
are their voters. They will take care of them. We have to 
provide, I guess on a federal level and when I say we, the 
federal level needs to provide the resources and the ability 
for that to happen and I think only technology will do it 
because we have been dealing with ``snail mail'' for the last 
60 years.
    Chairman Schumer. Anything to add either of the other two 
panelists?
    Mr. Eversole. I do. I do have some concerns about the 
Federal Government coming in and overriding all the states laws 
with respect to verifying their voters and assuring that the 
state procedures for determining residency and those types of 
things are actually enforced.
    From my perspective, the area where the Federal Government 
can come in and make a big difference is mandating 45 days. 
UOCAVA currently is unclear with that regard. Mandating 45 days 
obviously is a mandate to the states, but it has caused some 
problems in litigation. It caused some problems in New York 
recently, in New York 20th. It caused some problems in 
Virginia. So that mandate would be helpful.
    Where I start to have some concerns is where you go in and 
override the state procedures for ensuring that the balloting, 
the state law is followed. And as far as I can tell, at least 
on the states I have checked, the rejection rate for military 
votes that are returned is really no different than the 
rejection rate for absentee ballots in the same state.
    For example, in Florida the military rejection rate for 
returned ballots was one percent, for military. It was one 
percent for regular absentee ballots.
    Chairman Schumer. Do you have anything to add, Colonel? You 
do not have to, only if you want.
    Lt. Colonel DeCaro. Yes, sir. The only thing I would 
comment on is the standardization for the military members. We 
are not from the same state. Even the same unit deploys with 
various states; and if you have numerous procedures to follow, 
you cannot possibly expect an additional duty voting assistance 
officer to be anything but a conduit for information. And if he 
cannot speak, he cannot speak.
    Chairman Schumer. Now, let us go to the federal level where 
we have much more of sort of a complete say. All of you have 
touched on various problems that are at the federal level that 
we can do a lot more about. So I am going to ask each of you 
this question. This will be my last because my time has gone 
over and I want to give Saxby time.
    If we could do one thing at the federal level, forgetting 
the states right now, but just one thing at the federal level, 
FVAP, what would you have us do to make it easier for our 
soldiers overseas to vote?
    We will start with Mr. Carey and work our way that way.
    Mr. Carey. Only one. Mandate the ballots be sent out least 
60 days before they are due.
    Mr. Eversole. My one recommendation would be to implement 
what FVAP has refused to which is radical change in the 
registration and the absentee ballot request process. I think 
certain offices at DOD have to be designated voter registration 
agencies under section 7 in NVRA.
    Chairman Schumer. Thank you.
    Colonel DeCaro.
    Lt. Colonel DeCaro. Sir, I would recommend that there is a 
way to leverage existing technology we have, i.e., the common 
access card that all military members have to use just to log 
in to an unclassified network, if it is possible to use 
something like that because we all have it regardless of 
location.
    Chairman Schumer. Good idea.
    Mr. Palmer.
    Mr. Palmer. Sort of related to that, I think there should 
be dedicated HAVA monies to sort of put pilot projects on the 
horizon to give states the ability to do this. There are 
demands and pressures on the HAVA dollars, local and state. And 
so if there is dedicated moneys for overseas and military 
participation, states will experiment.
    Chairman Schumer. And Ms. Hollarn.
    Ms. Hollarn. They have said it.
    Chairman Schumer. I know. But the good news is, none of the 
four are contradictory.
    Ms. Hollarn. Right. And I would say, all of the above.
    My concern is something that I am not sure how it is 
solved, but it does have to be solved on the federal level, and 
that is the fact that there is a disconnect between the Federal 
Voting Assistance Program or even the intent of Congress and 
what happens in the field, and that is caused a great deal by 
the Hatch Act.
    In other words, we have the misunderstanding of the 
difference between campaigns and running for office and 
election administration.
    Chairman Schumer. And voting.
    Ms. Hollarn. Yes. The voting is the connection between the 
two, but what you have is the fact that the VAOs are often very 
very restricted by commanders and the fact is that commanders 
are very unwilling to allow certain things be done because of 
the nature of the Hatch Act.
    Chairman Schumer. Right.
    Ms. Hollarn. Which is very very much--
    Chairman Schumer. That is an education issue as much as 
anything else.
    Ms. Hollarn. Yes, it is. So that is the only think I could 
add.
    Chairman Schumer. Good answers. Thank you.
    I thank the witnesses and now I am going to call on Senator 
Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman. There seems to be 
general agreement that the 30 days that DOJ has mandated for 
sending out of ballots too short. Frankly, I like your idea, 
Mr. Carey, of 60 days but I see a practical problem.
    Florida has, as I recall, a September primary. New York has 
a September primary. What do we do with respect to states like 
that that have those late primaries and I may be wrong, but I 
was thinking Florida had a September primary.
    Ms. Hollarn. Well, ours was recently changed to ten weeks 
before the general election which right now is occurring the 
week before Labor Day. So basically we have only had that once 
and it was the last week in August, but the ten weeks would 
come out to be before Labor Day.
    Senator Chambliss. Still pretty----
    Ms. Hollarn. Actually the process, the only thing that 
holds up any ballots in Florida now with more than enough time 
is litigation by candidates that have some issue with the 
certification of the ballot.
    As a matter of fact, in the last general election year, I 
got my ballots out probably like in 51, 52 days before the 
election and there were members of Congress that questioned 
whether I telling the truth or not, but yes, it was so.
    I think the Florida election schedule, especially since we 
have eliminated the second primary, does allow sufficient time, 
and it is when litigation holds up the certification of a 
ballot that has caused any problem.
    Senator Chambliss. Mr. Carey, you were going to say 
something there?
    Mr. Carey. New York is a leader among states in allowing an 
extended period of time after the election for the ballot to be 
returned, up to 14 days. So the 60 days can be met if you allow 
the ballots to be returned after the election, but it is that 
60-day turnaround that is critical.
    Senator Chambliss. Was Florida's change because of there 
not being enough time there? Do you all have any independent 
knowledge of that?
    Ms. Hollarn. The Florida Supervisors of Elections have 
lobbied for years to eliminate the second primary and it was 
basically a surprise gift that happened in 2002 that we had a 
temporary suspension of it, but then we had a final elimination 
of it and we have been under a consent order in Florida since 
1982 since there was litigation back then about the three 
elections in nine weeks that made every ballot for every 
election be impossible to reach them so the consent order 
included that we had to count absentee ballots for ten days, 
from overseas for ten days after the election as long as they 
were dated or postmarked by election day.
    And the reason that it was finally dropped was to make the 
election schedule more preferable in hopes that we could get 
Justice to eliminate the consent decree.
    Senator Chambliss. Mr. Palmer, you mentioned that your 
Secretary of State heard from a lot of soldiers during his 
visit abroad that they wanted to return voted ballots by 
electronic mail. Now, in Georgia we have a photo ID 
requirement. I think in Florida you all had just implemented 
that or you are in the process of doing so.
    How do you see this playing in from a practical stand point 
with relevance to security of that vote?
    Mr. Palmer. Well, for absentee ballots obviously the 
individual goes through a verification process, but on all 
absentee ballots basically they will be comparing the signature 
to the signature on file at the local office. So there would 
not be a photo ID at the polls. So that is how that situation 
is remedied.
    Senator Chambliss. What about the actual verification 
requirement? Is there anything other than matching the 
signature from the electronic vote?
    Ms. Hollarn. Perhaps because I had the firsthand experience 
at it, Florida also has a law that was in place for commerce 
about accepting digital signatures. There is a difference 
between digitized and digital. And in the pilot project that we 
did, that is exactly what we used and they were all verified 
registered voters in order to obtain the ballot to start with.
    And so in the absentee process, the only thing that is 
required is the signatures so those are all matched. But in the 
pilot project that we did, there was real time verification of 
the voter by entering certain information of the voter because 
in the kiosk environment, the voter registration is real time. 
Verification is real time so electronically I might say in a 
very broad sense, all things are possible in verifying a voter 
when you are looking at the kiosk situation, not from a 
personal computer, but from the kiosk situation. And although I 
have restrained myself for years from using the analogy to 
ATMs, I think visually that is the one way. Because now that we 
have done the kiosk process, there is a way to harden the 
voting process into something that would be similar to an ATM.
    Senator Chambliss. What was your kiosk experience from the 
standpoint of taking some of those abroad and letting soldiers 
vote that way?
    Ms. Hollarn. Well, we had 100 percent enthusiasm and 
support from all of the voters and dismay from those who could 
not participate, but of course it was limited to our county 
because no one else wanted to participate. But the fact is what 
we did was, first of all, a pilot project so it required human 
observation because everything had to be documented and there 
had to be evidence of how this took place.
    So it was, I think, and you have to understand that the 
process that we used is in operation in other parts of the 
world as well with the particular kind of system that we used 
and so it was 100 percent successful both from the electronic 
standpoint and from the voter standpoint.
    And we visualized, those of us who are still involved in 
it, with taking this to another level with multiple states 
participating and in a combat zone, but of course this is the 
point where I have to say that I do not want federal funds and 
now the only way to do it is with federal funds, but it is for 
the federally covered voters of UOCAVA that we are talking 
about.
    So there are all kinds of possibilities and you have heard 
the word ``electronic'' mentioned over and over again and I 
realize there are two sides to that story but my side listens 
to the other side and now we would like others to listen to our 
side.
    Senator Chambliss. Lieutenant Colonel DeCaro, you are to be 
commended for being as vigilant as you were in making sure that 
your vote counted. How many E2s or E3s are going to follow the 
same procedure that you did and be as diligent as you were to 
get their vote counted in any election?
    Lt. Colonel DeCaro. Sir, I cannot give you an empirical 
number, but I would hazard to guess very few. A very few would 
probably have the opportunity or just the wherewithal to say, I 
need to research this. I tie back to a voting assistance 
officer that is only as effective as he is to get the message 
out. You go to large organizations with a high operations tempo 
and that is just not going to happen. I will tell you right 
now, it will not be a focus.
    As I said in my testimony, the mission is going to be the 
focus. It may be the smattering of an e-mail that goes out or a 
face-to-face conversation, but when you are in Iraq or 
Afghanistan or some other deployed location, it will not be 
visible.
    Senator Chambliss. We have got an electronic voting method 
in Georgia that can be used. Frankly, I do not know how 
successful it was because we have not gotten the numbers from 
this year.
    But if that were available, do you think that there is the 
motivation on the part of the leadership in the military to try 
to make sure that the folks that are serving under them do cast 
their ballot or is it going to have to be an individual 
motivation factor that gets them to vote?
    Lt. Colonel DeCaro. Well, sir, it is going to be both. A 
commander cannot order an individual to go and cast the ballot, 
but he can definitely make that time available. Guys have 
opportunity to go to the chow hall. They have the opportunity 
to go to the exchange when they are down range. If these kiosks 
are brought to those common access locations, there is no 
reason at all members, as long as you are not at a forward base 
without that capability, would have an inability to cast the 
ballot.
    Senator Chambliss. Go ahead, Mr. Chairman. I may have one 
more.
    Mr. Carey. Senator, you did have a question about the E1 
and E3 and we have some data on that as well. We can forward it 
on to your office, but the fact of the matter is that the E1s 
through E3s have a substantially higher rate of 
disenfranchisement than the rest of the military and a 
substantially higher rate of inability to get the ballots than 
the rest of the military.
    Chairman Schumer. We will ask you to submit that in writing 
just whatever information you have and we will add it to the 
record.
    Senator Chambliss. I did have one more, Mr. Carey. I am not 
picking on New York, but you used them as an example of being 
forward thinking with regard to that time framing, but 
apparently they do not have, New York does not have any 
electronic means for voting.
    Has there been any effort by the legislature there to deal 
with this or is it too hot to discuss in the New York 
legislature?
    Mr. Carey. I am not sure about any initiatives at the state 
level. Maybe some of the other panelists has some information 
about the state legislative initiatives. I do know that in New 
York has had a number of broader issues regarding some of the 
implementation of Help America Vote Act and they have some 
policy differences with the Federal Government on that.
    But you are right. They do not allow any part of the 
process, absentee ballot application, registration, absentee 
ballot receipt or transmittal to be done by any electronic 
means, fax or e-mail. And so the result is that it takes a 
really long time to navigate the New York overseas absentee 
voting process, upwards of 89 days when only about 70 are 
provided.
    Senator Chambliss. I will speak to the Senator from New 
York about that.
    [Laughter.]
    Mr. Carey. At this stage that is a state-level issue. It 
could be overcome by federal action, but at this point, it is a 
state-level issue.
    Senator Chambliss. Mr. Chairman, it has been fascinating 
and I would say that it has been encouraging, but I think it 
has been a little discouraging in some respects, but I will 
have to say that I want to commend all of you all for really 
keeping this issue moving and for you folks at the local level, 
Ms. Hollarn, Mr. Palmer, thank you for your endurance and your 
perseverance in trying to make sure that the folks that are 
your constituents are having the opportunity to vote, military 
or otherwise, but we have got some real issue, Mr. Chairman, to 
deal with, but this has been an excellent hearing.
    Thank you for holding this hearing and thank you all for 
testifying.
    Chairman Schumer. Well, first, let me thank you, Senator 
Chambliss, for your interest in this issue which did not begin 
at this hearing for sure.
    I want to thank each of the witnesses. Very good testimony. 
I agree, New York, we were the last to comply with HAVA. We 
still have even in terms of voting we have those old voting 
machines. They have run out of parts. They cannot get the parts 
for them. And they have to cannibalize existing machines to do 
the parts. It is not a record that any New Yorker can be proud 
of in terms of how the State has been lagging behind not just 
in overseas voting and military voting but in the whole 
process.
    Having said that, I think the testimony has been excellent. 
There are a number of areas where legislation could improve the 
process for the voters as well as the stakeholders and I pledge 
myself to work with the minority, try to come up with a 
bipartisan bill. This is one that there should not be any 
divisions in terms of ideology or anything else and I think we 
can get this done in a bipartisan manner this year and we are 
going to be working with you, Saxby, with Ben Nelson and with 
Bob Bennett, our ranking member, to try and come up with 
something.
    So I want to thank our witnesses for testifying. It was 
great testimony as Saxby said and thank all of you for your 
service in one way or another and many of you for you or your 
spouse's military service as well.
    The committee has received a number of statements for the 
hearing record. Without objection, I ask that these statements 
be submitted for the record.
    [The information follows:]
    Chairman Schumer. The record will be open for five business 
days for additional statements for members and the public. And 
if the witnesses have no objection, I will also have the record 
remain open for five days for additional questions for other 
members of the panel who may want to submit them to you if that 
is okay with all of you.
    Since there is no further business, the committee is 
adjourned in the hopes that both we can get something done and 
thanks for the witnesses today.
    [Whereupon, at 12.17 p.m., the Committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6336.544

[GRAPHIC] [TIFF OMITTED] T6336.545

[GRAPHIC] [TIFF OMITTED] T6336.546

[GRAPHIC] [TIFF OMITTED] T6336.306

[GRAPHIC] [TIFF OMITTED] T6336.547

[GRAPHIC] [TIFF OMITTED] T6336.548

[GRAPHIC] [TIFF OMITTED] T6336.549

[GRAPHIC] [TIFF OMITTED] T6336.550

[GRAPHIC] [TIFF OMITTED] T6336.551

[GRAPHIC] [TIFF OMITTED] T6336.552

[GRAPHIC] [TIFF OMITTED] T6336.307

[GRAPHIC] [TIFF OMITTED] T6336.308

[GRAPHIC] [TIFF OMITTED] T6336.309

[GRAPHIC] [TIFF OMITTED] T6336.310

[GRAPHIC] [TIFF OMITTED] T6336.311

[GRAPHIC] [TIFF OMITTED] T6336.312

[GRAPHIC] [TIFF OMITTED] T6336.313

[GRAPHIC] [TIFF OMITTED] T6336.314

[GRAPHIC] [TIFF OMITTED] T6336.315

[GRAPHIC] [TIFF OMITTED] T6336.316

[GRAPHIC] [TIFF OMITTED] T6336.317

[GRAPHIC] [TIFF OMITTED] T6336.318

[GRAPHIC] [TIFF OMITTED] T6336.319

[GRAPHIC] [TIFF OMITTED] T6336.320

[GRAPHIC] [TIFF OMITTED] T6336.321

[GRAPHIC] [TIFF OMITTED] T6336.322

[GRAPHIC] [TIFF OMITTED] T6336.323

[GRAPHIC] [TIFF OMITTED] T6336.324

[GRAPHIC] [TIFF OMITTED] T6336.325

[GRAPHIC] [TIFF OMITTED] T6336.326

[GRAPHIC] [TIFF OMITTED] T6336.327

[GRAPHIC] [TIFF OMITTED] T6336.328

[GRAPHIC] [TIFF OMITTED] T6336.329

[GRAPHIC] [TIFF OMITTED] T6336.330

[GRAPHIC] [TIFF OMITTED] T6336.331

[GRAPHIC] [TIFF OMITTED] T6336.332

[GRAPHIC] [TIFF OMITTED] T6336.333

[GRAPHIC] [TIFF OMITTED] T6336.334

[GRAPHIC] [TIFF OMITTED] T6336.335

[GRAPHIC] [TIFF OMITTED] T6336.336

[GRAPHIC] [TIFF OMITTED] T6336.337

[GRAPHIC] [TIFF OMITTED] T6336.338

[GRAPHIC] [TIFF OMITTED] T6336.339

[GRAPHIC] [TIFF OMITTED] T6336.340

[GRAPHIC] [TIFF OMITTED] T6336.341

[GRAPHIC] [TIFF OMITTED] T6336.342

[GRAPHIC] [TIFF OMITTED] T6336.343

[GRAPHIC] [TIFF OMITTED] T6336.344

[GRAPHIC] [TIFF OMITTED] T6336.345

[GRAPHIC] [TIFF OMITTED] T6336.346

[GRAPHIC] [TIFF OMITTED] T6336.347

[GRAPHIC] [TIFF OMITTED] T6336.348

[GRAPHIC] [TIFF OMITTED] T6336.349

[GRAPHIC] [TIFF OMITTED] T6336.350

[GRAPHIC] [TIFF OMITTED] T6336.351

[GRAPHIC] [TIFF OMITTED] T6336.352

[GRAPHIC] [TIFF OMITTED] T6336.353

[GRAPHIC] [TIFF OMITTED] T6336.354

[GRAPHIC] [TIFF OMITTED] T6336.355

[GRAPHIC] [TIFF OMITTED] T6336.356

[GRAPHIC] [TIFF OMITTED] T6336.357

[GRAPHIC] [TIFF OMITTED] T6336.358

[GRAPHIC] [TIFF OMITTED] T6336.359

[GRAPHIC] [TIFF OMITTED] T6336.360

[GRAPHIC] [TIFF OMITTED] T6336.361

[GRAPHIC] [TIFF OMITTED] T6336.362

[GRAPHIC] [TIFF OMITTED] T6336.363

[GRAPHIC] [TIFF OMITTED] T6336.364

[GRAPHIC] [TIFF OMITTED] T6336.365

[GRAPHIC] [TIFF OMITTED] T6336.366

[GRAPHIC] [TIFF OMITTED] T6336.367

[GRAPHIC] [TIFF OMITTED] T6336.368

[GRAPHIC] [TIFF OMITTED] T6336.369

[GRAPHIC] [TIFF OMITTED] T6336.370

[GRAPHIC] [TIFF OMITTED] T6336.371

[GRAPHIC] [TIFF OMITTED] T6336.372

[GRAPHIC] [TIFF OMITTED] T6336.373

[GRAPHIC] [TIFF OMITTED] T6336.374

[GRAPHIC] [TIFF OMITTED] T6336.375

[GRAPHIC] [TIFF OMITTED] T6336.376

[GRAPHIC] [TIFF OMITTED] T6336.377

[GRAPHIC] [TIFF OMITTED] T6336.378

[GRAPHIC] [TIFF OMITTED] T6336.379

[GRAPHIC] [TIFF OMITTED] T6336.380

[GRAPHIC] [TIFF OMITTED] T6336.381

[GRAPHIC] [TIFF OMITTED] T6336.382

[GRAPHIC] [TIFF OMITTED] T6336.383

[GRAPHIC] [TIFF OMITTED] T6336.384

[GRAPHIC] [TIFF OMITTED] T6336.385

[GRAPHIC] [TIFF OMITTED] T6336.386

[GRAPHIC] [TIFF OMITTED] T6336.387

[GRAPHIC] [TIFF OMITTED] T6336.388

[GRAPHIC] [TIFF OMITTED] T6336.389

[GRAPHIC] [TIFF OMITTED] T6336.390

[GRAPHIC] [TIFF OMITTED] T6336.391

[GRAPHIC] [TIFF OMITTED] T6336.392

[GRAPHIC] [TIFF OMITTED] T6336.393

[GRAPHIC] [TIFF OMITTED] T6336.394

[GRAPHIC] [TIFF OMITTED] T6336.395

[GRAPHIC] [TIFF OMITTED] T6336.396

[GRAPHIC] [TIFF OMITTED] T6336.397

[GRAPHIC] [TIFF OMITTED] T6336.398

[GRAPHIC] [TIFF OMITTED] T6336.399

[GRAPHIC] [TIFF OMITTED] T6336.400

[GRAPHIC] [TIFF OMITTED] T6336.401

[GRAPHIC] [TIFF OMITTED] T6336.402

[GRAPHIC] [TIFF OMITTED] T6336.403

[GRAPHIC] [TIFF OMITTED] T6336.404

[GRAPHIC] [TIFF OMITTED] T6336.405

[GRAPHIC] [TIFF OMITTED] T6336.406

[GRAPHIC] [TIFF OMITTED] T6336.407

[GRAPHIC] [TIFF OMITTED] T6336.408

[GRAPHIC] [TIFF OMITTED] T6336.409

[GRAPHIC] [TIFF OMITTED] T6336.410

[GRAPHIC] [TIFF OMITTED] T6336.411

[GRAPHIC] [TIFF OMITTED] T6336.412

[GRAPHIC] [TIFF OMITTED] T6336.413

[GRAPHIC] [TIFF OMITTED] T6336.414

[GRAPHIC] [TIFF OMITTED] T6336.415

[GRAPHIC] [TIFF OMITTED] T6336.416

[GRAPHIC] [TIFF OMITTED] T6336.417

[GRAPHIC] [TIFF OMITTED] T6336.418

[GRAPHIC] [TIFF OMITTED] T6336.419

[GRAPHIC] [TIFF OMITTED] T6336.420

[GRAPHIC] [TIFF OMITTED] T6336.421

[GRAPHIC] [TIFF OMITTED] T6336.422

[GRAPHIC] [TIFF OMITTED] T6336.423

[GRAPHIC] [TIFF OMITTED] T6336.424

[GRAPHIC] [TIFF OMITTED] T6336.425

[GRAPHIC] [TIFF OMITTED] T6336.426

[GRAPHIC] [TIFF OMITTED] T6336.427

[GRAPHIC] [TIFF OMITTED] T6336.428

[GRAPHIC] [TIFF OMITTED] T6336.429

[GRAPHIC] [TIFF OMITTED] T6336.430

[GRAPHIC] [TIFF OMITTED] T6336.431

[GRAPHIC] [TIFF OMITTED] T6336.432

[GRAPHIC] [TIFF OMITTED] T6336.433

[GRAPHIC] [TIFF OMITTED] T6336.434

[GRAPHIC] [TIFF OMITTED] T6336.435

[GRAPHIC] [TIFF OMITTED] T6336.436

[GRAPHIC] [TIFF OMITTED] T6336.437

[GRAPHIC] [TIFF OMITTED] T6336.438

[GRAPHIC] [TIFF OMITTED] T6336.439

[GRAPHIC] [TIFF OMITTED] T6336.440

[GRAPHIC] [TIFF OMITTED] T6336.441

[GRAPHIC] [TIFF OMITTED] T6336.442

[GRAPHIC] [TIFF OMITTED] T6336.443

[GRAPHIC] [TIFF OMITTED] T6336.444

[GRAPHIC] [TIFF OMITTED] T6336.445

[GRAPHIC] [TIFF OMITTED] T6336.446

[GRAPHIC] [TIFF OMITTED] T6336.447

[GRAPHIC] [TIFF OMITTED] T6336.448

[GRAPHIC] [TIFF OMITTED] T6336.449

[GRAPHIC] [TIFF OMITTED] T6336.450

[GRAPHIC] [TIFF OMITTED] T6336.451

[GRAPHIC] [TIFF OMITTED] T6336.452

[GRAPHIC] [TIFF OMITTED] T6336.453

[GRAPHIC] [TIFF OMITTED] T6336.454

[GRAPHIC] [TIFF OMITTED] T6336.455

[GRAPHIC] [TIFF OMITTED] T6336.456

[GRAPHIC] [TIFF OMITTED] T6336.457

[GRAPHIC] [TIFF OMITTED] T6336.458

[GRAPHIC] [TIFF OMITTED] T6336.459

[GRAPHIC] [TIFF OMITTED] T6336.460

[GRAPHIC] [TIFF OMITTED] T6336.461

[GRAPHIC] [TIFF OMITTED] T6336.462

[GRAPHIC] [TIFF OMITTED] T6336.463

[GRAPHIC] [TIFF OMITTED] T6336.464

[GRAPHIC] [TIFF OMITTED] T6336.465

[GRAPHIC] [TIFF OMITTED] T6336.466

[GRAPHIC] [TIFF OMITTED] T6336.467

[GRAPHIC] [TIFF OMITTED] T6336.468

[GRAPHIC] [TIFF OMITTED] T6336.469

[GRAPHIC] [TIFF OMITTED] T6336.470

[GRAPHIC] [TIFF OMITTED] T6336.471

[GRAPHIC] [TIFF OMITTED] T6336.472

[GRAPHIC] [TIFF OMITTED] T6336.473

[GRAPHIC] [TIFF OMITTED] T6336.474

[GRAPHIC] [TIFF OMITTED] T6336.475

[GRAPHIC] [TIFF OMITTED] T6336.476

[GRAPHIC] [TIFF OMITTED] T6336.477

[GRAPHIC] [TIFF OMITTED] T6336.478

[GRAPHIC] [TIFF OMITTED] T6336.479

[GRAPHIC] [TIFF OMITTED] T6336.480

[GRAPHIC] [TIFF OMITTED] T6336.481

[GRAPHIC] [TIFF OMITTED] T6336.482

[GRAPHIC] [TIFF OMITTED] T6336.483

[GRAPHIC] [TIFF OMITTED] T6336.484

[GRAPHIC] [TIFF OMITTED] T6336.485

[GRAPHIC] [TIFF OMITTED] T6336.486

[GRAPHIC] [TIFF OMITTED] T6336.487

[GRAPHIC] [TIFF OMITTED] T6336.488

[GRAPHIC] [TIFF OMITTED] T6336.489

[GRAPHIC] [TIFF OMITTED] T6336.490

[GRAPHIC] [TIFF OMITTED] T6336.491

[GRAPHIC] [TIFF OMITTED] T6336.492

[GRAPHIC] [TIFF OMITTED] T6336.493

[GRAPHIC] [TIFF OMITTED] T6336.494

[GRAPHIC] [TIFF OMITTED] T6336.495

[GRAPHIC] [TIFF OMITTED] T6336.496

[GRAPHIC] [TIFF OMITTED] T6336.497

[GRAPHIC] [TIFF OMITTED] T6336.498

[GRAPHIC] [TIFF OMITTED] T6336.499

[GRAPHIC] [TIFF OMITTED] T6336.500

[GRAPHIC] [TIFF OMITTED] T6336.501

[GRAPHIC] [TIFF OMITTED] T6336.502

[GRAPHIC] [TIFF OMITTED] T6336.503

[GRAPHIC] [TIFF OMITTED] T6336.504

[GRAPHIC] [TIFF OMITTED] T6336.505

[GRAPHIC] [TIFF OMITTED] T6336.506

[GRAPHIC] [TIFF OMITTED] T6336.507

[GRAPHIC] [TIFF OMITTED] T6336.508

[GRAPHIC] [TIFF OMITTED] T6336.509

[GRAPHIC] [TIFF OMITTED] T6336.510

[GRAPHIC] [TIFF OMITTED] T6336.511

[GRAPHIC] [TIFF OMITTED] T6336.512

[GRAPHIC] [TIFF OMITTED] T6336.513

[GRAPHIC] [TIFF OMITTED] T6336.514

[GRAPHIC] [TIFF OMITTED] T6336.515

[GRAPHIC] [TIFF OMITTED] T6336.516

[GRAPHIC] [TIFF OMITTED] T6336.517

[GRAPHIC] [TIFF OMITTED] T6336.518

[GRAPHIC] [TIFF OMITTED] T6336.519

[GRAPHIC] [TIFF OMITTED] T6336.520

[GRAPHIC] [TIFF OMITTED] T6336.521

[GRAPHIC] [TIFF OMITTED] T6336.522

[GRAPHIC] [TIFF OMITTED] T6336.523

[GRAPHIC] [TIFF OMITTED] T6336.524

   Responses from Patricia Hollarn, Former Supervisor of Elections, 
Okaloosa County, Florida, to Questions submitted by Chairman Charles E. 
   Schumer For the U.S. Senate Committee on Rules and Administration 
      Hearing Record on Military and Overseas Voting May 13, 2009
1. DOD Voting Program
    Based on your experience with the Federal Voting Assistance Program 
(FVAP), please critique the program with regard to limitations of 
authority for FVAP, problems with implementation, and use of 
technology.
    In working with the DOD's Federal Voting Assistance Program for 
over 20 years, I believe FVAP has not particularly suffered from 
limitations of authority, I believe they have not used their full 
authority as Congress intended. They consult with DOD officials and 
brief high commanding officers on projects to begin with but never 
fully follow up if they were not receiving the response that would 
produce the results that Congress wanted.
    If there were problems with implementation, it was because there 
was a lack of aggressive attention to keep DOD and military officials 
aware of the importance year-in, year-out for continual registration 
and voting processes and opportunities. While there are complex 
registration and voting laws state by state, evidence already exists 
that there are simpler, clearer and more effective ways to implement 
these processes as UOCAVA and HAVA require and Congress intended.
    After VOI and SERVE did not produce any long-lasting results in 
improving voting opportunities for far-flung military and overseas 
citizens, FVAP has not made any progress even with existing technology. 
Still trying to ``push'' use of FAX would be a good example. Despite 
allegations of no sufficient security by naysayers, technology does 
exist that would better serve UOCAVA voters world-wide. However, FVAP 
has in the recent past relied more on technology vendors than election 
officials to make this happen.
    The Department of Defense has a program that uses service members 
as volunteer voting assistance officers on bases abroad.
    Do you believe that the voting assistance officers have the 
training necessary to provide enough information to voters?
    No, I do not. However, that is mainly because the lower rank 
personnel who are assigned to be VAO's are often not given the time or 
resources (again, understandable with the military mission's priority) 
to do the job properly. This occurs because the higher ranks of command 
personnel do not receive sufficient information and emphasis on the 
program's importance.
    Are there other obstacles that these individuals encounter in 
carrying out their assignment to assist members of the military to 
register to vote and vote?
    Another obstacle is the lack of clear understanding on the 
difference between election administration (voter registration, issuing 
and processing absentee ballots etc) and political campaigning and its 
accompanying influence. Even more obstructive is the near-paranoia 
about the Hatch Act, which restricts political activity, especially 
influence, of military personnel. While nonpartisan voter registration 
and requesting ballots results in the partisan activity of making 
political choices in an election, there should be encouragement not 
restriction on the procedures that lead to successful voting. 
Commanders need to know these differences and ensure the VAO's know and 
carry out their duties as such. Frankly, I have not seen or heard of 
factual influence or coercion by VAO's in my experience.
    Some States report having to reject military absentee ballots 
because they aren't signed by a notary public.
    Do you know why some States would require an absentee ballot to be 
notarized? Is this a practical and effective requirement?
    Requiring that military absentee ballots be notarized, whether by a 
public notary or a commissioned officer, is an archaic practice that 
has outlived its time, and it's unfortunate that this requirement has 
not already been eliminated in the few states where it remains. It is 
not only very difficult but also extremely expensive to find and have a 
notary validate the ballot in many countries (and even in some areas of 
the US), it is also paternalistic to have an officer validate an 
enlisted person's signature. Both have equal status to sign an oath and 
have it accepted as voters. I believe a federal law eliminating the 
need for a notary or other officials' signature on a ballot should be 
considered.
    Do you know if the volunteer voting assistance officers are 
provided with an opportunity to become a notary public?
    Even if they were provided with the opportunity to become a notary 
public while in the US, state laws have made it more complicated in 
recent years and the temporary status of a VAO, in both position and 
location, make this an unacceptable solution. For overseas citizens and 
military in remote locations even more, this would be virtually 
impossible.
2. Processing returned ballots
    Aside from ballots that arrive too late, some jurisdictions reject 
military ballots on other legal grounds.
    As a former local elections official, please explain the reasons 
for an absentee ballot being rejected other than arriving late.
    Late arrival is still the #1 reason, but the next most common 
reason is lack of a signature. Federal law requires a specific oath 
requiring the signature, so heartbreaking as it may be, an unsigned 
ballot must be rejected. In Florida, there basically are no other 
significant reasons as the signature and arrival deadline are the 
hallmarks of our ``no fault'' absentee voting. A lesser number of 
ballots are rejected when the signature doesn't match, in which case 
the voter is always notified of that reason to (a) obtain a newer 
signature, and (b) to verify with the voter that another person did not 
sign. There are other reasons in other states that increase the odds of 
rejection, such as how the ballot was delivered (US mail only in 
Alabama), missing the deadline to request a ballot, and others. I 
believe that federal law could also better serve UOCAVA voters by 
mandating ``no fault'' absentee ballots by requiring the signature 
match to validate and arrival by deadline.
    Florida allows otherwise eligible overseas ballots to be counted up 
until the 10th day after a general election (also a presidential 
primary) because of a 1982 DOJ consent order. Even though our election 
schedule has changed to allow as much as 50-60 days for mailing 
ballots, state law will allow this delayed acceptance to stay in law 
regardless of the consent order. If ballots are still to be solely 
dependent on the USPS and military postal system, I believe this would 
be a reasonable requirement in federal law.
    In the initial snapshot of numbers released at the hearing, almost 
25,000 ballots were either returned as undeliverable or were rejected 
for some other reason.
    Discounting State-specific laws or requirements, what is the 
minimum information required from overseas voters to ensure that their 
ballot can be verified and counted?
    1. Person must be registered to vote in the jurisdiction
    2. Valid signature under the federal oath
    3. Arrival in the election office by the deadline
3. Problems with the mail system
    Many military and overseas voters complain that their local 
elections office does not notify them about whether their ballots were 
received and/or counted.
    What are the obstacles and difficulties for local election offices 
to provide this information to these voters?
    NVRA requires all registration applications to have an 
acknowledgment by the election official, but neither NVRA nor any other 
federal law requires acknowledgement that a ballot has been received 
and/or counted. That has become a ``nice to do'' practice in a number 
of jurisdictions who have the resources and ability to do so. 
Recognizing that, regardless of the size of a jurisdiction, absentee 
ballot processing (includes processing of requests, preparing for the 
first mass mailing and then daily issuance of ballots by mail as well 
as walk-in absentee and early voting, receiving and validating 
absentees, recording and securing, preparing for tabulation and more) 
comes in the most labor intensive and overtime-dependent part of the 
conduct of an election, this would be another layer of financial and 
labor need in any office. BUT, it can be done, especially if it can be 
done by email. However, not all requestors have email or provide it 
even if they do, so there would still be a need for a manual process by 
mail. It could also be done online, but once again, not all election 
offices have this ability nor can afford it.
    Is there a mechanism by which a member of the military can check to 
ensure that the ballot was received and counted?
    Right now, in Florida, the state voter registration database 
contains the absentee record of every voter, when the ballot was issued 
and when it was received, so a postcard or letter could be added to the 
system to produce the ballot receipt to be sent to the voter. As the 
tabulation system is a stand-alone separate system, counting the 
ballots is an anonymous process. The only way to do that is to have the 
unopened rejected ballots and advise those voters whose ballots were 
rejected. Voters would assume, as in ``no news is good news,'' that if 
they didn't get a reject notice, their ballot definitely was counted. 
Considering Okaloosa County is a medium-size county, we had 36,000 
ballots, of which approximately 250 ballots at most were rejected. As 
this is a manual process, it makes more sense to just advise the 
rejects, not the counted. You could automate the process of advising 
those persons whose ballots were never returned, to find out if the 
voter ever mailed it and it was lost, but there would be no point of 
sending a notice to a bad address for those ballots Returned 
Undeliverable because the voter hasn't advised us of his new address. 
This entire process would be further complicated by people who change 
their address since sending their ballot back and forgetting to advise 
us (most common practice) because the NVRA rule then requires the 
address verification and final confirmation process to begin. This 
would have to be a carefully crafted law to avoid the ``law of 
unintended consequences.'' Best thing is to have a place on the web 
site for a voter to inquire, or just send a short email.
                        CHARRTS No.: SRA-01-005
                       Hearing Date: May 13, 2009
                             Committee: SRA
                        Member: Senator Schumer
                          Witness: Mrs. McGinn
                              Question: #5
                   armed services recruitment offices
    Question: On the issue of voter registration at armed forces 
recruitment centers, please provide an update on the current status of 
the program and the number of potential recruits who registered to vote 
at the centers last year. In addition, please provide any materials and 
information that explain in detail the training military recruitment 
offices receive to implement the applicable National Voter Registration 
Act (NVRA) requirements.
    Answer: DoD Directive 1344.13, requires each Service to implement 
voter registration assistance at each recruiting office. Recruiting 
personnel are required to ask each eligible citizen who enters a 
recruiting office if he or she wants to register to vote, and provide 
the individual with the Election Assistance Commission's ``National 
Voter Registration Form'' and assistance in completing the form, if 
desired. Each of the Services has implemented the NVRA requirements 
through their own regulation.
    The Services report that instruction on the requirements to support 
the NVRA are contained in the indoctrination provided to Service 
members newly assigned to a recruiting program and to recruiters prior 
to assignment to a specific recruiting office.
    The Services Inspectors General report that the Services are in 
compliance with DoD Directive 1344.13. Data reported by the Services 
indicates that during 2008 and the first quarter of 2009 recruiting 
offices assisted 174,776 persons. Voter registration assistance was 
given to 87,923 persons, of these, 10,979 requested and were provided 
voter registration forms. Persons not assisted for voter registration 
were not of voting age, were not citizens, or were already registered 
to vote. These numbers are consistent with historical reports since the 
enactment of the NVRA. Recruits receive voter registration and absentee 
ballot request assistance upon reporting for recruit training, when 
reporting for assignment to units, and from their Unit Voting 
Assistance Officers while assigned to units. There is special emphasis 
on voter registration and absentee ballot requests in election years.
                        CHARRTS No.: SRA-01-006
                       Hearing Date: May 13, 2009
                             Committee: SRA
                        Member: Senator Schumer
                          Witness: Mrs. McGinn
                              Question: #6
                      mobility of military members
    Question: A recommendation of a survey conducted by the Election 
Assistance Commission (EAC) in 2006 was that the Federal Voting 
Assistance Program (FVAP) should notify election officials when members 
of the military have officially moved. During the hearing, you said 
that you would provide an update on the status of that recommendation. 
Please provide the current status of the recommendation, including 
whether it has been considered by the FVAP and it would be implemented 
and operate at the State and local levels of government. Has the FVAP 
reviewed or considered any other procedures to ensure that the voter 
registration information is updated for the use of election officials? 
Please indicate the current method(s) that the FVAP employs to 
communicate with State and/or local election officials to assist UOCAVA 
voters.
    Answer: When Local Election Officials (LEO) determine an address on 
file for a Service member is no longer current, they may request FVAP 
to check the DoD Employee Interactive Data System (DEIDS) database. If 
successful, FVAP provides the latest address available to the LEO. 
However, address information regarding some military members is not 
releasable outside DoD due to operational considerations, DoD policy, 
or Federal law. When a military member has separated from the military 
FVAP will provide information that the voter is not in the database.
    In certain circumstances, FVAP has worked with the military 
services to reach voters directly to contact their local election 
officials to update their mailing address.
    FVAP is investigating the possibility of obtaining email addresses 
(which are not contained in DEIDS) for Service members from other 
sources available within DoD. Where possible, the Department proposes 
to send an email to that Service member directing him or her to contact 
the LEO directly.
    Similar procedures are not available for overseas civilian citizens 
or military dependents.
  Questions for May 13th Rules Committee Witnesses--Senator Ben Nelson
           Panel 2: Local officials/Military voter/Advocates
  Responses from Patricia Hollarn, Former Supervisor of Elections in 
                                Florida
    1. Two important--and disturbing--statistics cited when discussing 
overseas voting are the number of ballots returned to local election 
offices as undeliverable and the number of voted ballots that are not 
counted because they are not returned in time. So that we might compare 
apples-to-apples between domestic non-military votes and military and 
overseas voters, can any of you provide comparable statistics on 
undeliverable and late absentee ballots for non-UOCAVA voters?
    Mr. Palmer at the Florida Department of State may have access to 
more specific data on undeliverable and late ballots for domestic non-
military and overseas military and civilians, as I do not have it in 
the broader state or national areas, but I don't believe it is actually 
collected that way. However from experience, I can cite in general 
terms the experience in a medium-size county such as Okaloosa County, 
Florida.
    When the section of HAVA requiring a UOCAVA voter's absentee 
request to be valid for two general elections was first implemented 
(for the 2004 elections), we sent absentee ballots for the September 
Primary to all the UOCAVA voters who had requested ballots for the 2002 
elections. Out of about 9000 ballots, over 5200 were RETURNED 
UNDELIVERABLE, bad addresses. The situation improved for the general 
election, as it usually does, but it took the next two years, until the 
2006 elections that the situation improved. We were able to provide as 
much information about this as possible, as widely as possible. 
Eventually we got the number lowered to the hundreds, but with military 
voters that is about average for undeliverable mail. The voter's only 
responsibility is to advise the elections office of his/her current 
address, but we realize that is not in the forefront of most people's 
minds. The issue is worsened by last-minute or unexpected deployments 
or other TDY's, and it is often too late for mail when they remember. 
This is where secure electronic voting is truly needed.
    NOTE: Data collection on UOCAVA voters is extremely difficult 
because it is not always possible to determine who are military voters. 
There is no provision for title or rank on a voter registration form, 
and if a person in residing off base, one cannot know if he/she is 
military or civilian. Florida now has a question on the state 
registration form about that status, but it really doesn't appear 
anywhere else that I have seen. You can't even really make that 
determination from the Federal Post Card Application (FPCA) either. 
Until that question is mandated to appear on all registration forms, 
we'll never really know until there is some other contact that reveals 
it. It then follows that we never really know when they separate or 
retire from the military either, without other personal contact.
    As for late ballots, the largest number definitely comes from 
UOCAVA voters.
    2. Ms. Hollarn and Mr. Palmer--what would you recommend to other 
states as ``best practices'' for interaction with FVAP and Voting 
Assistance Officers?
    I believe that FVAP has to interact to a much greater degree with 
election officials, who in turn have to take a more proactive stance in 
understanding and implementing UOCAVA and Title VII of HAVA to better 
serve these voters. Not everyone is close enough to a military 
installation to have interaction with VAO's but in my responses to 
Senator Schumer's questions I discussed how FVAP can help improve the 
VAO's service to the military voters.
  Questions for May 13th Rules Committee Witnesses--Senator Ben Nelson
         Panel 2: Local officials/Military voter/Advocates \*\
---------------------------------------------------------------------------
    \*\ Responses from Don Palmer, Florida Department of State
---------------------------------------------------------------------------
    1. Two important--and disturbing--statistics cited when discussing 
overseas voting are the number of ballots returned to local election 
offices as undeliverable and the number of voted ballots that are not 
counted because they are not returned in time. So that we might compare 
apples-to-apples between domestic non-military votes and military and 
overseas voters, can any of you provide comparable statistics on 
undeliverable and late absentee ballots for non-UOCAVA voters?
    While precise statistics on domestic non-military undeliverable and 
late absentee ballots were not recorded in this election cycle, the 
Division of Elections looked at the non-UOCAVA undeliverable and late 
absentee ballots reasons for rejections from the EAC Survey 
spreadsheet. The counties provided a list of the reasons why the 
ballots were considered ``rejected'' and not counted.
    Below are the reasons the ballots were rejected.

    <bullet>  Signature variation
    <bullet>  No voter certificate envelope
    <bullet>  Ballot returned via fax
    <bullet>  Signed spouse's certificate/unable to pair couples
    <bullet>  Ineligible
    <bullet>  Mechanical signature
    <bullet>  Wrong ballot returned
    <bullet>  Not a U.S. Citizen
    <bullet>  Mailed copies of ballots
    <bullet>  Improperly signed by Guardian
    <bullet>  Signed by Power of Attorney
    <bullet>  ID requirement unmet
    <bullet>  Ballot card differs
    <bullet>  Non-county voter, request not on file
    <bullet>  Third party signature
    <bullet>  Signed wrong envelope
    <bullet>  Signed sample ballot
    <bullet>  Moved registration to another county
    <bullet>  Voter moved away and was deleted
    <bullet>  Voter moved after ballot was mailed
    <bullet>  Address discrepancy
    <bullet>  Voter moved out of state
    <bullet>  Blank certificate
    <bullet>  Returned two absentee ballots
    <bullet>  Undeliverable
    <bullet>  Absentee ballot envelope opened/taped

    In looking at returned military and non-military absentee ballots, 
if you remove the ballots returned late or past the deadline from the 
analysis, there is no significant difference in the rejection rate 
between the two categories of ballots. Overall, the ballots that are 
rejected for state law reasons are relatively small. Thus, as long as 
the ballot is returned in time, the ballot has a very high likelihood 
of being counted.
    The undeliverable ballot issue is a major problem that I have 
witnessed in Florida and many other states and localities.
    The real issue deals with: (1) making sure that service member 
provides most current and up-to-date address, which has not always been 
done on a consistent basis in the past; thus, we have a lot of ballots 
that get sent to stale addresses; and (2) making sure that military 
voters have ballots delivered to them in a timely and consistent 
manner--Military postal service has not proved to be reliable in the 
past.
    2. Ms. Hollarn and Mr. Palmer--what would you recommend to other 
states as ``best practices'' for interaction with FVAP and Voting 
Assistance Officers?
    I would recommend the following best practices:

        1. State officials should request that counties directly send 
        all ``undeliverable'' ballots or mailings to overseas voters 
        with appropriate identifying information to FVAP for search of 
        updated addresses.

        2. Local Election Officials should contact installation or 
        major command Voting Assistance Officers (VAO's) to place state 
        registration information in on-base publications and website.

        3. State or Local Election Officials should offer to provide 
        voting information and registration briefings to Voting 
        Assistance Officers at installations that regularly deploy 
        units overseas. Local Election Officials should either 
        volunteer to provide a briefing as part of the overall 
        deployment orientation or provide briefing materials to the 
        local VAO or Judge Advocate General to brief service members.

        4. State and Local Election Officials should provide email 
        addresses of Florida election officials to Installation or 
        Command VAO's as often the FVAP publication does not appear to 
        provide email contact information.

        5. State and Local Election Officials should encourage FVAP to 
        visit state installations and highlight the upcoming election 
        cycle. Such a visit raises the awareness of Base personnel due 
        to increased media coverage visibility to the Base Commander 
        resulting in the voting information being more fully 
        disseminated.
                        CHARRTS No.: SRA-01-001
                       Hearing Date: May 13, 2009
                             Committee: SRA
                         Member: Senator Nelson
                          Witness: Mrs. McGinn
                              Question: #1
    Question: In your testimony, you summarize the absentee voting for 
UOCAVA citizens as a three-step process. a. Which of these three steps 
is the most problematic for voters? b. What are the major barriers to 
successful completion of each step? c. What are the most promising 
technologies for addressing problems in each stage of the voting 
process?
    a. Which of these three steps is the most problematic for voters?
    Answer: All aspects of the process--registration/ballot request, 
receiving the ballot, and returning the ballot--present different 
challenges. A problem with one step can adversely affect subsequent 
steps. Each is time sensitive with procedures and deadlines that vary 
between states. We urge states to mail the ballot at least 45 days 
before the ballot receipt deadline to provide sufficient time for the 
ballot to arrive and allow the voter to mark and return the ballot 
before the state imposed deadline. The timely completion of each step 
in the process determines whether the voter will be registered in time, 
receive the blank ballot, and be able to return the ballot in time for 
it to be counted.
    b. What are the major barriers to successful completion of each 
step?
    Answer: Time, distance, and mobility are the greatest barriers to 
the successful completion of each step of the absentee voting process. 
Traditional mail service remains the primary method of ballot request 
and transmission.
    The time mail service takes and the distance voting material must 
travel can adversely affect the ability of the voter to successfully 
vote absentee. Each step can be hampered by availability of local mail 
service, additional state requirements such as requiring the ballot to 
be notarized, and remoteness of the voter. The Department has worked 
closely with the United States Postal Service to provide expedited 
transmission of APO/FPO balloting materials for the last three general 
elections. The initiatives undertaken include a tracking mechanism and 
the use of express mail at no charge for military members. The 
Department of State also provides free use of the diplomatic pouch 
service as well as notices to Americans abroad of other available 
ballot returning alternatives.
    Registration and ballot request success can be inhibited by the 
mobility of a voter. Upon relocation, DoD provides military voters with 
forms and instruction to register or provide their new mailing address 
to their local election official. Similar efforts are used to reach out 
to other UOCAVA citizens.
    Ballot mailings from the states can be delayed because of late 
primaries, late candidate filing deadlines, unexpected lawsuits or acts 
of nature. DoD works with the Department of Justice to ensure a 
reasonable amount of time is allowed by imposing specific remedies for 
particular elections, and long term remedies to avoid repeated 
problems. By law, each state may establish its own deadline, but a 
minimum transmission period of 30 days has been established as a 
precedent in federal court cases brought by the Justice Department.
    Many states allow for some part of the absentee voting process to 
take place via fax or email, which reduces the amount of time needed 
and gives UOCAVA voters alternatives to regular mail to meet their 
situational requirements.
    c. What are the most promising technologies for addressing problems 
in each stage of the voting process?
    Answer: DoD continues to support expanding the use of electronic 
transmission to reduce the time needed to successfully complete the 
process. While there are risks associated with using electronic means 
to vote absentee there is a willingness on behalf of voters to accept 
those risks to ensure their right to vote. Increasingly, voters have 
access to electronic communication media--even most forward-deployed 
Service members have access to email and the internet. This makes the 
use of technology one solution to the delays Service members and other 
UOCAVA voters experience with voting by mail. DoD plans to continue 
providing improved electronic tools to the states and UOCAVA citizens 
including the capability for automated completion of the Federal Post 
Card Application, request a ballot and receive a ballot electronically 
and automated completion of the Federal Write-In Absentee Ballot. 
Significant security concerns surround the use of electronic means to 
return of voted ballots which must be addressed as fully automated 
processes are explored.
                        CHARRTS No.: SRA-01-002
                       Hearing Date: May 13, 2009
                             Committee: SRA
                         Member: Senator Nelson
                          Witness: Mrs. McGinn
                              Question: #2
    Question: In your testimony you note the lack of a centralized 
system that accurately tracks voter participation. What recommendations 
would you make for improving the data we have available on the 
successes and failures of military and overseas voting?
    Answer: To gauge participation in the voting process, the 
Department conducts a detailed survey after each Presidential election. 
For the 2008 election, the Department, in cooperation with the Defense 
Manpower Data Center, conducted a statistically-sound, random sample 
survey of UOCAVA citizens to analyze voter participation among 
uniformed services and overseas U.S. citizens, as well as the 
effectiveness of state-federal cooperation. The Department is analyzing 
the results of the survey and will provide a written report of those 
results to the President and Congress by December 2009. We also plan to 
brief the appropriate oversight committees as soon as the results have 
been tabulated and analyzed.
    Other organizations and agencies collect data regarding the voting 
experiences of UOCAVA citizens. We plan to discuss with those agencies 
and organizations the data collection processes and methodologies used 
to determine if they meet the standards accepted by the research 
community to produce statistically valid results.
                        CHARRTS No.: SRA-01-003
                       Hearing Date: May 13, 2009
                             Committee: SRA
                         Member: Senator Nelson
                          Witness: Mrs. McGinn
                              Question: #3
    Question: Please elaborate on your efforts to promote legislative 
initiatives at the state level to facilitate absentee voting for UOCAVA 
voters. What specific procedures do you use, and how do you monitor and 
seek to influence state legislative activity?
    Answer: The Department contacts every state in advance of each 
legislative session to recommend adoption of specific legislative 
initiatives to improve the absentee voting process used by UOCAVA 
citizens. Our top priorities are for states to provide at least 45 days 
ballot transit time, and allow electronic transmission of balloting 
materials by fax, email, or both. We work directly with states to find 
solutions to problems faced by UOCAVA voters and track the progress of 
legislative advancements, providing letters of support and testimony 
when requested. We are also working with the National Conference of 
Commissioners on Uniform State Laws to develop uniform voting 
legislation for UOCAVA voters that the states and territories may 
adopt.
    The Federal Voting Assistance Program (FVAP) office partners with a 
team from the Office of the Deputy Under Secretary of Defense for 
Military Community and Family Policy to engage state legislators on 
legislation to benefit Service members and their families.
    In September 2008, the Secretary of Defense hosted a bipartisan 
group of five State Chief Election Officials visiting Kuwait, Iraq, 
Afghanistan and Germany to observe the challenges Service members face 
when voting absentee. They were encouraged to take lessons learned to 
their states to advocate for legislation that removes barriers to 
voting for this population. As a result, the officials made several 
recommendations--among them that email be allowed for the transmission 
of balloting materials both to and from state election offices.
    Whenever possible, the Department sends representatives to speak at 
state and national election official conferences to raise awareness of 
the problems faced by UOCAVA voters, acknowledge progress made, and 
recommend action be taken on suggested legislative initiatives.
    Additionally, the Department monitors the mailing of absentee 
ballots from local elections officials to voters. When these ballots 
are not mailed in a timely manner, DoD works with Department of Justice 
toward court-ordered, permanent legislative remedies.
                        CHARRTS No.: SRA-01-004
                       Hearing Date: May 13, 2009
                             Committee: SRA
                         Member: Senator Nelson
                          Witness: Mrs. McGinn
                              Question: #4
    Question In light of experience gained in the last three elections, 
what if any updates or revisions to DoD policy and procedures (as set 
forth in DoD Directive Number 1000.04 dated April 14, 2004) would be 
useful to facilitate successful voting by military personnel? To 
encourage and develop the use of technology in the voting process?
    Answer DoD Directive 1000.04 is being revised and will be reissued 
as DoD Instruction 1000.04. The change of status from Directive to 
Instruction will expedite promulgating procedural changes to the 
Services. Among the changes incorporated into the revised Instruction 
are:

    <bullet>  Providing flexibility to unit commanders to permit the 
assignment of a motivated, volunteer as Voting Assistance Officer (VAO) 
although the volunteer has not yet attained the grade recommended.
    <bullet>  Providing flexibility to unit commanders regarding the 
ratio of VAOs assigned within a unit to the number of permanently 
assigned personnel.
    <bullet>  Recommending, for continuity purposes, that Installation 
VAOs be civilian employees and, whenever possible, all assigned VAOs be 
in place from October the year prior to the general election through 
March of the year following the general election.
    <bullet>  Authorizing delivery of the Federal Post Card Application 
(FPCA) to Service members and their families by verifiable electronic 
means.0



  FEDERAL ELECTION COMMISSION NOMINATION HEARING FOR JOHN J. SULLIVAN

                              ----------                              


                        WEDNESDAY, JUNE 10, 2009

                      United States Senate,
             Committee on Rules and Administration,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:45 p.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Committee, presiding.
    Present: Senators Schumer, Bennett, and Chambliss.
    Staff present: Jean Bordewich, Staff Director; Jason Abel, 
Chief Counsel; Veronica Gillespie, Elections Counsel; Adam 
Ambrogi, Counsel; Carole Blessington, Assistant to the Staff 
Director; Brenna Allen, Professional Staff; Lynden Armstrong, 
Chief Clerk; Matthew McGowan, Professional Staff; Mary Suit 
Jones, Republican Staff Director; Shaun Parkin, Republican 
Deputy Staff Director; Paul Vinovich, Republican Chief Counsel; 
and Michael Merrell, Republican Counsel.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The hearing will come to order. I want to 
thank Senator Bennett for being here and apologize for showing 
up late.
    I would like to thank my friend, in addition to apologizing 
to him for being late, I want to thank him for his 
extraordinary efforts in being available this afternoon. Our 
schedules are busy. He has to leave at three, so we will try to 
make this a very quick hearing, which is in your interest, Mr. 
Sullivan, I think, and hopefully we will be completed quickly.
    We are here to have a confirmation hearing for John J. 
Sullivan as a member of the Federal Election Commission. 
Welcome. It is nice to see you, and I know your family is in 
attendance and I would like to welcome them, if you can just 
say hello. Wave your hands. Maybe you can introduce them when 
you speak, Mr. Sullivan. It is always nice to see the families.
    On May 4, 2009, Mr. Sullivan was nominated by President 
Obama to serve on the FEC for a single term expiring April 30, 
2013. If confirmed, Mr. Sullivan would replace Commissioner 
Ellen Weintraub.
    The Rules Committee oversees issues related to our 
democratic process, such as Federal elections and campaign 
finance. So far this Congress, our hearings have focused on 
election-related issues, such as our outdated voter 
registration system and the problems faced by overseas voters. 
Today, we are going to shift gears and focus on the FEC, an 
agency this committee had oversight over since its creation in 
1975. Holding FEC confirmation hearings is one of our most 
important tasks and I look forward to hearing from our most 
recent nominee on how he will support the mission of the FEC 
and what he sees as his greatest assets and challenges in this 
role.
    I am going to ask that my entire statement be read into the 
record so that Senator Bennett can get to the meeting he has to 
go to.
    [The prepared statement of Chairman Schumer included in the 
record:]
    Chairman Schumer. I welcome Mr. Sullivan and call on 
Senator Bennett for his statement.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Sullivan and I have visited. I find him eminently well 
qualified for this position. The old line in business, is once 
you have made the sale, get out of the room, so I shall not go 
any farther with this or delay this any further.
    Welcome, Mr. Sullivan, and congratulations on your 
nomination.
    Chairman Schumer. Senator Chambliss, would you like to make 
any statement?

             OPENING STATEMENT OF SENATOR CHAMBLISS

    Senator Chambliss. I want to echo what Senator Bennett just 
said. I was to meet with Mr. Sullivan a couple of weeks ago and 
it didn't work out and I had to call him up and apologize for 
canceling the meeting, but I wanted to come look him in the 
face today to tell him we intend to support his nomination, and 
thanks for holding the hearing on him, Mr. Chairman.
    Chairman Schumer. Thank you.
    I want to ask the nominee to stand and raise your right 
hand.
    Do you swear that the testimony you are about to provide is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. Sullivan. I do.
    Chairman Schumer. Please be seated.
    You may make your opening statement, and if you would like, 
introduce your family.

  TESTIMONY OF JOHN J. SULLIVAN, NOMINEE TO BE COMMISSIONER, 
                  FEDERAL ELECTION COMMISSION

    Mr. Sullivan. Thank you, Chairman Schumer, Ranking Member 
Bennett, and distinguished members of the Senate Committee on 
Rules and Administration. I am honored to come before you this 
afternoon as President Obama's nominee to the Federal Election 
Commission.
    Before I talk about the FEC, let me tell you a little bit 
about myself. I am the oldest of four children of John and 
Estelle Sullivan. My parents were born, grew up, and started a 
family in the tenements of East Harlem in New York City. My 
father left school at the age of 17 to serve his country in 
World War II, and when he returned from the Navy, he got a job 
as an elevator operator and then as a bank guard at the Morgan 
Guarantee Trust Company, where he spent the rest of his working 
life.
    My mother, after graduating from high school, joined her 
older sister working at a factory in Manhattan. When the 
factory closed, she worked at a variety of jobs, including as a 
toll taker at the Verrazano Narrows Bridge and as a medical 
transporter at a local hospital.
    With my parents' hard work as an example, I worked my way 
through Catholic high school and then through college. I am 
fortunate to have been the first member of my family to have 
had the opportunity to attend college. I earned my degree at 
the University of Massachusetts in Boston, graduating Summa Cum 
Laude, while working as a school bus driver in the Boston 
Public Schools. I then earned my law degree at the Northeast 
University School of Law in Boston.
    There is a commitment to hard work and public service that 
runs deep in my family. My wife, who is here today, Sandra 
Levik, is a public defender in the District of Columbia. My 
son, who is also with me, works as a staff investigator at the 
Public Defender's Office in New Orleans. My daughter Sarah, who 
is here, is a college student. My other family members, some of 
who are also present here today, my sisters, including my 
sister Diane, her daughter, and my wife's sister, are nurses 
working in hospitals throughout New York and on a Navajo 
Reservation in Arizona. My brother Charlie, who is here today, 
is a retired New York City Police Officer. And my sister 
Diane's son is currently a New York City Firefighter.
    I am presently an Associate General Counsel at SEIU, where 
I am responsible for advising the union's political programs 
and its election reform and election protection efforts. I have 
spent most of my professional life working as an election 
lawyer. I have served as an advocate, fighting to protect the 
rights of my fellow Americans to register to vote and to freely 
cast their ballots in elections throughout this country, making 
sure that their votes are fairly and accurately counted.
    I have also acted as a neutral official and observer in 
numerous elections both here and abroad. For example, I was 
part of an international team of observers who monitored the 
presidential and parliamentary elections in Ukraine in what is 
now known as the Orange Revolution. I currently serve as Vice 
President of the bipartisan Montgomery County, Maryland, Board 
of Elections, which is responsible for ensuring fair elections 
for over half-a-million registered voters.
    The casting of ballots on election day is only the last 
step in the process in which a free people elect their leaders. 
The public campaigns by candidates, citizens, independent 
groups, and parties in the weeks and months before election day 
is one of the great features of our democracy. It is during 
this time that candidates and citizens speak out on the 
important issues of the day and thereby participate in setting 
the goals and selecting the leaders of our country.
    Just as the process of voting must be conducted in a fair, 
open, and impartial way to ensure the legitimacy of the system, 
so, too, must the period of campaigning be governed by a set of 
rules clearly articulated and fairly enforced. It is this 
latter task, regulation of the raising and spending of money in 
Federal election campaigns, that falls on the FEC.
    As an election lawyer, I work to encourage Americans to 
participate in the election process. I know only too well the 
corrosive effect that cynicism can have on the willingness of 
citizens to take the time out of a day already crowded with the 
obligations of work and family to participate in election 
campaigns and to vote. Nothing can feed that cynicism more than 
the idea that the system is corrupt, that money counts more 
than votes, and that the voices of ordinary Americans are being 
ignored by candidates and elected officials in the debate over 
important issues.
    It is the elimination of corruption, and arguably as 
important, the elimination of the appearance of corruption 
which serves as the foundation of our campaign finance laws. In 
this way, the FEC has an important responsibility of combating 
that cynicism by fairly enforcing these laws.
    By statute, the FEC acts only upon the affirmative vote of 
four of its six members, no more than three of whom can be from 
any one political party. This six-member structure gives the 
agency a great advantage. All of its decisions must be the 
product of a bipartisan consensus and none can fairly be viewed 
as the work of one political party taking advantage over 
another.
    Throughout its history, the Commission has been able to 
work through differences to resolve the bulk of the enforcement 
cases and difficult legal issues involving the proper 
application of the campaign finance laws. The goal of our 
campaign finance laws is the elimination of corruption and of 
the appearance of corruption in our political process in order 
to ensure free and fair elections. These are my values and I am 
confident that they are shared by the members of the FEC.
    There may be disagreements among the Commissioners on how 
best to apply the law. However, as in the past, there remains 
ample room for the ordinary course of enforcement and for the 
resolution of difficult issues by the Commission. I would hope 
that the FEC's Commissioners would build and maintain an 
effective dialogue and improve their capacity to work out 
differences constructively. And in all matters that come before 
the FEC, Commissioners must strive to be clear in their 
reasoning, impartial in their decisions, and transparent in the 
process of enforcing the law.
    Should I be confirmed, it would be my great honor to serve 
on the Commission. Thank you for the opportunity to appear 
before you today and I would now be happy to take any 
questions.
    [The prepared statement of Mr. Sullivan included in the 
record]
    Chairman Schumer. Thank you very much, Mr. Sullivan.
    First, I am glad to see--and would note that this is not a 
commentary on you, but I am glad to see that most of your 
family had the good sense to remain in New York----
    [Laughter.]
    Chairman Schumer. --and serve our city and our State. I 
also understand your comments and the three-to-three deadlocks 
are an issue that we will look at, but I agree with you, having 
a bipartisan vote on anything is important.
    Anyway, let me ask you a few questions and then I will turn 
it over to my colleagues.
    First, I want to spend time talking about your career and 
how you believe that you have been equipped to serve on the 
SEC. Tell me what experience you think has helped you the most 
as you prepare to take on this challenge.
    Mr. Sullivan. Senator Schumer, I think the best experiences 
that I have had as an election lawyer is working with voters 
and members of our union, engaging them in political campaigns 
and getting them involved in the process. I think having an 
open process in which people feel free to participate and in 
which people feel that their voices are being heard in the 
process has been one of the most rewarding experiences that I 
have had. It is this value of both openness of the process and 
the willingness and desire of people to participate in the 
election of their leaders which I find the most important 
experience I have had and the value that I hold.
    Chairman Schumer. Very good. Over the last four cycles, you 
have been involved in election protection programs, ensuring a 
smooth election day. Can you tell us a little about this 
experience and how it might affect you as Commissioner on the 
FEC?
    Mr. Sullivan. First and foremost, I think it has left me 
with a tremendous respect for the role of elections in our 
democratic process. Elections and the campaigns that lead up to 
them are the mechanism by which not only do we choose our 
leaders, but we set our agenda.
    The work I have done to ensure that each eligible voter has 
the right to participate, to cast a ballot, to ensure that 
those ballots are fairly and accurately counted, has been a 
large part of my work over the last two cycles. I have worked 
as a poll watcher in polling places. I have been nominated by 
the Governor of Maryland to serve as a county election 
official. I have served on a transition committee established 
by the Governor seeking input on appropriate reforms for the 
election process in our State of Maryland, and I have worked 
with advocacy groups around the country on common goals of 
making sure that the voter registration process is an effective 
and meaningful process and not a trap or a barrier that would 
keep eligible voters away from the polls or deny them the 
opportunity to vote. And then make sure that the election 
process itself is open, transparent, and free for those to 
participate.
    Chairman Schumer. Thank you. My time has expired. I have a 
second round, but I want to turn to Ranking Member Bennett 
because I know that he has to get going before that.
    I just want to thank our other Commissioners for coming, 
Commissioners McGahn, Bauerly, Hunter, Petersen, and Walther. 
Thank you for all being here. Commissioner Weintraub is out of 
the country or I know she would have been here, as well.
    Ranking Member Bennett?
    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Sullivan, there has been a good deal of newspaper 
comment both about you and your union, and I am going to give 
you the opportunity to use this platform to address some of 
that comment. First, there were a couple of articles in Roll 
Call last year about SEIU and the amount of money raised and 
spent. If I can quote one of them, it says, ``SEIU plans to 
spend a significant chunk of its nearly $100 million political 
budget to help Harry Reid get a filibuster-proof Senate.'' The 
second article says, ``SEIU has vowed to spend about $75 
million to influence Congressional races and has opened the 
spigot with a $600,000 TV ad buy targeting John Sununu and a 
$500,000 ad buy going after Senator Gordon Smith.'' 
Congratulations. You succeeded in both of those.
    Now, $100 million, is that number about right? And can you 
tell us how the union spent that money in a way that was 
consistent with the current law?
    Mr. Sullivan. You are right, Senator. SEIU is very active 
politically. Its members are very active politically. The 
overwhelming majority of that money comes from the voluntary 
contributions of SEIU members, working people who make----
    Senator Bennett. Excuse me. By voluntary contributions, you 
mean something over and above dues?
    Mr. Sullivan. Yes, sir. Yes. People who agree to contribute 
a portion of their pay every week to fund that political 
program, and that money is used for political purposes. It is 
fully reported. It is fully disclosed on FEC reports that are 
filed.
    In addition, the union engages in public education 
campaigns on issues of importance, for instance, health care. 
Very much of that budget has gone to advocating and educating 
the public on the issue of health care. These expenses are 
incurred in election years and non-election years and----
    Senator Bennett. Let me interrupt you now. Is there a 
difference between soft money and hard money here?
    Mr. Sullivan. Yes. In terms of the issue advocacy, that is 
what would be characterized as soft money for the most part----
    Senator Bennett. And some of the soft money comes out of 
the dues?
    Mr. Sullivan. Yes. Yes. The source of soft money is dues. 
The source of hard money is the voluntary check-off 
contributions that members make from their paycheck.
    Senator Bennett. Okay.
    Mr. Sullivan. With regard--sorry.
    Senator Bennett. Thank you. I would like to get that 
clarification out for people who are suggesting that what you 
did may have been somewhat subversive and improper. I may not 
like it as a Republican, but that is the way the laws are 
structured now and you acted entirely in accordance with the 
law. I am assuming that was your responsibility, to make sure 
that you acted in accordance with the law?
    Mr. Sullivan. That is one of my responsibilities, both to 
educate and train staff people and officers about what kinds of 
funds can be used for what kinds of activities, what kinds of 
reports or disclosures have to be filed, and to make sure that 
that actually takes place, is part of my responsibility.
    Senator Bennett. If we didn't have the current laws, would 
the money be donated to political parties rather than used in 
that fashion?
    Mr. Sullivan. Well, the union does contribute a lot to 
political parties, but it sees the value of having an 
independent political voice on issues of concern that may 
transcend particular candidates or even particular parties. We 
are often critical of Democrats as well as Republicans on 
specific issues, and our members expect that the union will 
have that independent political voice to argue for issues in 
their interest.
    Senator Bennett. I see. The only reason I raise that last 
question, there is a Harvard study that says one of the reasons 
voter turnout has gone down is because of the dwindling 
influence of political parties. I think our present campaign 
laws are to the disadvantage of political parties. I am not 
criticizing you in any way for what you are doing, but I would 
like to see more of the money channeled through the parties 
rather than in the other fashion.
    Now, I would like to give you an opportunity to respond to 
those who have criticized you in print or letter directly. 
Gerald Hebert, Executive Director of the Campaign Legal Center, 
a group that favors regulation of political speech, has said 
that your nomination is a cause for concern and he writes, 
``The gusto with which Mr. Sullivan has bashed important 
elements of McCain-Feingold and repeatedly taken radical 
deregulatory positions does not inspire confidence that he will 
have different views if confirmed to the Commission.'' Do you 
consider yourself radical?
    Mr. Sullivan. No, I don't, sir.
    Senator Bennett. Do you wish to respond generally?
    Mr. Sullivan. Yes. Thank you for the opportunity to 
respond. Most of that criticism focused on comments that I 
participated in that were filed with the FEC in the wake of the 
Supreme Court's decision in Wisconsin Right to Life. The issue 
before the Court was the application of the FEC's 
electioneering communications rules to a particular 
communication.
    I think any fair observer reading Chief Justice Roberts' 
opinion in that case would recognize it was written in very 
broad terms, using very broad language. And when the FEC was 
confronted with having to write new rules to conform with that 
decision, it was confronted with two options. One was, should 
we simply do it narrowly to find an exception to the funding 
prohibition for electioneering communications, or should we 
essentially redefine electioneering communications and exempt 
all of these electioneering communications that fall outside of 
the scope that we can regulate from reporting and disclosure 
requirements?
    The unions filed comments with the FEC, which I joined, 
arguing for the second alternative. In that capacity, I was 
acting in the best interest of my client and in my client's 
historic concern that electioneering communications had the 
potential for interfering with its legitimate grassroots 
lobbying activities.
    My personal views, with respect to the issue of whether or 
not it is appropriate to have reporting and disclosure of who 
pays for these ads is that I believe that is appropriate. I 
believe that there is no constitutional prohibition against it, 
and that is how the FEC ultimately ruled in that case. They 
said, well, the unions can fund these kinds of ads, along with 
corporations, for that matter, but they are still required to 
file a report with us and tell us how it was paid for. And I 
recognize that is what the FEC did.
    As a legal matter, I believe that was an appropriate 
response to the Supreme Court's decision, and if confirmed by 
the Senate, I will enforce that rule as articulated by the FEC. 
However, I have to give the additional disclaimer that it is 
that precise issue which is currently pending before the 
Supreme Court in the Citizens United case.
    Now, after the union's position was rejected by the FEC, we 
didn't seek to challenge it. The union did not challenge that. 
In fact, the union did not join the parties in the Citizens 
United case to try to challenge that, as well. SEIU, my client, 
determined, fine, this is the FEC's interpretation, we can live 
with that. We will file our reports. We will put our 
disclaimers on the ads. And that is the current state of the 
law, and if confirmed, that is the law I will enforce.
    Senator Bennett. Thank you. I appreciate that, Mr. 
Chairman.
    Chairman Schumer. Well, thank you, and I had a few other 
questions, but I will submit them in writing, if you don't 
mind.
    And now our hearing is adjourned. I thank the witness for 
being here.
    [Whereupon, at 3:04 p.m., the committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6336.530

[GRAPHIC] [TIFF OMITTED] T6336.531

[GRAPHIC] [TIFF OMITTED] T6336.525

[GRAPHIC] [TIFF OMITTED] T6336.526

[GRAPHIC] [TIFF OMITTED] T6336.527

[GRAPHIC] [TIFF OMITTED] T6336.528

[GRAPHIC] [TIFF OMITTED] T6336.529

0

                           EXECUTIVE SESSION

                              ----------                              


          WEDNESDAY, JUNE 10, 2009 AND THURSDAY, JUNE 11, 2009

                      United States Senate,
             Committee on Rules and Administration,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 3:04 p.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Committee, presiding.
    Present: Senators Schumer and Bennett.
    Staff present: Jean Bordewich, Staff Director; Jason Abel, 
Chief Counsel; Veronica Gillespie, Elections Counsel; Adam 
Ambrogi, Counsel; Brenna Allen, Professional Staff; Lynden 
Armstrong, Chief Clerk; Mary Suit Jones, Republican Staff 
Director; Paul Vinovich, Republican Chief Counsel; Michael 
Merrell, Republican Counsel; and Abbie Platt, Republican 
Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The committee is called to order for an 
executive business meeting. We are meeting this afternoon to 
consider the nomination of John J. Sullivan to be a member of 
the Federal Election Commission.
    The Committee on Rules' rules and procedures specify that 
seven members need to be present to discuss the nominations and 
ten members present to vote.
    Since a quorum is not present to discuss or vote on the 
nomination, the committee is recessed and will convene 
following the next vote on the Senate floor, which now is 
expected to be tomorrow morning. Members will be notified of 
the exact time and place of the meeting.
    So again, I want to thank you, Mr. Sullivan, your whole 
family, and everyone else for attending.
    The committee is recessed subject to the call of the Chair.
    [Whereupon, at 3:05 p.m., the committee recessed, subject 
to the call of the Chair.]

                    THURSDAY, JUNE 11, 2009

    [The committee proceeded in Executive Session at 2:50 p.m., 
Thursday, June 11, 2009, in Room S-216, The Capitol, Hon. 
Charles E. Schumer, Chairman of the committee, presiding.]
    Present: Senators Schumer, Dodd, Nelson, Murray, Pryor, 
Udall, Warner, Bennett, Cochran, and Chambliss.
    Staff present: Jean Bordewich, Staff Director; Jason Abel, 
Chief Counsel; Veronica Gillespie, Elections Counsel; Adam 
Ambrogi, Counsel; Brenna Allen, Professional Staff; Lynden 
Armstrong, Chief Clerk; Mary Suit Jones, Republican Staff 
Director; Paul Vinovich, Republican Chief Counsel; Michael 
Merrell, Republican Counsel; and Abbie Platt, Republican 
Professional Staff.
    Chairman Schumer. The hearing will come to order. We are 
meeting this afternoon to consider executive business, the 
nomination of John J. Sullivan to be a Federal Election 
Commissioner. We held a confirmation hearing yesterday 
afternoon.
    Also, pursuant to our rules, all votes are by voice unless 
a member requests a roll call vote. A quorum is now present. I 
will entertain a motion for a voice vote that the nomination be 
reported with a recommendation the nomination be confirmed.
    Senator Bennett. So moved.
    Senator Chambliss. Second.
    Chairman Schumer. A motion has been made and seconded the 
nomination be reported with a recommendation the nominee be 
confirmed. All in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. Opposed, nay.
    [No response.]
    Chairman Schumer. The ayes have it. The motion is agreed 
to. And we have a proxy from Senator Feinstein, yes, and 
Senator Inouye, yes. Thank you.
    Thank you, everybody. Have a nice weekend. The meeting is 
now adjourned.
    [Whereupon, at 2:51 p.m., the committee was adjourned.]0



      S.1415, the ``Military and Overseas Voter Empowerment Act''

                              ----------                              


                        WEDNESDAY, JULY 15, 2009

                      United States Senate,
             Committee on Rules and Administration,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Committee, presiding.
    Present: Senators Nelson, Pryor, Udall, Bennett, Cochran, 
Chambliss, and Roberts.
    Staff present: Jean Bordewich, Staff Director; Jason Abel, 
Chief Counsel; Veronica Gillespie, Elections Counsel; Adam 
Ambrogi, Counsel; Carole Blessington, Assistant to the Staff 
Director; Sonia Gill, Counsel; Lauryn Bruck, Professional 
Staff; Lynden Armstrong, Chief Clerk; Justin Perkins, Staff 
Assistant; Mary Suit Jones, Republican Staff Director; Shaun 
Parkin, Republican Deputy Staff Director; Paul Vinovich, 
Republican Chief Counsel; Michael Merrell, Republican Counsel; 
Abbie Platt, Republican Professional Staff; and Rachel 
Creviston, Republican Professional Staff.

             OPENING STATEMENT OF CHAIRMAN SCHUMER

    Chairman Schumer. The hearing will come to order. As you 
know we need seven to actually vote on amendments. We have six; 
we have at least two more members on their way so we will begin 
the opening statements. Hopefully they will be here, and we 
will do that. Maybe we can get the 10 to vote. If not, we will 
do it off of the floor.
    First I want to thank all of my colleagues for coming. 
Particularly my friend, our Ranking Member Bob Bennett, and he 
has really worked hard. He had some problems with the bill and 
our staffs worked together and we have worked it all out. And I 
want to thank him for his dedication to helping men and women 
who serve overseas in our Armed Forces exercise their 
franchise.
    The two real guiding forces behind this are here today. 
Saxby Chambliss, an original co-sponsor of this bill, member of 
the Armed Services Committee who has shared our commitment to 
ensuring that Americans serve overseas can participate fully in 
the electoral process and he worked hard with everybody and I 
thank Saxby and his staff.
    And the other person who was really instrumental in this is 
Ben Nelson, who is Chairman of the Armed Services Subcommittee 
on Personnel and Readiness. He has helped craft this 
legislation into shape. And he and Saxby should we pass it out 
of this committee, we might be able to add it to the DoD 
Authorization Bill given their leadership on that committee.
    I also want to thank John Cornyn. He is not on this 
committee but he has been a strong and committed advocate for 
military voters. He has previously introduced legislation to 
help military voters and we appreciate his interest in the bill 
we are considering today.
    On May 13 of this year the Rules Committee held a hearing 
on the obstacles faced by military and overseas voters. We 
released a survey commissioned from the Congressional Research 
Service, which had very troubling news and that was that one in 
four ballots requested by troops deployed overseas went 
uncounted in the 2008 election.
    Studies from previous elections show that military and 
overseas voters have one of the lowest levels of turnout of all 
groups. But not because they do not want to vote. Our soldiers 
want to vote. But it is because it is hard for them to vote. It 
is hard for them to register. Only 65 percent of U.S. military 
personnel are registered compared to up to 84 percent of the 
population as a whole.
    And then the voting process is rather cumbersome, because 
you need an absentee ballot which is cumbersome in itself and 
you need two mail systems to get them there; military mail and 
then U.S. Postal Service. And so, that is why the numbers are 
so much lower--not for lack of desire.
    We have found that potential military and overseas voters 
often do not know where to register, or the ways they can 
request an absentee ballot. The states mail out the paper 
ballots without enough time for them to be received and 
returned by mail. Sometimes the ballot gets there after the 
election is over and certainly after the expiration date of 
when you can send in the absentee ballot.
    And then far too many returned ballots are thrown out for 
technicalities that are not election related; being on the 
wrong paper, not being notarized. Now how does somebody in 
Fallujah go find a notary for his or her absentee ballot? So it 
is unacceptable and we are trying to change that.
    In an age of instantaneous global communications there is 
no reason not to use the technology to help members of the 
military, their families, and other Americans living, working 
and volunteering in foreign countries from exercising their 
right to vote. And that is what we would say here.
    What we are marrying is the desire to vote with new 
technology. That is all. We are not changing any of the rules, 
we are just making it quicker and easier. If you have e-mail 
and if you have fax machines, why not use them?
    If the Department of Defense can get tanks, high tech 
equipment, and food to the front lines of combat we can figure 
out a way to deliver an election ballot as well. And we believe 
that this cannot wait. Senators Chambliss and Nelson and I have 
introduced this legislation to overturn the barriers military 
and oversea voters encounter as they fight for our freedom and 
serve our nation away from home. We have received input from a 
number of groups and senators and worked to incorporate their 
comments and concerns, so I think this is a strong bipartisan 
bill.
    And I hope it will pass out of this committee without 
opposition.
    So S.1415 will amend the 1986 Uniformed and Overseas 
Citizen Absentee voting Act and bring it into the 21st Century. 
Will use the internet and other methods to speed up the process 
for voters outside the U.S., make sure their votes count. It is 
an urgent priority and I hope we can move it quickly. And with 
that let me turn it over to our Ranking Member Bennett.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you very much Mr. Chairman not only 
for your opening remarks, but for the way in which you and your 
staff have approached this.
    As is the case with every piece of legislation there is 
always some tension among people who focus on the details and 
to perhaps oversimplify, but I think to put it in context we 
have has a little tension between what I would call the 
activist community that want to make sure that everybody gets 
to vote and then the election administrator community, the 
people who actually do the work who say, ``Well, that is a good 
idea but it will not work for these following reasons''.
    And I want to thank you for the way in which you and 
Senator Cornyn have worked together, as he has put forward his 
efforts. I worked with your staff and with Senator Chambliss 
and we put together an amendment the summary of which I would 
like to submit for the record.
    Chairman Schumer. Without objection.
    [The information of Senator Bennett follows:]
    Senator Bennett. And it goes through all of the details, in 
every case it is an attempt to reconcile the tension that I 
described.
    We want to get all of the folks in the military to vote, 
but at the same time we do not want to put undue burdens on the 
people who actually run the machinery. And it is my 
understanding that we have pretty well resolved all of the 
issues and all of the tensions and I want to thank you for 
offering the amendment that will take care of Senator Cornyn's 
concerns and for your willingness to accept the amendment I 
will offer that will take care of the other concerns that were 
worked out with Senator Chambliss and I believe with those two 
amendments it can indeed come out of the committee with 
unanimous support and I will be happy to serve as a co-sponsor 
when it goes the floor under those conditions.
    So without going into any more details about the items in 
my amendment, I simply repeat my gratitude to you and your 
staff and the others who have worked so hard on it and 
congratulate you and Senator Nelson and Senator Chambliss for 
your leadership in calling this to our attention and moving 
this forward.
    [The prepared statement of Senator Bennett follows:]
    Chairman Schumer. Thank you Senator Bennett. Senator 
Nelson.

              OPENING STATEMENT OF SENATOR NELSON

    Senator Nelson. Thank you Mr. Chairman. It is truly, as the 
Ranking Member has indicated and you have as well, that is has 
been a pleasure to work as collaboratively as we have on this 
legislation. It is consistent with how Senator Chambliss and I 
have worked on personnel issues under the Armed Services 
Committee to try to help our men and women in uniform and their 
families. But in this particular case, assuring the right to 
vote is followed by the capability of achieving that right.
    It is hard to register, hard to vote, hard to count votes. 
All the difficulties are clear and navigating through these 
difficult areas is not always that easy, but what this process 
has proven is that when we work together we can get things done 
and we can overcome those obstacles.
    So for the men and women in uniform we are all please that 
their right to vote will be further honored by this legislation 
and I am very anxious to see it come to the floor. Very anxious 
to see it get the kind of commitment and support that I know it 
will get.
    And thank you for your particular leadership Mr. Chairman 
and so graciously sharing the gratitude and the accolades, 
because I know where a lot of the work was done that was with 
your staff and our staffs. So thank you.
    Chairman Schumer. Well, thank you Senator Nelson and 
without you and Senator Chambliss this would not have happened. 
So thank you.
    Senator Cochran, do you want to make a statement?
    Senator Cochran. Mr. Chairman, I have a statement, and I 
would ask unanimous consent that it be made a part of the 
record.
    Chairman Schumer. Without objection.
    [The prepared statement of Senator Cochran follows:]
    Chairman Schumer. Senator Pryor, do you wish to say 
anything, opening?

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I don't, but I do want to thank all of the 
people who have worked so hard on this. I'd like to be added as 
a co-sponsor if I am not already. But----
    Chairman Schumer. You are already.
    Senator Pryor. Unfortunately, Mr. Chairman I have got to 
leave in about 10 minutes to hear a Commerce----
    Chairman Schumer. Okay. We are going to move quickly to do 
the amendments. Just let me call on Senator Chambliss, Senator 
Udall for brief statements and I think we can get this done 
before 10 o'clock.

             OPENING STATEMENT OF SENATOR CHAMBLISS

    Senator Chambliss. Thank you Mr. Chairman and let me just 
echo the sentiments that you have stated, and Senator Bennett 
and Senator Nelson have stated with reference to the work on 
this. I mean, this is the way this body is supposed to work in 
my mind. We have an issue we needed a solution to and we found 
a common solution through conversation, negotiation, and being 
common sense senators and trying to make sure the men and women 
that are out there giving us the right to vote in free and open 
elections also have the right to vote and I just can-not say 
enough about the cooperative attitude of the Chairman and the 
Ranking Member.
    As we have been through this, I understand now why Senator 
Schumer gets so many things done because when he and I would 
talk about an issue he would come up to me three times during 
the day to make sure that I had done what I was supposed to do. 
And I am very appreciative of that.
    Chairman Schumer. There's a word for it in New York. We 
call it ``nudge.''
    Senator Chambliss. Senator Nelson has been my good friend 
since I came to this body and I was Chairman of the Personnel 
Committee. I worked very closely with him. Now that he is 
Chairman, we continue to work very closely together and your 
commitment to this has just been unbelievable and I appreciate 
it as always.
    Senator Cornyn who is not a member has had a bill on this 
issue for a couple of years and Senator Cornyn has just been a 
great colleague to work with on this. Again, we all had a 
common goal. I want to also just put in a good word for my 
Secretary of State Karen Handel who we stayed in touch with on 
this issue because we are putting some things in here that I 
frankly thought some of the states might not like.
    We have a large military presence in Georgia, as do a 
number of you in your states, and Karen has been very 
supportive of what we are doing and as a result I think we are 
going to get some widespread national support on this from 
outside groups. We already have, but it is going to continue to 
grow. So Mr. Chairman, thank you. I look forward to bringing 
these amendments up, getting it concluded, and bringing it to 
the floor.
    Chairman Schumer. Thank you Senator Chambliss. Senator 
Udall.

               OPENING STATEMENT OF SENATOR UDALL

    Senator Udall. Thank you Senator Schumer and I really 
appreciate all of the work of all the senators on this bill. I 
cannot think of anything more important than having the 
military have the right to vote when they are serving overseas 
and I would like to be added as a co-sponsor.
    Chairman Schumer. Without objection.
    Senator Udall. Thank you.
    Chairman Schumer. Okay, thank you. Let us move to the 
amendments. As was mentioned, Senator Cornyn has been a 
champion on this issue and has some amendments that we have all 
worked out. Senator Chambliss, Senator Nelson, Senator Bennett 
and I have all agreed to his suggestions and I am going to 
offer these amendments for consideration.
    They are Schumer Amendments 1 through 3, but they are 
Senator Cornyn's amendments and as I said he has been a leader 
on the issue.
    Amendment 1 expands on the procedures that DoD should use 
in consultation with the U.S. Postal Service to ensure ballots 
get delivered through expedited mail. Amendment 2 expands voter 
registration services on DoD installation and enhances the VAO 
Program and FVAP Office. Amendment 3 is simply a terminology 
change.
    All of these amendments I think have both Senator Bennett 
and my support so do I have a motion that these three 
amendments suggested by Senator Cornyn in which I now offer be 
adopted?
    Senator Udall. So moved
    Chairman Schumer. Is there a second?
    Senator Pryor. Second
    Chairman Schumer. Okay. Those in favor say aye.
    [Chorus of ayes.]
    Chairman Schumer. Opposed, nay.
    [No response.]
    Chairman Schumer. The ayes have it and the amendments are 
adopted. Now we have some amendments that Senator Bennett will 
offer as well.
    Senator Bennett. Thank you.
    Chairman Schumer. This is the last bunch of amendments and 
then we will wait for final passage to get 10 off the floor.
    Senator Bennett. Thank you, Mr. Chairman. My amendment is a 
summary of revisions. I have it here, a summary of the 
revisions made by the Bennett Amendment. There are 10 
particular items here. Given the amount of time, well I can get 
through these 10 in a hurry.
    Clarification regarding the delegation of state 
responsibility is number one. Number two, amendment to remove 
specific technologies from the bill. Number three, an amendment 
to clarify that the states are not required to place contact 
information directly on the ballots. That's a privacy issue.
    Number four, an amendment to clarify that the states are 
not limited to only one point of contact. Number five, an 
amendment to improve privacy protections and number six 
amendment to add security protections. Number seven, an 
amendment to improve the requirement for time to vote. Number 
eight, amendment to the waiver provision with respect to the 
ballot transmission deadline. Number nine, amendment to repeal 
the UOCAVA Requirement that a single ballot application be 
valid for subsequent elections. And number ten, and amendment 
to clarify the HAVA requirement that payments remain available.
    Now all have been cleared by the various senators and I 
offer the amendment in the hope that it can be adopted.
    Chairman Schumer. All right. Is there a second?
    Senator Chambliss. Second
    Chairman Schumer. All in favor say aye.
    [Chorus of ayes.]
    Chairman Schumer. Opposed, nay.
    [No response.]
    Chairman Schumer. The ayes have it and the amendments are 
adopted and I would ask unanimous consent that Senator Bennett 
be added as a co-sponsor as well.
    I think that is it. I do not think we are close to 10. 
Senator Pryor has a previous commitment, we all do. Sorry. 
Since a quorum is not present we cannot vote on final passage. 
In order to have a motion to vote when we reconvene, is there a 
motion to report the bill as amended?
    Senator Bennett. So moved
    Chairman Schumer. Is there a second?
    Senator Nelson. Second
    Chairman Schumer. Great. Okay, since we do not have 10 we 
will convene off of the floor and the committee is in recess 
subject to call of the Chair. Thank you all for coming. And 
more importantly, for everyone's good work on this amendment.
    [Recess.]
    Senators Present: Schumer, Inouye, Feinstein, Durbin, 
Nelson, Murray, Udall, Warner, Bennett, Hutchison, Chambliss, 
and Alexander.
    Chairman Schumer. The Committee will come to order. There 
is a pending motion to report S. 1415 as amended. Unless there 
is a request for a recorded vote, the vote will be by voice.
    Senator Alexander. Mr. Chairman, I ask unanimous consent 
that I be added as a co-sponsor.
    Chairman Schumer. Without objection. Does everyone present 
here want to be a co-sponsor?
    [Chorus of ``yes'']
    Chairman Schumer. Ok, without objection, you all are added. 
Now, on to the motion. Those in favor, say aye.
    [Chorus of ayes.]
    Chairman Schumer. Those opposed, say nay.
    [No response.]
    Chairman Schumer. The ayes have it, and S. 1415 as amended 
is ordered reported.
    To conclude, I'd like to first thank my friend, Ranking 
Member Bennett, for his leadership and steadfast support of our 
military.
    I would also like to thank Senators Saxby Chambliss and Ben 
Nelson, who were original co-sponsors with me of this 
bipartisan bill. Their continued dedication to finding a 
solution to the problems facing our military and overseas 
voters is invaluable and appreciated.
    I'd like to thank the Senators who are here for this 
meeting for their participation and attendance, which made this 
mark up possible.
    Finally, I want to acknowledge some of those who have 
already sent letters of support for S. 1415, including 
Operation Bravo Foundation, the Overseas Vote Foundation, 
Federation of Women's Clubs Overseas, and Eric Eversole, a 
witness at an earlier Rules Committee hearing who served as an 
attorney in the voting section of the Justice Department. I 
also want to thank the Pew Center on the States for their 
research in the ``No Time to Vote Study,'' and their support on 
this issue.
    I appreciate all of your efforts to take action on this 
urgent issue--we will keep working together until we get this 
done.
    We'll keep the record open for five days if any member has 
a statement for the record.
    The Committee is adjourned subject to the call of the 
Chair.
    [Whereupon, at 12:55 p.m., the committee was adjourned.]
                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

              Prepared Statement of Senator Robert Bennett
    Thank you, Mr. Chairman for holding this meeting and for your work 
on this important issue. You are to be commended for making this a 
priority. Our military personnel make tremendous sacrifices for their 
country. As they defend our rights, we need to make sure they are able 
to exercise theirs. This bill will help them exercise their right to 
vote.
    I want to also thank our committee colleagues Senator Saxby 
Chambliss and Senator Ben Nelson who joined you as original cosponsors 
of this legislation. They care deeply about our service members and 
they have worked hard on their behalf--on this bill and many others.
    I also have to thank another senator who is not a member of this 
committee but has nonetheless been a tremendous leader on this issue--
Senator John Cornyn. Senator Cornyn has been out front on this issue 
for a long time and I know he is pleased to see this committee acting 
on it. I understand you will be offering some amendments Mr. Chairman 
that contain language proposed by Senator Cornyn and I thank you for 
doing so.
    This bill will implement many of the recommendations we heard at 
our hearing on this subject in May. Testimony at that hearing revealed 
that many service members are unable to exercise their right to vote 
because of ballot delivery problems. Ballots are frequently mailed out 
too late for them to be received, voted and returned in time to be 
counted. This bill will rectify that problem by requiring that ballots 
be mailed out with sufficient time to be received and returned.
    Another common problem is some jurisdiction's failure to utilize 
electronic transmission methods that could cut down on delivery times. 
This legislation will require utilization of electronic transmission 
methods and thereby make it easier for military and overseas personnel 
to obtain, and vote, their ballots in time.
    Other provisions to require use of expedited mail services and 
expand use of the Federal Write-In Absentee Ballot should also help 
this population cast their votes.
    I do appreciate the goals of this legislation and I will be 
offering an amendment that I believe will help meet those goals. We 
have been getting some feedback from election administrators since the 
bill was introduced last week and some important points have been 
raised about its provisions. I very much appreciate your willingness, 
Mr. Chairman to work with us to address these concerns and I want to 
thank Senator Chambliss as well. Our staffs have worked well together 
to make what I believe to be some necessary improvements to the bill 
and I thank the Chairman and Senator Chambliss for agreeing to accept 
them.
    I have a complete outline of the changes that I will submit for the 
record but I wanted to address just a few of them in detail.
    The amendment I will offer clarifies that the obligations we impose 
on states may be delegated to local jurisdictions. We recognize that 
election administration functions are carried out on the local level 
and we do not intend to transfer those responsibilities to the State in 
this legislation.
    The amendment also changes the ballot delivery requirement from 55 
to 45 days. 45 days was the consensus recommendation of the witnesses 
who appeared at our hearing and many states would be unable to comply 
with the 55 day requirement. More states will be able to comply with 
the 45 day requirement and more military and overseas voters will be 
able to obtain their ballots in time with this requirement in place.
    The privacy language in the bill raised concerns because some 
voting related information is, by necessity, a matter of public 
record--the voter's name, for example, and whether or not they have 
voted. These disclosures are important transparency measures and we do 
not wish to change them in this bill. The amendment requires privacy 
protections ``to the extent practicable'' so that voter's personal 
information does not get exposed unnecessarily, while recognizing that 
some information can and must be disclosed.
    Similarly, language is added to ensure that security protections 
are also put in place to protect ballot integrity, to the extent 
practicable.
    Finally the amendment eliminates a requirement in the existing law 
that requires election officials to send ballots to military and 
overseas voters for 2 subsequent elections after they receive an 
application. This population moves very frequently, so this requirement 
obligates election officials to send ballots to addresses where the 
applicant no longer lives. This provides no benefit to the voter but 
does impose unnecessary costs on the jurisdiction. Elimination of this 
provision will conserve resources, reduce the opportunities for fraud 
and lower the rate of unreturned ballots.
    Again I very much appreciate your willingness to accept these 
changes Mr. Chairman. I think they improve the bill greatly and with 
these changes I will be pleased to support it.
     Summary of revisions to S. 1415 made by the Bennett Amendment
    1. Clarification regarding delegation of state responsibilities.
a. This is a new section that responds to concerns raised by election 
officials that states would be required to assume election 
administration responsibilities that they have delegated to the local 
level.
    2. Amendments to remove specific technologies from the bill. S. 
1415, Section 3.
a. S. 1415 includes references to specific technologies and that states 
will be required to use in the transmission of registration and 
balloting materials to UOCAVA voters. (Fax machines for example). The 
amended language will require the use of mail or electronic means of 
transmission without mandating technologies that may become obsolete.
    3. Amendment to clarify that states are not required to place 
contact information directly on their ballots. S. 1415, Section 3.
a. The bill requires states to dedicate an electronic means of 
communication for use with UOCAVA voters. It also requires that the 
email, phone number, fax, website, etc . . . be printed on materials 
sent to the voters with registration and balloting materials. There is 
a concern that this requirement would obligate the states to print the 
contact information directly on the ballot. The amendment clarifies 
that the information is to be printed on materials accompanying the 
ballot and not the ballot itself.
    4. Amendment to clarify that states are not limited to only one 
point of contact for UOCAVA voters. S. 1415, Section 3.
a. Election officials are concerned that the original language would 
overwhelm state election offices and add an unnecessary and time-
consuming step in the UOCAVA voting process. The amendment clarifies 
that states may refer UOCAVA voters to the appropriate jurisdiction 
within the state for assistance.
    5. Amendment to improve privacy protections. S. 1415, Sections 3 
and 4.
a. The bill's privacy provisions in Sections 3 and 4 are a point of 
concern because states cannot quantify the obligation it would place on 
them. To alleviate this concern, the amendment modifies the privacy 
requirement by inserting the phrase ``To the extent practicable.''
    6. Amendment to add security protections. S. 1415, Sections 3 and 
4.
a. The expanded use of electronic transmission for delivering 
registration and balloting materials necessarily raises security 
concerns. The amendment includes a provision that requires states to 
ensure that procedures established pursuant to the bill protect the 
security and integrity of the registration and balloting processes to 
the extent practicable.
    7. Amendment to improve requirement for ``time to vote.'' S. 1415, 
Section 5.
a. S. 1415 would require states to provide 55 days for the transmission 
of ballots to and from UOCAVA voters. This is a major point of concern 
for states and local election officials. The amendment follows the 
consensus recommendation made at the Rules Committee hearing that the 
period of time for sending and receiving ballots be 45 days.
    8. Amendment to the waiver provision of ballot transmission 
deadline. S. 1415, Section 5.
a. While the Department of Justice is responsible for enforcing the 
requirements of UOCAVA, S. 1415 gives them no role in waiving what will 
be UOCAVA's new mandates. This amendment requires the Presidential 
designee to consult with the Attorney General prior to approving or 
denying a requested waiver.
    9. Amendment to repeal UOCAVA requirement that a single ballot 
application be valid for subsequent elections.
a. The Help America Vote Act amended UOCAVA to require election 
officials to treat an absentee ballot request from a UOCAVA voter to be 
a valid request for the following two general elections. This requires 
states to send absentee ballots to UOCAVA voters for three general 
elections based on a single request. Because the military population is 
extremely mobile, few of these voters remain at the same address for 
this length of time. Election officials are put in the difficult 
position of having to mail live ballots to addresses they know to be 
inaccurate. These ballots greatly increase the administrative burden on 
election officials and heighten the potential for fraud. The amendment 
would strike this requirement from the underlying law.
    10. Amendment to clarify that HAVA requirement payments remain 
available. S.1415, Section 12.
a. State election officials are concerned that this section of the bill 
would bar them from receiving any future HAVA requirement payments 
unless they updated their state plans to incorporate the requirements 
of this legislation. The amendment clarifies that only money authorized 
and appropriated pursuant to this bill will be contingent upon states 
amending their state plans. Existing HAVA requirement funds will not.
[GRAPHIC] [TIFF OMITTED] T6336.532

[GRAPHIC] [TIFF OMITTED] T6336.533

[GRAPHIC] [TIFF OMITTED] T6336.534

[GRAPHIC] [TIFF OMITTED] T6336.535

[GRAPHIC] [TIFF OMITTED] T6336.536

[GRAPHIC] [TIFF OMITTED] T6336.537

[GRAPHIC] [TIFF OMITTED] T6336.538

[GRAPHIC] [TIFF OMITTED] T6336.539

[GRAPHIC] [TIFF OMITTED] T6336.540

[GRAPHIC] [TIFF OMITTED] T6336.541

[GRAPHIC] [TIFF OMITTED] T6336.542

[GRAPHIC] [TIFF OMITTED] T6336.543

  

                                  <all>

</pre></body></html>
